<html>
<title> - GETTING THE MOST BANG FOR THE BUCK: QUALITY EARLY EDUCATION AND CARE</title>
<body><pre>[Senate Hearing 112-801]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-801

  GETTING THE MOST BANG FOR THE BUCK: QUALITY EARLY EDUCATION AND CARE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

               EXAMINING QUALITY EARLY EDUCATION AND CARE

                               __________

                              JUNE 9, 2011

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                  U.S. GOVERNMENT PRINTING OFFICE

82-228 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania   RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina         ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut      


                      Pamela Smith, Staff Director
                 Lauren McFerran, Deputy Staff Director
     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

                BARBARA A. MIKULSKI, Maryland, Chairman

PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         LAMAR ALEXANDER, Tennessee
ROBERT P. CASEY, JR., Pennsylvania   JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina         RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut      MICHAEL B. ENZI, Wyoming (ex 
TOM HARKIN, Iowa (ex officio)        officio)

                    Jessica McNiece, Staff Director

                                  (ii)







































                            C O N T E N T S

                               __________

                               STATEMENTS

                         THURSDAY, JUNE 9, 2011

                                                                   Page

                           Committee Members

Mikulski, Hon. Barbara A., Chairman, Subcommittee on Children and 
  Families, opening statement....................................     1
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................     2
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    16
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    19
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    21
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    23
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    26
    Prepared statement...........................................    27

                            Witness--Panel I

Lombardi, Joan, Ph.D., Deputy Assistant Secretary and Inter-
  Departmental Liaison for Early Childhood Development, 
  Administration for Children and Families, U.S. Department of 
  Health and Human Services......................................     4
    Prepared statement...........................................     5

                          Witnesses--Panel II

Hillian, Dennis, Family Service Coordinator, The Charles County 
  Judy Center, Waldorf, MD.......................................    30
    Prepared statement...........................................    32
Smith, Linda K., Executive Director, National Association of 
  Child Care Resources & Referral Agencies, Arlington, VA........    41
    Prepared statement...........................................    42
Rolnick, Arthur J., Senior Fellow and Co-Director of the Human 
  Capital Research Collaborative, Humphrey School of Public 
  Affairs, the University of Minnesota, Minneapolis, MN..........    49
    Prepared statement...........................................    51
Blum, Eva Tansky, Senior Vice President and Director of 
  Communication Affairs, PNC Bank, Pittsburgh, PA................    56
    Prepared statement...........................................    57
Mills, Charlie, III, Founder and Chief Executive Officer, Salera 
  Capital Management, Potomac Falls, VA..........................    62
    Prepared statement...........................................    64

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    American Public Human Services Association (APHSA)...........    80
    Response to questions of Senator Murray by:
        Joan Lombardi............................................    81
        Dennis Hillian...........................................    81
        Linda K. Smith...........................................    82
        Arthur J. Rolnick........................................    82
        Eva Tansky Blum..........................................    83
        Charlie Mills, III.......................................    84

                                 (iii)

  

 
  GETTING THE MOST BANG FOR THE BUCK: QUALITY EARLY EDUCATION AND CARE

                              ----------                              


                         THURSDAY, JUNE 9, 2011

                                       U.S. Senate,
                     Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m. in 
Room 430, Dirksen Office Building, Hon. Barbara Mikulski, 
chairman of the subcommittee, presiding.
    Present: Senators Mikulski, Burr, Murray, Sanders, Casey, 
Franken, and Bennet.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. Good morning everybody. The subcommittee 
on Children and Families will come to order.
    I am pleased to convene the subcommittee's first hearing of 
the 112th Congress on an issue that is very important, I 
believe not only to the members of the subcommittee, but to the 
American people. We are talking about the importance of 
supporting our next generation and making sure that our 
children are given every chance to succeed and that our Nation 
has a chance to prosper.
    The title of today's hearing is ``Getting the Most Bang for 
the Buck: Quality Early Education and Care.''
    I would like to first begin by thanking my ranking member, 
Senator Burr, my dear friend and my dear colleague. We want to 
note that this is a bipartisan hearing, we both worked on these 
excellent witnesses that we have and look forward to working 
together, as we have done on so many issues.
    I also want to thank Senator Burr for introducing 
legislation on comprehensive background checks for those who 
give licensed care in the homes and agencies that utilize the 
Childcare and Development Block Grant dollars. Senator Burr, I 
want to say to you, I would hope after the 4th of July break we 
could schedule a hearing on your bill. We worked on national 
service, so anybody who is in touch with a vulnerable 
population, we are going to make sure we protect that 
population. We have worked with Senator Burr on a number of 
issues and look forward to working with him on this one.
    I want to thank Senator Franken who also had a particular 
interest in this issue and who is one of the prime movers in 
encouraging the subcommittee to have this hearing and I know 
you have one of the witnesses you will be introducing.
    And of course our friend, Senator Casey, introduced some 
important legislation yesterday.
    So today this hearing is going to be really timely, given 
the ongoing debate in our Nation about how we tackle the 
Nation's most important needs. There is a lot of talk in the 
air about how we need to be a more frugal government. I think 
we would all agree with that. We have to find a way to live 
within our means and cut the excesses and the unnecessary. But 
we also have to know when we are going to spend Federal money, 
how and where do we get the bang for the buck. There is 
significant evidence that says early childhood education pays 
the bill. So this committee today will examine all of those 
issues.
    We all know the moral arguments behind investing in our 
children, but we also have to look at the economic and 
intellectual benefits of early childhood education and making 
sure that it is of high quality. From programs such as Head 
Start and Early Head Start, there does appear to be evidence 
that children who participate in those programs are more likely 
to graduate, they are more likely to be productive in the 
workforce and more likely not to engage in dysfunctional 
behavior. Some studies have shown that for every dollar we 
invest, our society seems to get a return on investment of $16.
    Then just speaking as a CJS appropriator, who has to fund 
our Federal prisons, I know the cost of both human life and to 
the Federal budget of a Federal prison. Quite frankly, I am not 
mixing apples and oranges or little pea pods with future big 
bananas, but we need to just look at what we pay now, so we 
don't pay later. Do we invest in children so that they have a 
really sturdy, resilient kind of future? So they are both 
sturdy, resilient and ready to learn. Or, at the end do we do 
incredible remediation in elementary and high school?
    Today we are going to have our witnesses, and I will be 
introducing them shortly. But I would like to get right to the 
hearing and turn to my colleague, Senator Burr, for any opening 
statements that he has.

                       Statement of Senator Burr

    Senator Burr. Madam Chairwoman, thank you very much. I look 
forward to what this newly constructed subcommittee will be 
working on. We have had the habit of changing names and 
responsibilities lately on subcommittees over the past several 
years, and I certainly look forward to your leadership.
    I also want to thank all of our witnesses for their time, 
their dedication and to our shared goal of improving quality--
the quality of early childhood education and care in this 
Nation.
    Quality early childhood education and childcare are 
critically important to ensuring future generations of students 
are prepared for the 21st century. In their early years of 
development, children form cognitive, social, emotional, and 
physical skills that they will need for the rest of their 
lives, both inside and outside of the school classroom. Quality 
childhood education and childcare are essential for ensuring 
all children, regardless of their socio-economic status, race, 
or disability, enter school ready to learn and to succeed.
    I am especially proud that one of the most important 
studies on the benefits of quality early childhood care and 
education was conducted in my home State of North Carolina. 
Children from low-
income families received high-quality education intervention in 
a childcare setting from birth through age 5. The children's 
progress was then monitored over time with follow up studies 
conducted at age 12, 15, and 21. Children who participated in 
the intervention experienced higher cognitive test scores from 
the toddler years to age 21 and higher academic achievement in 
reading and math. Additionally, children in the intervention 
completed more years of education and were more likely to 
attend a 4-year institution. These findings are a testament to 
the importance of quality care and education for children ages 
birth through 5.
    While I know in the last few years the HELP Committee has 
expended a lot of energy on the topic of ESEA reauthorization 
and that we have heard a lot about how title I and other ESEA 
programs can support quality preschool, I think it is important 
that we all remember the major Federal programs for early 
education or childcare, especially the Child Care and 
Development Block Grant, as well as Head Start and Early Head 
Start.
    CCDBG hasn't been reauthorized since 1996, and there are 
critical, commonsense changes needed to CCDBG to ensure infants 
and toddlers receive high-quality care in a healthy and safe 
environment. Far too many kids in this country are in 
childcare, subsidized and paid for by the Federal Government 
that is not safe, healthy, or of general good quality. For 
example, only 10 States currently require comprehensive 
background checks for childcare workers, and a number of States 
have minimal to no licensing, inspection, or training 
requirements. While it is important for working parents to have 
access to childcare, what is more important is to have access 
to quality childcare.
    When working parents enroll their children in childcare, 
they shouldn't have to worry that they might be dropping their 
kids off to be cared by someone who has been convicted of a 
violent crime. We owe it to working parents to make the changes 
needed to CCDBG to ensure that children are taken care of by 
quality individuals in a safe and healthy environment.
    Madam Chairman, I can't thank you more for making this the 
topic of our initial hearings and I look forward to working 
with you this Congress.
    Senator Mikulski. Thank you, very much.
    To my colleagues, we are going to recognize members on the 
order of their arrival. For the other Senators we are going to 
allow them 7 minutes in their first round so that that is the 
point where they could say an opening statement or two.
    I think we would like to get right to Dr. Lombardi and then 
right to this really excellent panel that we have and move 
expeditiously.
    Dr. Lombardi, we want to welcome you. The deputy assistant 
secretary and inter-departmental liaison, wow----
    [Laughter.]
    Senator Mikulski [continuing]. For Early Childhood 
Development Administration for the Children and Families 
Department of Health and Human Services.
    You come with a really distinguished background.
    Ms. Lombardi. Thanks.
    Senator Mikulski. Lots of hands-on experience over the 
years. We welcome your testimony and your insights and 
recommendations that you might have.

 STATEMENT OF JOAN LOMBARDI, Ph.D., DEPUTY ASSISTANT SECRETARY 
AND INTER-DEPARTMENTAL LIAISON FOR EARLY CHILDHOOD DEVELOPMENT, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
           HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Ms. Lombardi. Thank you and good morning, Chairman Mikulski 
and Ranking Member Burr and members of the subcommittee.
    I am so pleased to appear before you to discuss the 
activities of the Department of Health and Human Services, 
those activities that are promoting early childhood 
development. I am also really thrilled to be here with so many 
colleagues who have contributed to this issue over the years 
and with parents who live this issue every day.
    Ten years ago the National Academy's report, ``From Neurons 
to Neighborhoods,'' found that brain development is most rapid 
during the first 5 years of life and that early experiences 
matter for healthy development. Evidence continues to mount 
demonstrating how children's earliest experiences provide a 
foundation that can have a profound influence on their later 
success. Cost benefit analysis of early childhood programs find 
that high quality early intervention pays off. The scientific 
and economic case, as you will hear today, for investing in 
early childhood is strong.
    Our job in the Administration is to move forward with 
policies that build on this evidence. We have established a set 
of principles that guide our work. These include, among others, 
focusing on the continuum of development from prenatal to 
eight, adapting and improving standards for early childhood 
programs, supporting the workforce so they can develop high 
quality programs, promoting the importance of families as a 
core element in quality programs and in their child's 
development, addressing the health needs of children and making 
sure that we address the needs of the most vulnerable.
    ACF, as you know, administers both the Head Start Program 
and the Childcare and Development Fund and co-administers, with 
the Health Resources and Services Administration, the Maternal, 
Infant and Early Childhood Home Visiting Program. And as a 
result of language included in the full-year continuing 
appropriation, we are now jointly administering The Race to the 
Top-Early Learning Challenge with the Department of Education.
    Across from these programs, our goal has been to assure 
young children are healthy, happy and successful, from their 
earliest years into the transition to school. Nothing is more 
important to achieving that goal than our efforts to improve 
the quality of those services. I would like to briefly 
highlight some of our efforts.
    Ongoing quality improvements, first of all, it is 
critically important to make sure that every Head Start Program 
across the country is providing quality. In our Roadmap to 
Excellence in Head Start, we designed quality improvements that 
used the latest evidence on promoting positive and sustained 
outcomes for children. This, as you know, builds upon the 
historic Head Start Reauthorization Act of 2007 which included 
raising standards, fully engaging families, raising teacher 
qualifications and improving monitoring and requiring that low 
performing grantees compete for Head Start funds.
    Head Start is enacting stronger accountability provisions 
to ensure that grantees meet expectations. For the first time, 
Head Start programs that do not provide high quality services 
will have to compete for continued funding. Under the 
designation renewal system proposed rule, grantees will be 
evaluated based on criteria that look at measures of classroom 
quality, health and safety, financial management and program 
management.
    But we didn't stop there, we improved the training and 
technical assistance system, the monitoring system and took 
steps to ensure program integrity.
    On the childcare side, we are also raising the quality of 
childcare across the country and we are particularly interested 
in putting forth--that we put forth principles to reform the 
Childcare and Development Block Grant and to improve quality, 
expand access, promote continuity of care, ensure program 
integrity, streamline and promote better coordination across 
early childhood programs.
    Finally, we are working with the childcare grantees to 
ensure that all programs are used to the benefit of eligible 
children. Recently we issued stronger policy guidance to advise 
programs on how they prevent waste, fraud and abuse.
    Taken together, these reforms would help transform the 
Nation's childcare system into one that provides safe, 
nurturing care that fosters healthy development, is focused on 
quality, ensures integrity and supports parental employment.
    In closing, we are very excited about our agenda and we are 
convinced it will lead to real results in healthy child 
development, school readiness, school achievement. The 
subcommittee plays a critical role in our reform efforts and we 
look forward to continuing to work with you on the reform 
agenda outlined in the President's fiscal year 2012 budget, 
including the reauthorization of the Childcare and Development 
Block Grant, which as you know, celebrated its 20th anniversary 
last year.
    I would be happy to take questions.
    [The prepared statement of Ms. Lombardi follows:]
               Prepared Statement of Joan Lombardi, Ph.D.
    Chairwoman Mikulski, Ranking Member Burr, and members of the 
subcommittee, I am pleased to appear before you to discuss investments 
that the Department of Health and Human Services' (HHS) Administration 
for Children and Families (ACF) is making to promote early childhood 
development and support working families. Recognizing that children's 
early experiences are critical in shaping the foundation for their 
long-term health and education, early childhood development is one of 
Secretary Sebelius' highest priorities, so we are especially 
appreciative that you are holding this hearing today.
    Over the past 2 years, ACF has developed a more integrated early 
childhood unit that has become a focal point for early childhood 
activities at the Federal level. ACF not only provides oversight to the 
two largest Federal programs, Head Start and the Child Care and 
Development Fund, but we are engaged in a series of interagency efforts 
within HHS and with our colleagues at the Department of Education that 
provide a unique model of collaboration within the Federal Government. 
To describe our agency's successes further, I would like to focus my 
remarks today on three topics. First, I will highlight why investments 
in the early years are so important. Second, I will describe some of 
the core investments we are making in early childhood. Finally, I will 
discuss our efforts to improve quality to better achieve results.
     investments in the early years lay the foundation for success
    Ten years ago, the Department of Health and Human Services (in 
collaboration with other Federal agencies and private funders) funded 
the National Academies to produce From Neurons to Neighborhoods, a 
seminal report on early childhood development. The most important 
findings from this comprehensive synthesis of the science of early 
childhood development are that brain development is most rapid during 
the first 5 years of life, and that early experiences matter for 
healthy development. Evidence continues to mount demonstrating how 
children's earliest experiences provide a foundation that can have a 
profound influence on their later success. Nurturing and stimulating 
care given in the early years of life literally builds optimal brain 
architecture that allows children to maximize their enormous potential 
for learning. On the other hand, hardship in the early years of life 
can increase the odds towards later problems. Interventions in the 
first years of life are capable of helping to shift the odds for those 
at risk of poor outcomes toward more positive outcomes. Because of the 
relationship between early experience and later success, investments in 
high quality early childhood programs can pay large dividends.
    Cost-benefit analyses have been conducted for a number of early 
childhood programs, and while the specific numbers vary depending on 
the method used to calculate them, all find that high quality early 
interventions pay off. For every dollar invested in these high quality 
early interventions, there was a long-term return on that investment.
    These investments are most critical for disadvantaged children and 
families--the families ACF and our State and local partners serve in 
Head Start and child care assistance programs.
    High quality early care and education programs support school 
success and positive outcomes for children promoting long-term 
productivity in the next generation's workforce. We cannot win the 
future without ensuring that every child reaches his or her full 
potential--and to do that, we need every child to start kindergarten 
ready to succeed. Finally, early care and education programs also have 
an important economic impact. By providing safe, supervised settings 
for young children, programs allow parents to work--and look for work 
during temporary periods of joblessness. In addition, many States and 
communities have conducted studies and discovered that the early care 
and education sector has an economic impact that can be as valuable as 
many other sectors. This economic effect comes not only through direct 
employment of early care and education teachers, but also from the 
goods and services that child care providers purchase.
    early childhood programs in the administration for children and 
                                families
    As you will hear this morning, both the scientific and economic 
case for investing in the early years is strong. Our job in the 
Administration is to move forward with policies that build on this 
evidence. In order to assure that children grow up healthy, happy and 
successful, we have established a set of principles that guide our 
work. These include: focusing on the continuum of development from 
prenatal to age 8, adopting early learning and development standards, 
improving quality standards in early childhood programs, developing a 
comprehensive assessment system, coordinating uniform data collection, 
supporting the workforce so it can deliver high-quality programs, 
promoting the importance of families as a core element in quality 
programming and in their children's overall development, addressing the 
health needs of children, and making sure that we address the needs of 
the most vulnerable.
    HHS administers a set of programs that affect the healthy 
development of young children and support families. The early childhood 
programs administered by ACF are designed both to provide enriching 
early childhood experiences that promote the long-term success of 
children and to assist low-income working parents with the cost of 
child care. Creation of my position as Deputy Assistant Secretary and 
Inter-Departmental Liaison for Early Childhood Development was a first 
step in the Department's vision to better align our early childhood 
programs. The interagency work includes stronger linkages with the 
health side of HHS and bold new initiatives with the Department of 
Education.
    ACF administers both the Head Start Program and the Child Care and 
Development Fund and co-administers with the Health Resources and 
Services Administration (HRSA) the Maternal and Infant and Early 
Childhood Home Visiting Program. And, result of language included in 
the Full-Year Continuing Appropriations Act, 2011, we are now jointly 
administering the Race to the Top--Early Learning Challenge with the 
Department of Education.
Head Start
    Head Start promotes school readiness for children, ages 3 to 5, in 
low-income families. Head Start programs also promote school readiness 
through the provision of educational, nutritional, social, and other 
services to enrolled children and families. Programs actively engage 
parents in their children's learning and help parents make progress 
toward their own educational, literacy and employment goals. The Office 
of Head Start (OHS) provides grants to 1,661 local public and private 
non-profit and for-profit agencies to provide Head Start and Early Head 
Start services to meet the needs of local communities. The size and 
structure of these agencies vary widely from a program serving 20 
children in an Alaska Native village to a large metropolitan school 
district serving more than 20,000 children.
    Early Head Start (EHS), launched in 1995, provides support to low-
income infants, toddlers, pregnant women and their families. EHS 
programs enhance children's physical, social, emotional, and 
intellectual development; assist pregnant women to access comprehensive 
prenatal and postpartum care; support parents' efforts to fulfill their 
parental roles; and help parents move toward self-sufficiency.
    The Recovery Act included $2.1 billion to expand Head Start and 
Early Head Start, support investments in teachers, classroom materials, 
and quality services and establish State Advisory Councils on Early 
Childhood Development and Education. With this historic investment in 
early childhood education, Early Head Start programs increased the 
number of children served by 48,000 infants and toddlers and 13,000 3- 
and 4-year-olds.
    In total, more than 965,000 children and families are receiving 
comprehensive services, including early care and education, health, 
nutrition, disability services and a range of other family supports 
this year. The President's fiscal year 2012 budget for Head Start of 
$8.1 billion would maintain services for these children and support 
critical quality improvements to maximize the effectiveness of the 
investment in Head Start. Even with the historic expansion under the 
Recovery Act, Early Head Start serves less than 5 percent of poor 
infants and toddlers across the country are receiving services. Head 
Start serves less than half of poor 3- and 4-year-olds.
    Results from the Head Start Family and Child Experiences Studies 
(FACES) (1997, 2000, 2003, 2006, and 2009) document that, on the whole, 
children enter Head Start at a great disadvantage in terms of school 
readiness skills compared to their more economically advantaged peers. 
The FACES studies show that the gap is diminished, but not eliminated, 
as children enter school. Nonetheless, there is considerable evidence 
that Head Start makes a difference in the life course of disadvantaged 
children.
    The Head Start Impact Study (HSIS), which randomly assigned 
children to Head Start or community services as usual, found that, at 
the end of 1 year in Head Start, children in the Head Start group had 
better cognitive skills and younger children had fewer behavior 
problems than children in the non-Head Start group. Despite these early 
gains, by the end of first grade, overall, children in the Head Start 
group had similar levels of achievement as children assigned to the 
comparison group.
    Although effects of Head Start were not evident in first grade on 
traditional measures of children's achievement, there were positive 
differences in other areas. For instance, Head Start children received 
a broader range of health, parent, and family social services than the 
control group children. Head Start children had higher rates of health 
insurance coverage into first grade and were 15 percent more likely to 
receive dental care. Additionally, after 1 year in Head Start, parents 
reported participating in more educational activities (i.e., read to 
child, family cultural enrichment) with their children, and parents of 
children who entered as 3-year-olds were less likely to use physical 
discipline.
    It is also important to note that there were benefits into early 
elementary school for some groups of children. By the end of first 
grade, children in the 3-year-old Head Start entry group had closer and 
more positive relationships with their parents. In addition, a number 
of gains persisted for certain subgroups of children, including 
children who were dual language learners, children in higher risk 
families, and children with special needs.
    A rigorous random-assignment evaluation found that at the end of 
the program, Early Head Start was effective in improving outcomes for 
children across all areas of development studied--cognitive, language, 
social emotional, and health--as well as parenting and family self 
sufficiency. Impacts were especially strong for African-Americans, 
families who entered during pregnancy, those programs that had the 
potential to provide both center- and home-based services, and those 
programs that were fully implementing the Head Start Program 
Performance Standards. The research found the potential for long-term 
impacts as well. Two years after the end of the program, positive 
impacts remained for children's social emotional development and for 
many parenting outcomes. Both short and longer term outcomes depended 
on what experiences children had after leaving Early Head Start.
    It is important to remember that there is a large body of research 
on Head Start, in addition to these impact studies that were undertaken 
by the Department. A number of studies, taking advantage of 
longitudinal data sets such as the National Longitudinal Study on Youth 
or the Panel Study of Income Dynamics, have found long-term effects of 
Head Start for children who participated in Head Start when compared to 
siblings who did not. Head Start children were less likely to be 
retained in grade or receive special education services by the time 
they were 14 (Currie & Thomas, 1995; Deming, 2009). Additionally, a 
random sample of children who attended Head Start between 1988 and 1990 
performed better on an index of adult functioning that considered 
educational attainment, employment, teen parenting, criminal behavior, 
and health outcomes (Deming, 2009), while some groups were more likely 
to complete high school and attend college or less likely to be charged 
with a crime or become obese during childhood (Frisvold, 2006; Garces, 
Thomas, & Currie, 2002). At least one of these studies also found a 
long-term increase in cognitive test scores (Currie & Thomas, 1995). 
There is also a growing body of research demonstrating effective 
strategies for improving Head Start and other early care and education 
programs through curricular enhancements, professional development for 
teachers, and other key supports (for example, research by Pianta, 
Bierman, Fantuzzo, Raver, and others).
    Evidence indicates that Head Start helps get our most vulnerable 
children ready for kindergarten. However, we can and must strengthen 
the program and raise the bar on quality. Our efforts on this front are 
discussed below.
The Child Care and Development Fund
    The high cost of child care presents real barriers to work for low-
income parents and limits their ability to access high quality care. 
The average annual price of care for an infant in a center ranges from 
$4,550 in the least expensive State to $18,750 in the highest (National 
Association of Child Care Resource and Referral Agencies, 2010).
    The Child Care and Development Fund (CCDF) program plays a critical 
role in assisting low-income working parents with the cost of child 
care, as well as improving the quality of programs to promote the long 
term success of disadvantaged children. Investments made in the CCDF 
program are especially important because they have a two-generational 
impact. Low-income parents need access to child care in order to work 
and gain economic independence and low-income children benefit the most 
from a high quality early learning setting.
    The first part of the investment from CCDF is to support financial 
assistance to families to reduce the burden of high child care costs. 
In 2009, the program provided subsidies to 1.6 million children each 
month. Nearly half of the families receiving subsidies had incomes 
below the poverty level (which was $18,310 for a family of three in 
2009), and only 15 percent had incomes above 150 percent of poverty. 
Approximately 75 percent of families receiving assistance were working; 
the remaining families were enrolled in training and education programs 
leading to work, or to assist children in need of protective services. 
CCDF also leverages child care investments from the Temporary 
Assistance for Needy Families (TANF) program and other funding streams, 
resulting in financial support to make child care more affordable for a 
total of 2.5 million children each month. However, even counting these 
additional investments, only 1 in 6 federally eligible children 
actually receives assistance--leaving many families that are forced to 
choose lower quality care, quit their jobs, leave their children 
unsupervised, or make other untenable choices.
    The second, and equally important part of the investment from CCDF, 
is in improving the quality of child care. States spend $1 billion 
annually in CCDF funds to support child care quality improvement--on 
average, nearly three times the 4 percent required by law. CCDF quality 
investments result in better learning environments and more qualified 
caregivers in child care settings across the country. In many States, 
CCDF is the primary funding source for infrastructure and systemic 
reform that supports quality improvement--such as Quality Rating and 
Improvement Systems to help programs meet higher standards and provide 
parents with critical information about the quality of their child care 
choices. In addition, States are focusing on professional development 
for caregivers, creating career pathways leading to higher levels of 
qualifications, professional recognition, and better compensation. 
These investments benefit millions of children nationwide--not just 
those receiving child care subsidies.
    Congress significantly increased funding for the Child Care 
Development Fund through the Recovery Act to meet the needs of low-
income families during the recession. That funding helped support child 
care assistance as well as critical quality improvement efforts. 
However, as States exhaust their Recovery Act funds and continue to 
struggle with lower revenues, many are scaling-back services and 
reducing investments in quality. We are concerned about some of the 
cuts we are hearing about throughout the country and hope that as the 
economy and States' revenues improve, States will once again invest in 
these important efforts.
    The President's budget request provides a $1.3 billion increase for 
the CCDF program, for a total of $6.3 billion in fiscal year 2012, and 
would support services to approximately 1.7 million children. This 
investment would not only expand access, but it would support new 
quality investments that can help improve quality for all children in 
care.
Maternal, Infant and Early Childhood Home Visiting Program
    I would like to briefly discuss the Department's efforts with the 
Maternal, Infant, and Early Childhood Home Visiting Program to 
implement the Home Visiting program, another example of the President's 
commitment to targeting funds towards evidence-based approaches while 
also spurring--and evaluating--continued innovation. In a little over a 
year since enactment of the Affordable Care Act, we have made great 
strides implementing the program. The fiscal year 2010 programs are 
well underway and the fiscal year 2011 funding opportunity 
announcements are being issued, with a competitive announcement issued 
on June 1 and a formula announcement forthcoming. Most of the increase 
in funding in fiscal year 2011 as compared to fiscal year 2010 (the 
fiscal year 2011 allocation is $250 million, compared with $100 million 
in fiscal year 2010) will be awarded through this competitive process. 
Technical assistance is being provided to all grantees to support their 
planning and implementation activities and the Secretary's Advisory 
Committee on the National Evaluation was convened to inform the design 
of the evaluation and a request for proposals for the national 
evaluation has been issued.
    ACF and HRSA continue to collaborate on the implementation of the 
Maternal, Infant, and Early Childhood Home Visiting (MIECHV) Program, 
drawing on the important work both agencies do to support healthy child 
development through programs such as HRSA's maternal and child health 
block grant and ACF's early education and child welfare programs.
    Research has found that home visiting programs can have both short- 
and long-term effects on the well-being of children and families that 
participate in the programs. Each home visiting program is unique in 
the constellation of services it provides and in the ages of children 
and the type of family it targets. As a group, home visiting programs 
can produce an array of positive outcomes, including improvements in 
child and maternal health, child development, and school readiness; 
reductions in child maltreatment; increases in positive parenting 
practices; and improvements in family economic self-sufficiency.
Race to the Top Early Childhood Challenge
    We are very appreciative of Congress for including, in the fiscal 
year 2011 CR, $700 million for Race to the Top and for adding 
``Improving Early Childhood Care and Education'' as a core goal. On May 
25, 2011, U.S. Secretary of Education Arne Duncan and U.S. Secretary of 
Health and Human Services Kathleen Sebelius announced that the 
Administration plans to use approximately $500 million of the fiscal 
year 2011 Race to the Top funding for a major competition in support of 
bold and comprehensive State plans for reforming early learning and 
development programs to close the school readiness gap.
    This competition, the Race to the Top-Early Learning Challenge 
(RTT-ELC), jointly administered by the Departments of Education (ED) 
and Health and Human Services (HHS), will not mean another program or 
more bureaucracy. It will award grants to States that show the most 
promise in narrowing the school readiness gap by aligning existing 
programs and resources more effectively and making key reforms to 
improve quality across programs.
    Specific competition requirements, priorities, and selection 
criteria are still under development. However, consistent with the 
statute, applicant States will need to take actions to:

    <bullet> Increase the number and percentage of low-income and 
disadvantaged children in each age group of infants, toddlers, and 
preschoolers who are enrolled in high-quality early learning programs;
    <bullet> Design and implement an integrated system of high-quality 
early learning programs and services; and
    <bullet> Ensure that any use of assessments conforms with the 
recommendations of the National Research Council's reports on early 
childhood.

    Because high quality early childhood education spans the ages of 
birth to age 8 and involves the transition of children from early 
childhood programs into our Nation's schools, we look forward to 
continuing the historic collaboration between the Department of Health 
and Human Services and the Department of Education.
Other Interagency Initiatives
    Secretary Sebelius has charged all of us at HHS to seek out 
collaborations within the Department and with other Departments where 
those collaborations can improve outcomes and make our efforts more 
effective. The following are just some examples of those efforts:
    The Office of Head Start and the Office of Child Care have joined 
forces with the Department of Defense as part of a Military Family 
Federal Interagency Collaboration. This collaborative effort is focused 
on increasing the availability and quality of child care in 13 States 
for military families, especially those families not near military 
bases or not having easy access to other military child care supports.

    <bullet> Asset/Financial Stability for Families with Young Children 
is a special ACF initiative stressing the importance of family 
financial stability in the development of young children. Through this 
initiative, ACF seeks to explore new opportunities for ensuring that 
those involved in early care and education services--providers and 
families with children--have access to financial education, Individual 
Development Accounts (IDAs) and other asset building strategies.
    <bullet> In 2009, ACF established an early childhood child welfare 
partnership among Federal agencies to increase communication, 
coordination, and collaboration among early childhood and child welfare 
systems at the Federal, State, and local levels. This partnership 
promotes increased access, participation, and attendance in high 
quality early learning and development programs and maximizes program 
continuity for young children, especially those first being placed in 
foster care, changing placements, and/or reunifying with their 
families.
          efforts to improve quality to better achieve results
    Across all of our programs, our goal has been to assure young 
children are healthy, happy and successful from their earliest years 
and as they transition into school. Nothing is more important to 
achieving this goal than our efforts to improve the quality of the 
services provided.
    There is much that we already know about what makes for high 
quality early childhood programs. For example, research indicates that 
better child outcomes are associated with high quality adult-child 
interactions. Specifically children need teachers and caregivers who 
are sensitive and responsive and who provide language rich, stimulating 
environments and opportunities. Relatedly, evidence increasingly 
demonstrates the connection between the quality of implementation of 
evidence-based practices and the outcomes that are obtained 
highlighting the necessity of ongoing professional development.
    Within our new interagency structure, the Office of Head Start and 
the Office of Child Care have been working together to better align 
their programs. This has included regular meetings with the leadership 
of both offices, as well as targeted meetings across policy divisions 
and training and technical assistance divisions. This has resulted in a 
plan for a more coordinated technical assistance system, better 
alignment of policies and a special project to use Early Head Start as 
a hub of comprehensive services for family child care. In addition, 
efforts have been made to better integrate ACF's research agenda and 
projects across early childhood.
Head Start
    Ongoing quality improvement of every Head Start program is a key 
element of the Administration's education agenda, which is designed to 
help every child meet his or her full potential and make our country 
more competitive. Almost 1 million children depend on the Head Start 
program, and they all deserve to be in settings where program 
activities are engaging and developmentally appropriate, and promote 
increased vocabulary, early literacy, early math, problem solving, and 
healthy social, emotional and physical development. The challenge is 
ensuring that more programs are of the highest quality and produce the 
results we know are possible. Head Start children and families deserve 
the best services we have to offer, and we are taking aggressive steps 
to meet our commitments to them.
    As the Department laid out in Roadmap to Excellence in Head Start, 
we have designed quality improvement initiatives that use the latest 
evidence on promoting positive, sustained child outcomes. These 
comprehensive quality initiatives build on those called for in the 
December 2007 Head Start Reauthorization Act, and include:

    <bullet> raising the standards to which Head Start programs are 
held;
    <bullet> fully engaging families in their child's development and 
learning;
    <bullet> raising teacher qualification requirements;
    <bullet> providing better training to teachers and other Head Start 
professionals, focused on bringing current research and the best 
available evidence-driven strategies for early child development and 
education directly into Head Start programs;
    <bullet> improving monitoring of Head Start programs to ensure that 
evidence-based methods are being implemented; and
    <bullet> requiring low-performing grantees to compete for Head 
Start funds.

    In all of these efforts we are using research to focus on what 
matters most to children's development. One example of how we are using 
evidence to improve quality is our use of the Classroom Assessment 
Scoring System (CLASS), a research-based observational instrument to 
assess classroom quality that was developed by researchers at the 
University of Virginia. The CLASS focuses on the multiple dimensions of 
teacher-child interaction that are linked to positive child development 
and later achievement. Since teacher-child interactions are such an 
important measure of quality, HHS has provided CLASS training to every 
Head Start program across the country and is utilizing CLASS in 
Training and Technical Assistance and in the monitoring of Head Start 
programs.
    OHS also is enacting stronger accountability provisions to ensure 
that grantees meet expectations. We expect to move forward with the 
implementation of the Designation Renewal System this year when we 
issue a final rule. For the first time, Head Start programs that do not 
provide high-quality services will be forced to compete for continued 
funding. Under the proposed rule, grantees will be evaluated based on 
criteria that look at measures of classroom quality, health and safety, 
financial management, and program management. Programs that fail to 
meet any one of the standards will be required to compete for continued 
funding. We have proposed that the lowest performing 25 percent of 
programs reviewed, at a minimum, have to compete.
    Requiring low-performing Head Start grantees to compete for funding 
will represent a historic step towards accountability and quality 
control in Head Start. We understand that some are concerned about this 
change and the number of grantees that could be impacted. However, the 
Administration is deeply committed to funding only high performing 
grantees and conducting effective and rigorous competitions to provide 
quality services for all Head Start children and families.
    Head Start has strengthened its Training and Technical Assistance 
system to provide enhanced evidence-based support to programs in their 
delivery of quality services to children and families. The new system 
consists of six National Centers functioning as a team to provide 
consistent information across service areas, a network of State 
technical assistance providers, and direct funding to grantees. The 
Centers will communicate ``best practices'' and provide content-rich, 
usable, practical resources and information to grantees. The Office of 
Head Start also has funded 10 Centers of Excellence to showcase 
promising models of high quality early childhood service delivery 
across the country.
    Finally, we have taken strong steps to ensure program integrity. 
Specifically, we have enhanced current monitoring procedures by 
partnering with the HHS Office of Inspector General and conducting 174 
unannounced monitoring visits to Head Start and Early Head Start 
programs, setting up a fraud hotline, and proposing new regulations to 
strengthen the eligibility verification processes.
Child Care
    Our focus in the child care program is on raising the quality of 
care across the country. A large body of research has linked the 
quality of child care and early education programs to children's 
developmental outcomes, especially for children from low-income 
households and with multiple risk factors. The most recent findings 
from the National Institute of Child Health and Human Development study 
of child care found that the quality of child care that children 
received in their preschool years had modest but detectable effects on 
their academic success and behavior into adolescence.
    In addition, new research findings indicate that the quality of 
interactions between children and adults in child care and early 
education programs, especially those interactions focused on supporting 
children's progress in specific developmental domains, are most 
predictive of children's developmental outcomes at the end of preschool 
(Zaslow, et al., 2011).
    Despite the importance of quality, the research and data available 
indicate that the quality of our Nation's child care, on average, is 
inadequate to support children's learning and development to help them 
succeed in school and in life, and in the worst cases is harmful to 
children's basic health and safety. Too often State-established 
standards are not high enough to ensure the health and safety of 
children; they do not apply to many settings in which young children 
are cared for; and monitoring to ensure compliance with standards is 
not adequate.
    We are addressing this inadequacy by improving the Child Care 
Program in the following ways:
    First, the Child Care and Development Block Grant is long overdue 
for reauthorization and the Administration has put forward principles 
to reform the program and promote quality as envisioned in the 
following core principles:

    <bullet> Improving Quality--Reauthorization should establish a 
foundation that will assure health and safety in child care and a 
systemic framework through which States can improve the quality of 
child care by increasing the share of dollars dedicated to quality 
improvement. Increased quality funding will support stronger State 
health and safety standards, the implementation of Quality Rating 
Improvement Systems that set standards of excellence and help programs 
meet higher standards, and professional development systems to improve 
the qualifications of child care teachers.
    <bullet> Expanding Access--Increased funding will support services 
to 1.7 million children, approximately 220,000 more than could be 
served without additional funds.
    <bullet> Promoting Continuity of Care--Our reforms would establish 
longer eligibility periods for families receiving child care to 
minimize disruptions for children and to support parent employment and 
reemployment.
    <bullet> Ensuring Program Integrity--We propose to invest in 
regional and State capacity to improve program integrity and provide 
technical assistance to States on reducing waste, fraud, and abuse.
    <bullet> Streamlining Resources for Early Childhood Development 
Programs--We will facilitate coordination of funding streams at the 
State and local level and remove barriers to collaboration so that 
States and communities can better address the comprehensive needs of 
children from 0 to 5.

    Second, we are moving forward on several administrative reforms by 
developing mechanisms to measure and report on efforts to raise 
quality. We have proposed a revision to the Child Care and Development 
Fund Plan application that would redesign the child care quality 
section to focus on the components of a strong child care system: 
health and safety requirements, early learning guidelines, quality 
improvement systems for programs, and professional development and 
workforce initiatives. The new Plan application will, for the first 
time, require an annual progress report--the Quality Performance 
Report--which will collect data on child care quality activities and 
quality outcomes.
    Third, we are redesigning and improving the child care technical 
assistance network to specialize in core areas, including three new 
National Centers which are focused on child care quality improvement 
systems, professional development systems and workforce initiatives, 
and subsidy administration and program integrity. The Office of Child 
Care's redesigned technical assistance (TA) network will align with TA 
efforts of the Office of Head Start in order to support quality 
improvement at the State systems level that links with enhancements at 
the local program level.
    In coordination with overall HHS efforts, ACF technical assistance 
has also extended to incorporate emergency preparedness and response 
activities, with a key focus on child care. In February of this year, 
the Office of Child Care published the first comprehensive Federal 
guidance to States on how to plan for the continuity of services during 
a disaster and work with child care providers to prepare for 
emergencies. ACF has worked closely with FEMA, the National Commission 
on Children and Disasters, and non-governmental and voluntary 
organizations to widely distribute this guidance and other best 
practices. These efforts have begun to pay off--ACF is one of several 
partners to establish a child care task force to help respond to the 
tornado disaster in Joplin, MO. Through this partnership we are working 
to ensure the State and community are able to access the assistance 
they need to ensure children are in safe and protective environments as 
parents make efforts to rebuild their lives.
    Finally, we are working with CCDF grantees to ensure that all 
program funds are used to the benefit of eligible children and 
families. Our efforts to strengthen program integrity focus on reducing 
administrative errors and preventing, detecting, and eliminating fraud. 
Recently, we issued stronger policy guidance to grantees advising them 
of how to prevent waste, fraud and abuse without creating access 
barriers for eligible children. We are working with States to conduct 
triennial case record reviews to identify and reduce administrative 
errors in the CCDF program. We will be providing States with a self-
assessment instrument that will help them better analyze risk and 
strengthen internal controls to prevent improper payments. Further, we 
will be issuing a revised version of a guide for child care 
administrators which covers key considerations that program officials 
should take into account when building automated systems to reduce 
improper payments.
    Taken together, these reforms would help transform the Nation's 
child care system into one that provides safe, nurturing care that 
fosters healthy child development, promotes future academic success, is 
focused on quality improvement, ensures integrity of funds, and 
supports parental employment.
    These efforts are key elements of the Administration's broader 
education agenda designed to help every child reach his or her 
potential and improve our Nation's competitiveness.
                               conclusion
    Our Nation's competitiveness depends on ensuring that every child 
is able to reach his or her full potential. And, early childhood 
programs have a critical role to play in this effort.
    We are excited about the agenda I have shared with you today and 
are convinced it will lead to real results in healthy child 
development, school readiness, school achievement, and adult success. 
This subcommittee plays a critical role in our reform efforts and we 
look forward to continuing to working with you on the reform agenda 
outlined in the President's fiscal year 2012 budget, including on the 
reauthorization of the Child Care and Development Block Grant Act, 
which celebrated its 20th anniversary last year.
    I appreciate the subcommittee's support for early childhood 
programs and the opportunity to address you today. I would be happy to 
answer any questions.

    Senator Mikulski. Thank you, Dr. Lombardi, for the 
testimony and also staying within the limits of your testimony. 
I mean this is great.
    [Laughter.]
    Let me get right to the question. The President and 
Secretary Sebelius and your leadership call for reform. What 
would you say are the top three to five recommendations you 
would see in reform in the Childcare Development Block Grant?
    I know we are all pretty clear on Head Start. Head Start 
has been around for 40 years, it is a program that is very 
clear in the way it functions. Childcare Development Block 
Grant goes over a lot of providers, a lot of unseen, though 
regulated but unevenly regulated providers, that Senator Burr 
has raised and so on. So what do you see as the reforms in the 
Childcare Development Block Grant?
    Ms. Lombardi. Actually, as Senator Burr said, I think they 
are common sense changes. First of all, we really have to focus 
on the quality of the program, including promoting better 
health and safety standards.
    Senator Mikulski. What does that mean?
    Ms. Lombardi. It means that----
    Senator Mikulski. In other words, let me tell you, every 
time we have meetings and hearings we get abstractions. This is 
not about you nor is it a tart commentary, but we heard, 
``let's have quality.'' I want criteria, methodologies. What 
are we talking about when we say we want reform and improved 
safety standards?
    Senator Burr has one on criminal background checks.
    Ms. Lombardi. I think if we start with health and safety, 
as Senator Burr and you both know, the law now has very minimum 
health and safety protections. It says control of infectious 
diseases, building and physical premise safety and minimum 
health and safety training. It is not enough. That might have 
been enough in 1990, but we know so much more now.
    We also have wide variability in what States are doing 
around those standards. Who is covered? What are the provisions 
across those health and safety categories? When are programs 
inspected? We need to look at that and we need to improve.
    Senator Mikulski. If I hold a hearing on that are you ready 
to come in and talk----
    Ms. Lombardi. Sure.
    Senator Mikulski [continuing]. Very specifically?
    Ms. Lombardi. We are.
    Senator Mikulski. OK. Now, tell me the other reform 
recommendations.
    Ms. Lombardi. I think if you think about what is the chord 
of quality, it is the interaction of the provider with the 
child and with the child's family. But we have not, over the 
years, provided enough support to the workforce, we have not 
required training and credentialing the way we have in the Head 
Start program and so it is time for us to more systematically 
move to support a workforce that every day is caring for 
millions and millions of children, often without any training 
or professional development requirements. So I think that is a 
key area of reform.
    We are also very concerned about the continuity of care for 
children. So right now children have to cycle in and out of 
programs, depending on the work status of their family. 
Sometimes that eligibility is determined every few months. We 
think there should be more continuity of care for children. It 
is like a loss for children when they have to leave their 
program because of their parent's work status changes. There 
should be much more continuity, especially for babies. And we 
are talking about very young children here. So we are very 
much--one of our principles is to promote continuity so the 
redetermination has longer periods.
    So those are just three examples.
    Senator Mikulski. I think those are three excellent ones. 
We will look forward to hearing greater amplification when you 
and others appropriate to the administration come back to 
testify.
    One of the questions we will ask is, does reform cost more 
money? And if it does, how much are we talking about? Also, 
what will reform mean for States, in terms of cost and 
responsibility. But today is to get an overview, we are getting 
an overview.
    My time is up but how does the reform initiatives go to 
what I have been reading about Race to the Top for early 
childcare development?
    Ms. Lombardi. I think what Race to the Top is going to do 
is amplify those reforms, give us models of reform. The States 
have been laboratories--your State Senator Mikulski, Maryland, 
and your State Senator Burr, North Carolina--have been 
laboratories of innovation. But in many cases other States have 
not innovated as much or they need to take the next step on 
developing a quality rating improvement system or many of the 
other initiatives that are going on out there.
    I think Race to the Top will amplify those, it will give 
States an opportunity to compete, to expand upon those. 
Hopefully we will be able to use that knowledge to inform the 
rest of the States through the Childcare and Development Fund.
    Senator Mikulski. So it is like an innovation grant?
    Ms. Lombardi. It is.
    Senator Mikulski. My time is up and I am going to practice 
what I preach to others.
    Senator Burr.
    Senator Burr. Thank you, Madam Chairman.
    Dr. Lombardi, thank you for what you do. I am going to be a 
little more direct than my partner in crime, Senator Mikulski, 
was. Would the Administration support my criminal background 
check bill?
    Ms. Lombardi. Yes, we are very much interested in 
encouraging criminal background checks along with comprehensive 
health and safety standards, including CPR and prevention of 
SIDS and health and safety training. So we are very much 
looking forward to working with you, Senator Burr, on this and 
other issues. And are ready to meet with you and your staff to 
talk further about this.
    Senator Burr. Great. Let me focus in on one word.
    Ms. Lombardi. Sure.
    Senator Burr. Quality. I think that is a word that we can 
all buy off on. Share with me, if you can, how do we measure 
quality in a birth to 5-year-old setting?
    Ms. Lombardi. It is a very good question and we have 
struggled a lot with that question. I will give you the example 
of Head Start. We are using--and this builds again on the 
reauthorization--an instrument to look at teacher/child 
interactions. So what is going on, what instructional supports 
are being provided, what is the social, emotional climate in 
that classroom, because that is critical, especially for 
infants and toddlers and how is the classroom organized.
    So we are looking at those things. I think that, from a 
common sense approach, you walk into a program--I was in a 
program yesterday and you could just feel it, it was full of 
activity, it was full of language, they were eating healthy 
foods, the parents were involved. I think that the quality of a 
program is pretty evident, sometimes, but when you are 
developing policies you have to be specific about training 
requirements and about standards and I think that is the 
direction that we want to go in.
    Senator Burr. I couldn't disagree with you and I think you 
could probably make the same statement if we walked into a 
classroom in K-12----
    Ms. Lombardi. Yes.
    Senator Burr [continuing]. And you saw the scenario you 
just painted, the outcome of the student population would be 
extremely different.
    Last thing, we all have this quest for quality and I am 
very supportive of most, if not all of what you have talked 
about, the safety, the security, the surroundings, we 
continually have to balance what we put in place, as far as 
requirements with what that does to the cost of care.
    Ms. Lombardi. Yes.
    Senator Burr. I think there is a tendency up here to 
potentially overlook some of those things because when we 
adversely affect the cost then we potentially decrease the 
number of slots available. How do we find that balance?
    Ms. Lombardi. It is a question that everyone is debating 
across the country. I think we have, for years, talked about 
quality versus access. I think we are in a new era where we are 
trying to think about parents having choices of quality 
programs and putting those two concepts together and really 
trying to get people to understand that childcare is an 
educational setting for children and that is why it has to be 
quality.
    I think that States are struggling with how to balance it, 
particularly as the recovery funds are being expended and as 
State budgets tighten up. States have three choices that they 
are faced with. They invest in quality when budgets tighten. 
They can lower eligibility, who gets in, fewer people get in. 
They can decrease reimbursement rates, providers get less. They 
can increase co-payments to parents so parents have to pay 
more. And they stop investing in quality. So these factors 
struggle against each other as budgets get tight. I think what 
we have to do is continue to invest in quality childcare so 
that States can make the decisions that have that balance that 
you are calling for.
    Senator Burr. I look forward to working with you----
    Ms. Lombardi. Me too.
    Senator Burr [continuing]. And with the chairwoman. It has 
been 15 years since we have reauthorized CCDBG----
    Ms. Lombardi. A long time.
    Senator Burr [continuing]. It is way past over due.
    Ms. Lombardi. Long time.
    Senator Burr. I thank the chair.
    Senator Mikulski. I think what you hear is that the phrase 
quality is a phrase we all want to embrace, we don't know what 
it means.
    Ms. Lombardi. Right.
    Senator Mikulski. It is often nothing but a cliche. Who 
doesn't want quality? I don't know of any mother in America 
that says, ``Oh my kid is going to go to an unquality childcare 
thing.''
    Ms. Lombardi. Right.
    Senator Mikulski. This is why we are looking for clarity, 
specificity. But we are also looking for Senator Franken to ask 
his questions.
    [Laughter.]
     Senator Franken, I want to thank you for being one of the 
prime movers for recommending this hearing and recommending the 
nature and structure of this.

                      Statement of Senator Franken

    Senator Franken. Thank you, Madam Chair. I want to thank 
you for calling this hearing and you are truly a leader on this 
subject and on so many other issues and I am honored to serve 
under your leadership in this subcommittee and honored to be 
working with Senator Burr as well.
    I can't think of a better topic for your first hearing as 
chair of the subcommittee than the one that the chair has 
chosen, ``Getting the Most Bang for our Buck'' by investing in 
quality early education and care. I bring up this ``bang for 
our buck'' for a reason. I want to focus a lot of my questions 
on this, because we are at a time now when we are looking at 
our long-term sustainability of our budget, of our deficit, 
long-term sustainability. We are going to be around here for a 
long time, we are all going to be around for a long time. 
America is going to be around for a long time. The human race 
is going to be around for a long time. So we are talking about 
long-term sustainability and what is a smart way to spend our 
dollars.
    I would love to hear more about the study--the longitudinal 
study that Senator Burr talked about in North Carolina. He said 
birth to 5.
    Ms. Lombardi. Five.
    Senator Franken. And talked about all the data that came 
out of that. That is what we know. We know that kids with 
quality early childhood education, and we are talking, I think 
prenatal----
    Ms. Lombardi. Yes.
    Senator Franken [continuing]. To five. We know that they 
have better outcomes in so many different ways. We know that 
they have less repeating of grades. We know that they are less 
likely to be in special ed. We know they have better health 
outcomes. We know that there is less teen pregnancy. We know 
that they graduate from high school more frequently and they go 
to college more frequently. That they get better jobs and pay 
more tax dollars. And we also know they end up in prison far 
less.
    Think of the savings of all of that that I just rattled 
off. Think about that. When you think about our budget and what 
we are spending on, let's consider that. I think there can't be 
a more important discussion that we are having in how we invest 
our dollars.
    I want to talk about this, because we hear things like $3 
per dollar to $16 per dollar. That is a wide range, and the 
chair wants us to be precise. So I want to talk about some of 
the data on this and we are probably going to have to--Art 
Rolnick is here from my State of Minnesota, he is an economist 
and I want to talk about that.
    I have some very good friends who talk about Head Start 
fade out. This happened, I believe, early on. Early on there 
was this assumption that Head Start would increase IQ and it 
did increase IQ at a certain point, then it stopped increasing 
IQ and then it settled--it went back down. Then everyone 
stopped there and said, ``Oh Head Start isn't really worth 
it.'' But then they kept doing the longitudinal study and they 
found out all these much better outcomes.
    Today, I want to get into what the actual science is, what 
the economic science is on the return on investment of early 
childhood education. Obviously we are going to get into issues 
of quality and obviously we are going to get into issues of 
what works and what techniques work, whether it is home visits 
and, you know, whether it is prenatal, then home visits and 
then schooling, etc.
    But can you speak to specifically what we know about the 
studies of Head Start?
    Ms. Lombardi. Sure. Let me mention the study that you 
referred to, from North Carolina, the Abecedarian Study. I know 
that Art will give us the investment angle on this, but one of 
the interesting things about that study is that it focused on 
zero to five, the whole continuum, the program did. It was full 
day. It had qualified staff. And the provisions that that 
program had I think would be important to look at to get to 
Senator Mikulski's point about being specific. So one of the 
things we should do is go back to that program and think about 
what did it look like, in detail to see--now times have 
changed, it was a very different time, but I think there were 
some core elements of that study that we should look at in 
thinking about where we go next.
    But let me come back to the Head Start story. We know that 
Head Start has a positive impact on school readiness. If we 
look at the Head Start impact study, 4-year-olds, the benefits 
were concentrated in language and literacy, parenting and 
health. For the 3-year-old group we had positive impacts in all 
four areas of studies, cognitive development, social, 
emotional, parenting and health. Looking across the entire 
group, at the end of first grade, the positive gains were not 
sustained in this particular study. However, there were 
positive subgroup findings for the 3-year-olds, children in 
nonurban settings, special needs children for the 4-year-olds, 
dual language learners. We think that there were positive 
impacts of Head Start and that what the literature is telling 
us is that we need to think about the continuum of services. It 
is critically important.
    Two things we took out of that study, one that we had to 
intensify our impacts, in other words we had to improve our 
services--to make stronger we get stronger outcomes.
    Senator Franken. It feels like we get more bang for the 
buck, the more comprehensive it is and the--and that is when we 
talk--getting into specifics, if we invest in the right way and 
get the biggest outcome I think it is obvious that is what we 
have to do. I am running out of time so I want to follow the 
chair on this, look it is just that the other side of this is 
what percentage of our high needs kids and low-income kids in 
this country are being served?
    Ms. Lombardi. I will tell you the Head Start statistics of 
children, infants and toddlers in the United States in 
poverty--less than 5 percent are in Early Head Start. In Head 
Start it is a little less than half of the children in poverty. 
So we have a long way to go.
    Senator Franken. Yes. OK, thank you.
    Madam Chair.
    Senator Mikulski. That was excellent.
    We want to turn to Senator Bennet who comes to us as a 
former school superintendent in Colorado. We have quite a panel 
here. Senator Murray was a childcare worker, I was a social 
worker in a Head Start program, Bennet was superintendent of 
education, I am sure Senator Franken would have been one of our 
visitors at these programs.
    [Laughter.]
    And Senator Sanders was the mayor of a town in Vermont. And 
Senator Burr----
    Senator Franken. I was a visitor?
    Senator Mikulski [continuing]. Would have been doing all of 
those background checks on all of us.
    [Laughter.]
    You have people who know what we are talking about.
    Ms. Lombardi. I guess so.
    Senator Mikulski. Pretty much.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Madam Chair, I want to thank you--I really 
do want to thank you, from the bottom of my heart, for holding 
this hearing here. Over the last 2\1/2\ years there have been 
weeks when I have left my three little girls, who by the way, 
did have access to high quality preschool at home in Denver, I 
would come here for a week, I would spend a week, and I would 
feel we haven't talked about anything of any relevance to the 
moms and dads and kids in my State. Then I fly home to see them 
again and apologize for being gone.
    I can't think of a topic over the last 2\1/2\ years at a 
hearing that has more relevance to our moms and dads and kids 
and to my State than this topic. So thank you for holding this.
    Just to jump off from where Senator Franken was at the end, 
and your answer, if people think this doesn't matter, what we 
know is that kids living in poverty show up, if they don't have 
high quality preschool, show up having heard 5 million words by 
the time they get to kindergarten. Affluent kids show up having 
heard 15 million words. If you talk to any third grade teacher 
or eighth grade teacher, twelfth grade teacher, they will tell 
you that that makes a huge difference all the way through their 
career.
    If I were given the choice of somebody saying to me, ``Well 
you can spend the money on twelfth grade or you can spend the 
money zero to five,'' I know which I would pick. We are locked 
into a system that is not going to deliver the results that we 
need for kids. And that is why I think this hearing is so 
important. It is also why I wanted to flag, for you, work that 
has been done in Denver.
    When I was superintendent the voters made a very smart 
investment in passing groundbreaking public policy initiative 
which was designed to increase Denver's children's access for 
4-year-olds in particular. The voters came and said, ``We are 
going to dedicate sales tax revenue to this question,'' even 
though the school district is actually funded by property tax, 
not by sales tax. Our mayor saw this as something important 
enough to support. This is a program that focuses as much on 
quality as it does on access.
    And just in a few years of its existence, the Denver 
Preschool Program has made good on its mandate, growing quickly 
to become one of the highest enrolled preschool programs in the 
entire country, serving nearly 6,000 children annually, or 
about 60 percent of Denver's eligible population. It has also 
increased the overall level of high quality preschool 
programming available to Denver's children.
    I have a map that you can't see, I mean you can see it but 
you can't----
    [Laughter.]
    But Madam Chair, what it shows is that this program has 
distributed quality throughout Denver's neighborhoods, affluent 
and low income. That really is an extraordinary change from 
where we were just 4 or 5 years ago.
    Just in the Denver Public Schools alone this year, there 
are 1,500 more 4-year-olds in full-day programs, a 300 percent 
increase over what we had. People told me, Madam Chair, they 
said, ``There is no way, Michael, that people are going to want 
to send their 4-year-olds to full-day early childhood 
education,'' and boy were they wrong. Every single slot. We 
went from 500 kids in 1 year to 2,000 kids in the next year.
    For the first time, by the way, it allowed us as a school 
district, to have over 90 percent of our 5-year-olds in full-
day kindergarten, because of the way we thought about these 
funding streams.
    I believe we have to go back earlier than that. I think 
this is a zero to five issue, but we are moving, I think, in 
the right direction. And we are seeing results. We are seeing 
results at the third-grade level now. We had a record increase 
in our reading scores this year, with the first kids to come 
out of----
    Ms. Lombardi. That is great.
    Senator Bennet [continuing]. The preschool program. So, I 
would encourage you to look at that program if you haven't. But 
I would ask you to talk a little bit more specifically about 
how working with Race to the Top, to jump off an earlier 
question, we really can drive quality as we are doing this 
because it is so very important. I think there are some very 
good models out there, including the one in St. Paul that we 
are going to hear about later.
    Ms. Lombardi. I couldn't agree more. I have been following 
some of the things that are going on in Colorado. It is very 
exciting in that State to see local councils that are very 
involved in this issue across the State and the Denver 
Preschool Program. So I think you, like everyone on this panel, 
have States that are really doing innovative work. It is 
particularly great to hear about those third-grade reading 
scores.
    I think that if you look at the goal of the Race to the 
Top--Early Learning Challenge, it is to get a higher percentage 
of children in--a higher percentage of low-income children in 
higher quality programs. It is also to bring systemic reform to 
the early childhood system.
    Senator Bennet. I might say on that point, just so my 
colleagues know how that works, in Denver every family that is 
eligible gets a subsidy. Now everybody is eligible, from the 
highest poverty person to the wealthiest person in the city. 
But the poorer you are the larger your subsidy and the higher 
quality the program is the larger your subsidy. So if you are 
high poverty and you are applying to a high quality program, 
you get the largest subsidy. If you are very affluent and you 
apply to a low-quality program you get the smallest subsidy. 
Which is how we are driving quality in the city.
    Ms. Lombardi. That is an extremely important point, because 
I think sometimes we create quality programs but then if a 
State's childcare reimbursement rates doesn't allow parents to 
access those programs, because the rate is so low, it doesn't 
really do the parent or the child very much good. So that kind 
of policies to drive additional resources into programs so low-
income families can access quality services, they don't have to 
choose between what their child needs and what they need and 
that is really the goal.
    So we are also, in the Race to the Top--Early Learning 
Challenge, going to be looking at systemic reform of the early 
childhood system, how do we bring these pieces together, we 
have been siloed too long. That is the reason for my too long 
title, Senator Mikulski, it is to try to bring these pieces 
together. We think we have a lot to learn from the States.
    Senator Bennet. I would like to see your title shortened--
--
    [Laughter.]
    Senator Bennet [continuing]. As it reflects the 
consolidation of some of the siloed programs, I think that is 
great because we don't live in siloes in Colorado.
    The last 30 seconds, the only other thing I would urge is 
that where people are working hard to align the early childhood 
curriculum with the K-12 curriculum, that--those are also 
efforts that I think need to be supported by Race to the Top 
and the other work here because that alignment is critical, not 
only to making sure kids are prepared when they get to 
kindergarten, which is really important, but it also drives 
quality in the preschool program.
    Ms. Lombardi. Absolutely. I think that is what this joint 
effort--this is historic what we are doing, we are co-
administering this program. This is my third term in the 
government, this is my third time back. I have never seen this 
level of collaboration across the departments. It allows us 
this opportunity to put these pieces together, zero to five, 
and K-3 and that is the only way we are going to get results.
    Senator Bennet. Thank you, Madam Chair.
    Senator Mikulski. That was good. That was very good. Very 
good exchange.
    Senator Murray who really began her career as an early 
childcare worker----
    Senator Murray. I believe I am the only person in the 
Congress that is a former preschool teacher.
    Senator Mikulski. Which qualifies.
    Senator Murray. It does. I use those skills all the time.
    Senator Bennet. You are still dealing with children.
    [Laughter.]

                      Statement of Senator Murray

    Senator Murray. It is absolutely clear. Thank you very much 
and I too want to thank you for having this hearing on a very, 
very important topic. I believe that these kinds of investments 
really are some of the most important that we can make. We know 
that the research has been mentioned many times regarding early 
childhood learning as really critical to the life long success 
of an individual.
    In my home State of Washington we have really embraced 
these investments in early childhood education, in fact in 2006 
our governor and legislature created the State Department of 
Early Learning. The first cabinet level position in the entire 
country focused on this. And we have seen some great successes.
    In my State there is a community, Bremerton, which is 
fairly rural on the Kitsap Peninsula, where their district has 
been working to really focus on early learning and I think 
their success really illustrates what we can see nationwide, if 
we focus on this, because 6 years ago only 4 percent of the 
kids who were entering kindergarten in Bremerton had early 
reading schools, those are the basic skills of being able to 
recognize letters and sounds or writing their name. This year 
66 percent of the new kindergartners are at that level. They 
have gone from 4 percent to 66 percent. They are seeing the 
percentage of kindergartners needing special education services 
dropping, from 12 percent to 2 percent. The share of the 
district's first graders reading on grade level, has risen from 
52 percent to 73 percent.
    So Madam Chairman, if we do this nationwide we are going to 
see costs reduced in special education and remediation and that 
is an incredible savings to our country.
    What are they doing right? They are partnering their school 
district with Head Start to expand their offerings and the 
district is working hand in hand with private childcare 
facilities to make sure they have great curriculum for their 
students and professional development for their educators.
    We are seeing the real need. In Yakima, which is another 
rural community in my State, 37 percent of the young kids there 
live in poverty and 70 percent of their kindergartners enter 
school with low literacy rates. The school superintendent told 
me that they are doing all the right things, they are using 
State and Federal title I funding to provide preschool, but 
their budget is strapped, like so many of our communities and 
they have a waiting list of over 200 families, and that is 
unacceptable.
    That is why I think this hearing is so important and this 
focus is so important and why later today, in fact, I am going 
to be introducing my Ready to Learn Act which creates a new 
grant program in ESEA to fund high quality pre-kindergarten 
opportunities to make sure that our kids are coming to school 
being able to be successful.
    Dr. Lombardi, I am very glad you are here and really 
appreciate your testimony today and your answers.
    I wanted to ask you particularly, because I recently 
introduced the LEARN Act which is a program to provide Federal 
support for comprehensive State and local literacy programs to 
make sure that kids from birth all the way through high school 
get those literacy skills that they need. I am often asked why 
I believe literacy skills begin at birth. I want to ask you 
today what your thoughts are on ensuring that childhood 
educators understand that language and literacy development 
starts from a very early age.
    Ms. Lombardi. First of all, thank you and it is--I really 
feel proud that a former preschool teacher is sitting where you 
are. I am a former preschool teacher myself and we are proud of 
that. I know you bring that experience with you to your role 
here.
    Also to say, I have been very impressed with Bremerton. I 
think the relationships they made there between the schools and 
the childcare community, to promote reading and literacy really 
obviously have made a difference in the figures that you gave.
    Why we start at birth, I think we heard of the studies--the 
Hart and Risley results--about the amount of language, to the 
differences in the language and vocabulary of children at 
different income levels, it is absolutely critical. What all 
the panels around reading and literacy tell us, is that 
vocabulary development, oral comprehension, exposure to print, 
all of those things are precursors to reading. You can't just 
jump into that without those essential early investments of 
time into their language development, starting when they are 
first born.
    I am a new grandma. I am living this all over again. I just 
spent some time with my grandson who is just turning one. And 
when I think of the day I spent with him and how much language 
I gave him, I know that that is what I want for all children 
and that we have to help parents understand how to do that and 
then we have to help providers make sure that their early 
learning environments are rich in language and it is as 
important as their social/emotional climate. So, I think it is 
terrific.
    Senator Murray. Great. I absolutely agree with that. We 
need to make sure that we invest at an early age for all 
students in this country.
    Madam Chairman, I heard the story yesterday of a man named 
Robb, he is from Kalama, WA, a very small community in my 
State. From the age of 13 to 37 he was in a revolving door of 
corrections programs and he spent some time in the State 
prison. He is a recovering drug addict and he is also a dad. In 
2005 he became clean, got off drugs and got full custody of his 
son and he wanted to turn his life around and he turned to the 
Head Start Program. There he got the help he needed for his son 
Jason who is getting the skills he needs, to succeed in 
kindergarten where he's doing great. But it also taught Robb 
how to be a great father.
    He took on some leadership roles at the Head Start program, 
which gave him the courage to go back to school. He is now in 
the second year of college and he is a computer science major. 
He told me he wants to work with at-risk kids and teach them 
about computers and technology. He is turning them away from 
the rough life that he grew up with. And he has started a dad's 
group for his Head Start as well.
    This is a program that really works. Robb is here in the 
audience today. And I just want to thank him for his courage.
    Senator Mikulski. Where is Robb?
    Senator Murray. Robb, do you want to stand up?
    [Applause.]
    I think Robb and Jason are kind of the picture of why we do 
these kinds of things, because it really does make a difference 
for the young kids in the Head Start program, it turns people's 
lives around and they give back to all of us and become great 
members of our societies and communities and we need them. 
Thank you very much.
    Ms. Lombardi. Thank you.
    Senator Mikulski. Senator Murray, those were not only 
powerful questions, but a very powerful story.
    We now turn to Senator Casey. Senator Casey has made the 
advocacy of children one of his signature focuses in the Senate 
and just introduced two--oh wait, a minute. No, I'm sorry, 
Senator Sanders. Oh, I don't want to overlook Senator Sanders.
    [Laughter.]
    Senator Sanders, a really strong advocate and persistent 
advocate.

                      Statement of Senator Sanders

    Senator Sanders. Madam Chair, thank you very much and I 
concur with what Senator Franken, Senator Bennet and Senator 
Murray said about congratulating you for holding this hearing.
    The truth of the matter is, this issue is one of the issues 
in our country of enormous consequence and yet it doesn't get 
the discussion that it needs. So you are raising the level of 
discussion today by holding this hearing and that is very, very 
important.
    It seems to me that as a nation and as a government we want 
to focus on at least two important issues. No. 1, we want to do 
well by our people. We want to make sure, and I don't think 
there is any disagreement, regardless of ones political 
philosophy, that we want all of our kids to grow up strong and 
healthy and smart and do the best that they can in their lives. 
No one disagrees with that.
    The second thing that we want to do is be cost-effective. 
Senator Franken made the point, we have a huge deficit, when we 
invest money we want to make sure that our money is invested 
well.
    I think, having said that, that as a nation we should be 
extremely embarrassed and ashamed, that in our country today we 
have, by far, the highest rate of childhood poverty of any 
major country on earth. More than one out of five kids in this 
country are living in poverty. Some people may say, ``Well, 
that is too bad,'' but I would suggest that that is stupid 
economics, because the other side of the equation of having the 
highest rate of childhood poverty in the industrialized world 
is we have more people in jail than any other country on earth, 
including the communist, authoritarian country of China, which 
is much larger than we are. And if there is anybody in this 
room who does not think that there is a correlation between 
high poverty rates among children and jail, I think you are 
sorely mistaken.
    So my point is, even if you don't care about kids, and I 
know everybody here does care about kids, if you just want to 
worry about the deficit and how we spend money in this country, 
it is smart economics to invest in our children.
    All of the studies tell us that if a kid, and there are God 
knows how many of them today, right this moment, sitting home 
in a house or an apartment, watching television for 8 hours a 
day eating junk food. I don't need all kinds of longitudinal 
studies to tell me that another kid sitting in a room with a 
well-qualified teacher, interacting with intelligent adults and 
with other children is going to do better. That children will 
be less likely to drop out of school, do drugs, end up in jail, 
etc, etc.
    The fact of the matter is that we have to start this 
discussion by saying, we are failing our children. Period. Bad 
for the kids, bad for the parents, bad for our economy. Right? 
We need, in a competitive world to be having well-trained, 
well-educated workers. We are not doing that. I won't bore 
anybody with all of the statistics out there, but we are 
falling behind many, many other countries.
    Let me just start off, Dr. Lombardi, by asking you this. 
Give me an overview here. If I am an average parent in an 
average State, what is the likelihood, a working class person, 
I am making $20,000-$25,000 a year, what is the likelihood of 
me finding high quality childcare in my community?
    Ms. Lombardi. First of all you are going to have to pay a 
big chunk of your income to access it. I mean that because 
probably you are out of the range for eligibility for childcare 
assistance in your State.
    Senator Sanders. Right.
    Ms. Lombardi. Because we know the majority of funding, even 
for CCDBG which can go up to 85 percent of median income in a 
State, but most often it does not, so that we are serving 
mostly families that are well below the level that you just--so 
even if you can find it, you can't often pay for it.
    Senator Sanders. Let me ask you this. I don't want to put 
you on the spot, I know you represent the Administration. How 
are we doing compared to other major countries in the world, in 
terms of understanding that most women now are in the 
workforce? So if you are a single mom, or you are a married 
family, husband and wife are working, you are middle class, 
lower middle class, how do we do compared to other major 
countries around the world in making sure that our young 
children get the quality childcare that they need?
    Ms. Lombardi. There has been several studies looking at how 
we compare to the OECD countries and we don't come out 
favorably often. I think it is hard for many of us, and you 
will hear from some others this morning that have been working 
on this issue of childcare and early education, for some 30 
years we have watched the number of women in the workforce 
increase over the years but we haven't seen that shift to 
support the childcare and early education system the way we 
think it should, given the numbers of two-parent working 
families and single-parent working families. We just haven't 
seen it.
    Senator Sanders. In some ways I think there are people who 
think we are back in the 1950's where Dad went to work and 
Mommy stayed home with the kids. And that certainly is not the 
reality.
    Now, talk for a moment about the quality of the workforce 
in childcare. For some strange reason, we have requirements for 
teachers in elementary school, high school, you have to have a 
Ph.D. in many instances to teach in college and yet the wages 
and the benefits that we provide to our early childhood 
education workers, it seems to me, in many parts of this 
country, is very low. Can you comment on that?
    Ms. Lombardi. Sure. I think that what we see across the 
country, it is an amazingly dedicated workforce.
    Senator Sanders. Right.
    Ms. Lombardi. People that get up every day and care for 
children and work on behalf of families that are also trying to 
work. We see a tremendous range. We think that you need some 
qualifications and some training if you are----
    Senator Sanders. And pay, as a matter of fact.
    Ms. Lombardi. And pay to----
    Senator Sanders. Do you know off-hand--I'm sorry to 
interrupt you, but do you know off hand what the average salary 
is?
    Ms. Lombardi. It certainly is a huge range, but it is not 
uncommon for childcare providers to just make the absolute 
minimum.
    Senator Sanders. We have experienced this in Vermont--here 
you have people giving them the responsibility of nurturing 
children in the most impressionable years of their lives and we 
are paying them minimum wage. They leave that to get a job at 
McDonald's.
    Let me just say this, because my time is expiring. As I 
understand that we are spending about $8 billion a year on Head 
Start. We are spending $100 billion a year fighting the war in 
Afghanistan. I think it is time for us to get our priorities 
right.
    Thank you, Madam Chair.
    Ms. Lombardi. Thank you.
    Senator Mikulski. Now we turn to Senator Casey. As I said, 
he is a very strong advocate and introduced some important 
bills yesterday that the subcommittee will consider.

                       Statement of Senator Casey

    Senator Casey. Madam Chair, thank you very much for having 
this hearing. It is critically important that we have this and 
I appreciate Senator Mikulski's ongoing determined leadership 
on a whole range of issues that relate to our children and our 
families, in this subcommittee and long before that over many 
years. And Ranking Member Burr, we appreciate you being with us 
today as well and calling this hearing.
    I am not going to use my whole allotment of time because I 
will submit a statement for the record, but Doctor, we 
appreciate your testimony and your witness here today----
    Ms. Lombardi. Thank you.
    Senator Casey. [continuing]. To these important issues, but 
also your public service.
    We have heard today from Senators and I think a number of 
folks in the audience who have been laboring in this vineyard a 
long time, about the challenges we face. I think we come 
together for at least two basic reasons: we are summoned by our 
conscience that this is a critically important priority for the 
country, what happens to our children, how we care for them, 
what kind of education do they have, nutrition, healthcare, a 
whole range of concerns that we have.
    We are also concerned about our jobs and our economy. This 
is the best way to prepare for the economy of the future. It is 
not just a good thing to do for our kids it is also very smart 
in terms of building a stronger workforce. It is essential, I 
should say, for building a stronger workforce.
    We have seen a lot of good efforts at the State level. I 
come from the Commonwealth of Pennsylvania and our recently 
retired governor, Governor Rendell, made this a major priority 
and especially as it relates to early learning and also made a 
lot of progress on childcare.
    The concern that I have is that we have a patchwork. We 
have some States doing a lot, some States being very 
successful, but we don't have kind of a national strategy. That 
doesn't mean that all the good ideas will come from Washington; 
we should have partnerships with States and make sure that 
States do their part and have the opportunity to do their part. 
The broad question that I would ask you to address as best you 
can, and maybe supplement it for the record, is this: in light 
of both that patchwork of strategies at the State level and a 
very difficult budget situation here where there is not going 
to be a flood of new investment any time soon, how do you 
develop a strategy to encourage positive change? How do you 
manage that in the context of having a strategy to move 
forward? Senator Mikulski was working with us yesterday on two 
bills that I have, one on early learning, one on childcare--and 
here is the grim reality for childcare: 13.5 million kids in 
the country are eligible but not enrolled.
    Ms. Lombardi. Yes.
    Senator Casey. Just stunning when you think about that 
number. So how do you chart a course for improvement, with 
limited resources in the near term in light of the imperative 
of providing quality care for all children enrolled in early 
learning or childcare programs that receive Federal funding?
    Ms. Lombardi. First of all, thank you so much for the 
leadership on these issues. I think when you think about the 
fact that only one out of six families that are eligible for 
childcare assistance even have access to it, before we even 
begin to talk about the quality issues, it is of great concern. 
I think as the Administration continues to put forward budgets 
that continue to invest in this, but not just invest in it, but 
also have a strategy, and I think one of the strategies that is 
emerging is we really want to make sure that we are supporting 
working families and we are addressing the readiness gap.
    We really want to get more children prepared to be 
successful in school and that has got to drive our agenda. It 
is driving our agenda. It doesn't mean you have an education 
program over here and a childcare program over here, you use 
every environment, like they did in Pennsylvania, to improve 
quality.
    I think we do have a strategy, we have a set of 
recommendations for continued investment. It has been clear 
throughout this hearing, they are investments and we have to 
start thinking of them that way.
    Senator Casey. I am glad you are taking a strategic 
approach to it and we will talk more when we have more time. 
Thank you very much.
    Ms. Lombardi. OK. Thank you.
    [The prepared statement of Senator Casey follows:]

                    Prepared Statement Senator Casey

    Thank you, Senator Mikulski, for chairing this important 
hearing on quality early education and care. You are a 
tremendous advocate for early learning, and I thank you for 
your dedication and passion about this issue.
    I am grateful for the opportunity to be here today, and I 
would like to thank the witnesses for taking the time to share 
their insights with the subcommittee.
    I know that I'm preaching to the choir when I say what 
this: investing in high-quality early learning opportunities 
such as child care and pre-K sets children on the path to 
success.
    High-quality learning opportunities pay off in reduced need 
for remedial or special education, reduced crime, and 
eventually higher high school graduation and college 
matriculation rates. Investing in early learning will also have 
a significant impact on our economy. When children learn more, 
they earn more. Taking steps to invest in early education now 
will grow GDP and help families find good paying jobs in the 
future.
    Senator Mikulski and I were joined at a press conference 
yesterday by Jennifer Garner, the actress, who is also the 
celebrity ambassador for Save the Children. As a mother, she 
understands the importance of early education in preparing 
children for school, and she did a great job of explaining how 
early education does that: it prepares children so that when 
they first step into a kindergarten classroom, they are ready 
and eager to learn.
    The need for these early learning opportunities is great. 
Over 13 million American children are eligible for, but not 
receiving, federal child care assistance. Clearly, we are 
failing our children if there is such a large unmet need.
    Yesterday, I introduced two bills that will help make 
quality early learning opportunities available to every child 
in America.
    The Prepare All Kids Act (S. 1156) will provide at least 1 
year of voluntary high quality prekindergarten, with a focus on 
children from low income families and children with special 
needs.
    The Starting Early, Starting Right Act (S. 1155) will 
address the enormous unmet need for quality child care by 
increasing funding for child care, with the dual goals of 
helping more families afford child care and improving the 
quality of early care.
    Earlier this year, I introduced legislation--the State 
Systems of Early Learning Act (S. 470)--to support State 
investments in early childhood education and care. I was 
gratified by the Administration's recent announcement that $500 
million in new funding will go to an Early Learning Challenge 
Fund. I hope that we can hear more about what the 
Administration intends for those grant awards from you today, 
Dr. Lombardi.
    Business leaders get this ``bang for the buck'' argument. I 
am encouraged by Pennsylvania's progress in early childhood 
education and the support of the Pennsylvania business 
community, in particular, has been instrumental. I particularly 
look forward to the testimony of Ms. Blum and learning more 
about how the public and private sector can work together to 
make a difference on this issue.
    Thank you.
    Senator Mikulski. Thank you, Senator Casey and I know you 
will be back for our panel.
    Dr. Lombardi, we are going to say thank you----
    Ms. Lombardi. Thank you.
    Senator Mikulski [continuing]. And excuse you now from this 
rather extensive participation. We want to thank you for your 
service. We are glad you returned back to government.
    Ms. Lombardi. Thanks.
    Senator Mikulski. And we will be happy to have you back for 
the committee.
    What I hope to be able to do is on this area of early 
childhood education and whatever the bills, whatever the 
approach is, to build a bipartisan consensus----
    Ms. Lombardi. Absolutely.
    Senator Mikulski [continuing]. Both for the reauthorization 
of the bill, what needs to be put in ESEA and then also what 
needs to be put in the 2012 appropriations, hoping that we get 
to one.
    I believe that there would be consensus within the 
committee and within the Senate. If we can't agree on a lot of 
things, there are some very often prickly, social issues, but I 
think there could be a consensus in this area so let's see if 
we can build it. We will look forward to seeing you again. 
Thank you very much.
    Ms. Lombardi. It is wonderful to hear bipartisan support on 
this issue. Thank you for your leadership.
    Senator Mikulski. OK. So we are going to excuse you.
    Now we are going to ask our panel to come forward, Mr. 
Hillian, Miss Smith, Dr. Rolnick, Miss Eva Blum and Mr. Chuck 
Mills.
    The clock is ticking and I know that Senator Burr also has 
some other responsibilities. So I am going to kind of zip 
through the recommendations and I am going to introduce 
everybody now at one time, rather than as each one speaks. I 
know that Senator Franken will introduce Dr. Rolnick. Then we 
are going to go right to the panel.
    We want to welcome the panel. First I want to recognize and 
introduce Mr. Dennis Hillian who works with a program in 
Maryland called The Judy Center, which I can't wait for you to 
hear about. We met him in one of our field hearings and 
roundtables and he is going to bring us some important 
information.
    We have Miss Linda Smith, a former Department of Defense 
staffer who now currently works at the National Association of 
Childcare Resources and Referral Agencies and they want to 
ensure that every child has access to this affordable education 
and actually has ideas and metrics and so on, on how we can do 
this in a prudent, fiscally achievable, robust way for the 
children, which we're looking forward to.
    Senator Franken, do you want to introduce Mr. Rolnick?
    Senator Franken. Thank you, Madam Chair.
    I am very pleased that Art Rolnick is here today to give us 
some straight talk on the economics of early childhood 
education. Art is currently a senior fellow and co-director of 
the Human Capital Research Collaborative at the University of 
Minnesota's Humphrey School of Public Affairs where he is 
working on multidisciplinary research on child development and 
social policy.
    When Art was senior vice president and director of research 
at the Federal Reserve Bank of Minneapolis his research on the 
economics of early childhood education gained national 
attention. In Minnesota he is well-known as a key figure in 
just about any local organization or effort related to early 
childhood development.
    Personally I have found my conversations with Art over the 
years to be incredibly enlightening and I am very grateful to 
the chairwoman for extending the invitation to him today. Thank 
you, Madam Chair.
    Senator Mikulski. It is really the economics of this.
    Now we want to turn to Miss Eva Blum, vice president at the 
PNC Bank. What is impressive to me is both in my own local 
State, Maryland, as well as nationwide, this bank has chosen, 
as one of its focus of philanthropic activity, early childhood 
education. A bank investing in kids rather than kids investing 
in the bank. Who knows if there is a link.
    [Laughter.]
    But as I understand it, the corporation has invested 
already $100 million of philanthropic dollars and you lead that 
endeavor, Miss Blum. So we will look forward to hearing why you 
picked that and what you hope the private sector gets out of 
it.
    Then last but not at all least, we want to welcome Mr. 
Chuck Mills who is an alumnus of the Head Start Program, so we 
can hear what Head Start means to families. We have 
longitudinal studies and ya-da da-da and with the statistics 
and the data, but Mr. Mills, who has been active in promoting 
Head Start is the founder and CEO of a successful financial 
service and business consulting firm and, he says Head Start 
had a lot to do with the man he is today and the successful 
businessman he is today.
    A lot of times we talk about early childhood education and 
it is kind of gooshy and it is good for the kids and then we 
make moral statements, but I think we now know this country is 
in a tight spot and we want to be able to use our money wisely 
and continue, really, American exceptionalism. We want to know 
the right ways to do it, so we look forward to that testimony.
    With having said that, Mr. Hillian, we are going to kick 
off the testimony with you, sir. Then we will just go right 
down and Mr. Mills you will be our wrap up hitter. OK?

 STATEMENT OF DENNIS HILLIAN, FAMILY SERVICE COORDINATOR, THE 
            CHARLES COUNTY JUDY CENTER, WALDORF, MD

    Mr. Hillian. Thank you for the opportunity to speak before 
the U.S. Senate Health, Education, Labor, and Pension 
Committee, Subcommittee on Children and Families. I am Dennis 
Hillian, a family service coordinator for the Charles County, 
MD, Judy Center.
    Judy Centers are named for the late Judith P. Hoyer, a 
lifelong advocate for quality early education and comprehensive 
family support services. There are 25 Judy Centers in the State 
of Maryland. Two are in Charles County. We work with children 
age birth through kindergarten, and their low-income families 
to ensure they enter school ready to learn.
    Much of our work is accomplished through a collaborative 
community partnership of agencies, local organizations, and 
businesses. There is no issue a child or family may have that 
we cannot address through our partnership.
    We assist with ensuring children are enrolled in high-
quality accredited early education programs, including child 
care, we offer mental health and behavior services, dental 
services, hearing and vision screenings, and tutorial for 
children. Additionally, we equip our families with the tools 
they need to be effective and engaged as their child's first 
teacher.
    Families participate in family nights that always include 
an educational component, parenting workshops, and Adult 
Education classes.
    Our data shows that children with the Judy Center 
experience enter kindergarten better prepared than children who 
did not have the experience. I would like to share with you a 
couple of personal success stories. There are many.
    Back in 2008, we discovered a dad who had lost his job and 
mom who was only working part-time. They couldn't make ends 
meet. They couldn't look for jobs or go on interviews because 
they had no childcare for their 2- and 3-year-old children. I 
went on a home visit to get to know the family. The Judy Center 
enrolled them with KinderCare, our childcare partner, and 
provided tuition assistance.
    Since they lost their health insurance when dad became 
unemployed, I helped them apply for the Maryland Children 
Health Insurance Program.
    The 3-year-old had behavior issues and was referred to the 
Judy Center behavior specialist who worked with her 
extensively. She also received tutoring services.
    Dad is now employed full-time. After much encouragement on 
our part, mom enrolled in adult educational classes and 
received her GED. She also completed a medical assistant's 
program and is now preparing to enroll in the College of 
Southern Maryland to pursue an associates degree. The children 
are entering kindergarten and second grade this Fall and are 
doing well in school.
    The family still actively participates in many Judy Center 
events. They frequently update me on their accomplishments and 
successes.
    Jaquon came to us as a 3-year-old autistic child. He was in 
half-day pre-K and spent the other half-day in the Judy Center 
childcare. He could not speak any words and continuously whined 
and was inconsolable. Our teachers were trained to work with 
Jaquon and the Judy Center spent many hours helping his mom 
understand autism.
    They took part in the Judy Center services and activities. 
The summer before he entered the second grade, he and his mom 
came to the school, she was moving and was going to withdraw 
Jaquon. I walked up to him and said, I missed you this summer. 
He hugged me around my legs and said, ``I have missed you, 
too.'' A child who just a short time ago could not speak any 
words was now going to brave the world without the Judy Center. 
We are confident that he will be a contributing member of 
society. It may have played out quite differently if this 
family had not had the support of the Judy Center.
    When we met Khalil, he was in kindergarten and had a 
multitude of issues, toileting accidents, frequent absences 
from school, tooth pain and little appetite. He was lagging 
behind his peers and he failed the vision screening. His mom is 
a single parent with three older sons. Grandmother kept the 
children while mom worked as a housekeeper in a local motel.
    Many interventions in place for Khalil and his family 
occurred. Our pediatric dental partner examined his teeth and 
referred him to Kernan Hospital in Baltimore for dental surgery 
for severe tooth decay. The Judy Center staff transported the 
family to Baltimore. The Lion's Club arranged for Lens Crafters 
to examine Khalil's eyes and subsequently provided him with 
glasses. The Judy Center arranged for him to be tutored at 
school. With his health issues under control and the academic 
assistance in place, this young man is now thriving.
    Just a few weeks ago, I stopped at a local McDonald's 
through the drive-thru. A young lady gave me my food and said, 
``Hey Mr. Dennis. Do you remember me?'' I said, ``I don't 
remember your name but I do remember you. I met you when you 
were in second grade and you had a little brother and a little 
sister in the Judy Center. You also had three or four older 
brothers and sisters.'' She told me her name and I said, ``You 
used to talk to me when you were having a bad day. You would 
talk back to the teachers, argue with your classmates. You were 
real smart and had a lot of talent, but stayed in trouble.'' 
She said, ``Yes, you used to get me focused again. I was a 
little hard-headed, but you would listen to my side and calm me 
down.'' I was thinking, she had graduated from high school and 
her job was now working at McDonald's. But then she said, ``I 
graduate from high school in 3 weeks, I have a 3.9 GPA, and a 
full scholarship to Morgan State University.'' So you can see, 
the work of the Judy Center has long-term positive effect. 
Thank you.
    [The prepared statement of Mr. Hillian follows:]
                  Prepared Statement of Dennis Hillian
                                Summary
    Thank you for the opportunity to speak before the U.S. Senate 
Health, Education, Labor, and Pensions Committee, Subcommittee on 
Children and Families. I am Dennis Hillian, a Family Service 
coordinator at the Charles County, MD, Judy Center.
    Judy Centers are named for the late Judith P. Hoyer, a life-long 
advocate for quality early education and comprehensive family support 
services. There are 25 Judy Centers in the State of Maryland. Two are 
in Charles County.
    We work with children age birth through kindergarten, and their 
low-income families to ensure they enter school ready to learn. Much of 
our work is accomplished through a collaborative community partnership 
of agencies, local organizations, and businesses. There is no issue a 
child or family may have that we cannot address through our 
partnership.
    We assist with ensuring children are enrolled in high-quality 
accredited early education programs, including child care; we offer 
mental health and behavior services; dental services; hearing and 
vision screenings; and tutoring for children. Additionally, we equip 
our families with the tools they need to be effective and engaged as 
their child's first teacher. Families participate in family nights that 
always include educational components; parenting workshops; and Adult 
Education classes.
    Our data shows that children with the Judy Center experience enter 
kindergarten better prepared than children who did not have the 
experience.
    I would like to share with you a couple of personal success 
stories:

    1. A jobless family in need of child care, health insurance, 
behavior and tutoring services for one of two children, and high school 
diploma for mom.
    2. Three-year-old autistic child who could not speak. Was at the 
Judy Center until 2d grade.
    3. Kindergartner with toileting accidents and frequently absent 
from school. Also with tooth pain, failed vision screening, and 
trailing behind his peers academically. Many interventions for the 
family occurred.
    4. Reunited with a former Judy Center family. Girl now graduating 
from high school with a 3.9 GPA and full scholarship to Morgan State 
University.
                                 ______
                                 
    Thank you for the opportunity to speak before the U.S. Senate 
Health, Education, Labor, and Pensions Committee, Subcommittee on 
Children and Families. I am Dennis Hillian, a Family Service 
Coordinator at the Charles County, MD, Judy Center.
    Judy Centers are named for the late Judith P. Hoyer, a life-long 
advocate for quality early education and comprehensive family support 
services. There are 25 Judy Centers in the State of Maryland. Two are 
in Charles County.
    We work with children age birth through kindergarten, and their 
low-income families to ensure they enter school ready to learn. Much of 
our work is accomplished through a collaborative community partnership 
of agencies, local organizations, and businesses. There is no issue a 
child or family may have that we cannot address through our 
partnership.
    We assist with ensuring children are enrolled in high-quality 
accredited early education programs, including child care; we offer 
mental health and behavior services; dental services; hearing and 
vision screenings; and tutoring for children. Additionally, we equip 
our families with the tools they need to be effective and engaged as 
their child's first teacher. Families participate in family nights that 
always include educational components; parenting workshops; and Adult 
Education classes.
    Our data shows that children with the Judy Center experience enter 
kindergarten better prepared than children who did not have the 
experience.
    I would like to share with you a couple of personal success 
stories.

    1. Back in 2008, we discovered a dad who had lost his job and mom 
who was only working part-time. They couldn't make ends meet. They 
couldn't look for jobs or go on interviews because they had no child 
care for their 2- and 3-year-old children. I went on a home visit to 
get to know the family. The Judy Center enrolled them with KinderCare, 
our child care partner and provided tuition assistance. Since they had 
lost their health insurance when the dad became unemployed, I gave them 
an application for the Maryland Children's Health Insurance Program. 
The 3-year-old had behavior issues and was referred to the Judy Center 
behavior specialist who worked with her extensively. She also received 
tutoring services. Dad is now employed full-time. After much 
encouragement on our part, mom enrolled in Adult Education classes and 
received her GED. She also completed a Medical Assistants Program and 
is now preparing to enroll in the College of Southern Maryland to 
pursue an Associate's Degree. The children are entering kindergarten 
and 2d grade this Fall and are doing well in school. The family still 
actively participates in many Judy Center events. They frequently 
update me on their accomplishments and successes.
    2. Jaquon came to us as a 3-year-old autistic child. He was in 
half-day Pre-K and spent the other half-day in the Judy Center child 
care. He could not speak any words and continuously whined and was 
inconsolable. Our teachers were trained to work with Jaquon and the 
Judy Center spent many hours helping his mom understand autism. They 
took part in Judy Center services and activities. The summer before he 
entered 2nd grade, he and his mom came to the school. She was moving 
and was withdrawing Jaquon. I walked up to him and told him how much I 
had missed him this summer. He hugged me around my legs and said, 
``I've missed you, too.'' A child who just a short time ago could not 
speak any words was now going to brave the world without the Judy 
Center. We are confident that he will be a contributing member of our 
society. It may have played out quite differently if this family had 
not had the support of the Judy Center.
    3. When we met Khalil, he was in kindergarten and had a multitude 
of issues--toileting accidents, frequent absences from school, tooth 
pain and little appetite, he was lagging behind his peers and he failed 
the vision screening. His mom is a single parent with three older sons. 
Grandmother kept the children while mom worked as a housekeeper at a 
local motel. Many interventions for Khalil and his family occurred. Our 
pediatric dental partner examined his teeth and referred us to Kernan's 
Hospital in Baltimore for dental surgery for severe tooth decay. The 
Judy Center staff transported the family to Baltimore. The Lions Club 
arranged for LensCrafters to examine Khalil's eyes and subsequently 
provided him with glasses. The Judy Center arranged for him to be 
tutored at school. With his health issues under control and the 
academic assistance in place, this young man is now thriving.
    4. Just a few weeks ago, I stopped at a McDonald's. A young lady 
gave me my food and said, ``Hey Mr. Dennis, do you remember me? '' I 
said,

          ``I don't remember your name but I remember you. I met you 
        when you were in 2d Grade and you had a little brother and 
        sister in the Judy Center. You also had three or four older 
        brothers and sisters.''

    She told me her name and I said, ``You used to talk to me when you 
were having a bad day. You would talk back to the teachers and argue 
with your classmates. You were real smart but stayed in trouble.'' She 
said, ``Yes, you used to get me focused again. I was a little hard 
headed but you would listen to my side and calm me down.'' I was 
thinking she had graduated from high school and her job was now working 
at McDonald's. But then she said, ``I graduate from high school in 3 
weeks, I have a 3.9 GPA, and a full scholarship to Morgan State 
University.'' So you can see, the work of the Judy Center has long-term 
positive effects.
 Attachment.--Maryland State Department of Education, Judith P. Hoyer 
       Early Child Care and Education Enhancement (Judy Centers)
                          program description
    Judy Centers are named for the late Judith P. Hoyer, the former 
Early Childhood Supervisor for Prince George's County Public Schools 
and a lifelong early childhood advocate. Judy believed that the key to 
school readiness was quality early education programs, as well as 
support services for the entire family in one location. Judy Centers 
have been established to continue her life's work.
    There are 25 Judy Centers in 22 (out of 24) local school systems 
throughout Maryland. Services are provided to children and their 
families who live in 39 title I school zones. Nearly 12,000 children, 
age birth through kindergarten are impacted by the Judy Center 
partnership.
    The goal of the Judy Centers is to ensure that young children, 
especially those who are disadvantaged by poverty, limited English 
proficiency, or special educational needs, are fully ready to learn 
when they enter school. Judy Centers provide year-round early care and 
educational programs for young children. All Judy Centers must include 
pre-kindergarten, kindergarten, preschool special education, local 
Maryland Infants and Toddlers Programs, and before and after school 
early childhood programs provided by child care partners.
    Much of the work of the Judy Centers is accomplished through a 
collaborative community partnership and must also include at least five 
of the following agencies or programs:

    <bullet> Head Start Programs;
    <bullet> Family Support Centers;
    <bullet> Child Care Providers;
    <bullet> Health Services for children in accordance with State and 
Federal guidelines;
    <bullet> Family literacy programs and services;
    <bullet> Early childhood programs associated with institutions of 
higher education;
    <bullet> Local Public Libraries;
    <bullet> Parent involvement programs;
    <bullet> Healthy Families; and
    <bullet> Other home visiting, community health, family support 
services, and Regional Child Care Resource Centers.

    Most Judy Centers have established broad-based partnerships that 
include over 20 agencies, organizations, and businesses to help them 
carry out their work.
                                funding
    Judy Centers are funded by the State of Maryland. The Maryland 
State Department of Education disburses the funds to the local school 
systems and monitors the program's success. The funding level in fiscal 
year 2011 is $8,096,984.
                               monitoring
    <bullet> MSDE meets quarterly with the Judy Centers to provide 
technical assistance and offer problem-solving ideas for the day-to-day 
operation of Judy Centers. An onsite visit is conducted annually by a 
team of professionals organized by MSDE. There are 12 Component 
Standards that reflect the requirements of the grant. These 12 
Components are the unifying elements of the Judy Centers. The standards 
are used by Judy Center partnerships and MSDE to rate their yearly 
progress on the required elements of the grant. The Component Standards 
include:

    <bullet> Full-day/Full-Year Services;
    <bullet> Provision for Breakfast/Lunch;
    <bullet> Service Coordination among Partners;
    <bullet> Integration of all Early Education Programs;
    <bullet> Family Involvement;
    <bullet> Early Identification and Intervention;
    <bullet> Inclusion of Young Children with Disabilities;
    <bullet> Provision of Health Related Services;
    <bullet> Professional Development;
    <bullet> Adult Education and Family Literacy Services;
    <bullet> Early Childhood Program Accreditation; and
    <bullet> Partnership/Community Leadership.
                         evaluative information
    Judy Centers provide evaluation reports to the MSDE's Division of 
Early Childhood Development, at the end of each fiscal year. The scope 
of the annual Judy Center evaluation is limited to the specific 
conditions of each Judy Center Partnership. The Results Based 
Accountability (RBA) process is used. The process is designed to 
provide information about the implementation of the 12 Components at 
each Judy Center, as well as account for specified outcomes as set out 
in each Judy Center's annual grant renewal application. Evaluation 
reports include the results of the Maryland Model for School Readiness 
(MMSR) Kindergarten Assessment data collected during the fall and 
spring of each year. Judy Centers may also use local school system 
benchmark data and other information (e.g., parent surveys, focus 
groups) as part of their evaluation reports. The annual evaluations 
also point out that children with Judy Center experiences sustain their 
gains through third grade as measured by the Maryland School Assessment 
(MSA).
    An external evaluation of Judy Center services released in 2004 by 
MGT America concluded that Judy Centers have provided:

    <bullet> Improved access to programs and services for children, 
ages birth through 5.
    <bullet> Increased family access to mental health and dental 
screenings and other interventions.
    <bullet> A substantial increase in access to family support 
services.
    <bullet> Increased parent participation in their child's education 
as well as the number of adults participating in Adult Education 
programs.
    <bullet> Accredited early care and education programs.
    <bullet> Increased professional levels of early childhood program 
staff and public school teachers.
    <bullet> Programs that close the achievement gap with English 
Language Learners and low-income children.

    A report entitled, An Analysis of Influence of Judy Center Services 
on the Maryland Model for School Readiness Kindergarten Assessment 
Outcomes for School Year 2008-2009 documents the positive impact that 
participation in Judy Centers has on school readiness. In summary, 
while serving a much larger proportion of children who are of low-
income families, English Language Learners and receive special 
education services than the State (65 percent vs. 47 percent), 71 
percent of those children with prior Judy Center experience were fully 
ready for kindergarten vs. 63 percent of at-risk children who did not 
have prior Judy Center experience.
The Charles County Judy Center, Serving Dr. Samuel A. Mudd, Eva Turner 
                and C. Paul Barnhart Elementary Schools
    Charles County Judy Center Service Area--The Judy Center serves 
three title I schools in the Charles County Public Schools: Dr. Samuel 
A. Mudd, C. Paul Barnhart, and Eva Turner Elementary Schools. The Judy 
Center is early childhood education and comprehensive family support 
services programs for children birth through Kindergarten and their 
families. The Judy Center also serves children with special needs age 
birth through Kindergarten and their families that reside in Charles 
County. We currently have 36 community agencies, organizations, 
businesses and individuals helping us achieve our goal of school 
readiness (See attached listing). We are currently serving 336 children 
from full-day Kindergarten, full-day Pre-K, full-day 3's program, Head 
Start, Healthy Families, Infants & Toddlers, Playgroups, and other 
children identified that are not in formal programs.
    Charles County Judy Center Funding--The Judy Center is funded 
through the Judith P. Hoyer Early Care and Education Grant. The grant 
is administered by Maryland State Department of Education. The total 
grant amount received by the Charles County Judy Center is $645,333.00. 
Our in-kind funding for this years grant is $474,553.00.
    Charles County Judy Center Staff--Coordinator: Leigh Stalter; Early 
Childhood Family Liaison: D. Mia Gray; Health Service Coordinator: 
Theresa Osborne; Family Service Coordinator Barnhart Elementary School: 
Dennis Hillian; Family Service Coordinator Eva Turner Elementary 
School: Amanda Pheulpin; Family Service Coordinator Dr. Mudd Elementary 
School: Earnay Truman; Secretary: Terry Smith; Mental Health & Behavior 
Specialist--Treeci Bond; and Tutors--Melissa Garner and Edie Kans.
    Charles County Judy Center History--Charles County received its 
first Judith P. Hoyer grant and opened at Dr. Mudd Elementary School in 
January 2001. A second grant was received in 2002 and a Judy Center 
opened at Eva Turner Elementary School. In 2004, the Judy Center 
expanded services to C. Paul Barnhart but with the same level of 
funding.

                         Free and Reduced Lunch
------------------------------------------------------------------------
                                                                 Total
                           School                              FARM  [In
                                                               percent]
------------------------------------------------------------------------
Dr. Mudd Judy Center........................................       63.9
Eva Turner Judy Center......................................       59.8
C. Paul Barnhart Judy Center................................       61.4
------------------------------------------------------------------------
Total Number of Charles County Judy Center Children Receiving FARM: 231.

                  charles county judy center programs
    Head Start--The Judy Center participates and assists Head Start 
with their activities and events. The Charles County Judy Center and 
Head Start collaborate in providing referrals to one another. The 
Charles County's Judy Center Coordinator is on the Head Start Tri-
County Advisory council, Head Start Tri-County Health Advisory Council 
and the Head Start Self-Assessment Team. Charles County's Judy Center 
Health Service Coordinator serves on the Head Start Healthy Advisory 
Council.
    Charles County Infants & Toddlers--Our Judy Center assists the 
Charles County Infant & Toddlers in activities and events. Infants & 
Toddlers have children that attend all three of the Judy Center 
Schools. Through this partnership we have established playgroups for 
children with special needs so that they can interact with typically 
developing peers. The Charles County Judy Center and Infant & Toddlers 
collaborate in providing referrals to one another. The Charles County's 
Judy Center Coordinator is on the Charles County Infants & Toddlers 
Advisory Council.
    Healthy Families of Charles County--The Charles County Judy Center 
and Healthy Families collaborate in providing referrals to one another. 
The Charles County's Judy Center Coordinator is on the Healthy Families 
of Charles County Advisory Council. Our Judy Center assists the Healthy 
Families of Charles County with activities and events.
    Dental Services--Our goal for our families each year is that every 
Judy Center child from 18 months of age has a dental home. 
Identification of children with no dental home is done through our 
parent surveys and screenings. Our Judy Center dental application is 
sent home to all our families and assessed by our Health Service 
Coordinator. Children in need of dental care are referred to the 
Department of Health, local dentists, or our partner Dr. Aguto and 
Associates. Dr. Aguto's office sees our Judy Center families at a 50 
percent discount from non-Judy Center children and the Judy Center uses 
grant funds to pay most of the remaining balance. The families are 
responsible to pay 10 percent or less. Our partnership with Dr. Augto's 
office allows us to have children seen in a short period of time. Dr. 
Augto will see our children identified during screenings with urgent 
care needs or tooth pain immediately.
    The Charles County Department of Health in partnership with the 
Judy Center provides yearly dental screenings and fluoride treatments 
for Judy Center Families. The Charles County Judy Center Health Service 
Coordinator works with the families of children who fail these 
screenings to assure services are obtained.
    We distribute dental health bags annually four times a year. The 
dental packets contain a tooth brush, tooth paste, and dental hygiene 
information.
    Vision and Hearing Screenings--The Charles County Department of 
Health in partnership with the Judy Center provide vision and hearing 
screenings for Judy Center children. The Charles County Judy Center 
Health Service Coordinator works with the families of children who fail 
these screenings to assure services are obtained.
    Amblyopia Screenings--The Charles County Judy Center arranges for 
the Lions Club to provide Amblyopia (Lazy Eye) screenings for all our 
Judy Center children. The Charles County Judy Center Health Service 
Coordinator works with the families of children who fail these 
screenings to assure services are obtained.
    Mental Health & Behavior Services--The Charles County Judy Center 
contracts for a Mental Health and Behavior Therapist from Center for 
Children. Our Mental Health and Behavior Therapist works with whole 
classrooms to provide positive behavior activities or one on one/small 
groups for children needing more intense services.
    Tutoring--Our Judy Center has an academic tutoring and mentoring 
program. We work closely with teachers, school staff, and parents/
guardians to identify children in need of tutoring. Permission slips 
are signed by parents/guardians for tutoring/mentoring to seek parent 
involvement that will help bridge the gap between school and home.
    Accreditation/Validation--All Head Start, Three's, Pre-Kindergarten 
and Kindergarten programs at the three Judy Center locations are 
validated by MSDE. KinderCare, our child care partner, has two 
locations that are both NAEYC accredited. We are working with 
additional childcare facilities in the area with the process of 
becoming accredited.
    Adult Education--The adults in our Judy Center families are offered 
many opportunities for continuing their educational advancement through 
programs in Charles County i.e.; Adult Education at the Lifelong 
Learning Center, transition programs at the College of Southern MD, 
parent workshops and other educational programs in Charles County.
    Parent and Child Activities--Throughout the year, we provide a 
variety of parent and child activities. Some of our activities include: 
National Literacy Day, Borders Story Time, Harvest Festival, Literacy 
and Math Nights, Fitness Nights, Game Night, Transition Activities, and 
Month of the Young Child Activities. We acknowledge that some of our 
parents are unable to attend events at school so we send take home 
activities for the parents and children to do together. Our partners 
are actively engaged in the planning of activities and events for the 
Judy Centers.
    Tuition Assistance--Funds are budgeted in our grant for child care 
assistance for Judy Center families. Tuition Assistance is available to 
families that do not qualify for Purchase of Care Vouchers through the 
Department of Social Service but do not earn enough to provide their 
children with quality child care. All child care centers that partner 
with the Charles County Judy Center are NAEYC (National Association of 
the Education of Young Children) or MSDE (Maryland State Department of 
Education) accredited.
    Jump Bunch--As part of our grant the Judy Center contracts services 
with Jump Bunch to provide a physical education activity once a week 
for Judy Center classrooms at Dr. Mudd and Barnhart.
    Story Time at Border's Books & Cafe--Story Time occurs once a month 
and is open to the Waldorf community for children birth to Kindergarten 
and their families. This activity is available to childcare programs in 
Waldorf and families with children with special needs birth to 
Kindergarten in Charles County. Charles County Public Library's 
Children's Outreach Librarians use stories, songs, and activities that 
model good literacy practices for families and child care providers.
    Spanish/English Story Time--The Charles County Judy Center in 
partnership with the Charles County Public Library is able to provide 
all Judy Center classrooms and Adult Education classrooms with once a 
month Spanish/English Story Time.
    Daytime Playgroups--The Charles County Judy Center conducts 
playgroups for children birth to age four in the Waldorf community and 
for children birth to Kindergarten with specials needs. We currently 
have eight playgroups occurring at our three Judy Center schools. 
Several of the playgroups are in partnership with Infants & Toddlers.
    Stroller Walks--The Charles County Judy Center implements 
``Families on the Move'' stroller walks in the spring. Stroller walks 
are for families and their children birth through age four, and 
childcare providers in the Waldorf community. Families gather for a 
walk around the neighborhood and are provided a snack and drink. The 
parents/providers are given educational materials and books for their 
children each week.
    Special Education Services--All of our programs are fully 
inclusive. The Family Service Coordinators work closely with families 
and school staff during the IEP process and with IEP services. We work 
closely with Infants & Toddlers with children with IFSP services.
    Parent/Provider Workshops--We have done extensive outreach and 
offer free training for the local child care provider community. 
Participants receive clock hours for participating in the workshops.
    The Judy Center offers parents opportunities throughout the school 
year to increase their educational knowledge and parenting skills. Most 
of these training opportunities are sponsored by our Judy Center 
partners, i.e., Priority Partners, Charles County Public Library, MD 
Cooperative Extension, College of Southern Maryland, Lifelong Learning 
Center, Healthy Families, and Center for Children and the Promise 
Center.
    Title I--The Charles County Judy Center works with the title I 
parent liaisons at each of the Charles County Judy Center schools to 
coordinate services, family nights, workshops, and parent groups for 
our families. The Charles County Judy Center helps with title I family 
nights at the schools and the county wide title I night each year.
    Parent and Sibling Surveys--Quarterly, the Charles County Judy 
Center surveys its families. The survey helps us determine our family's 
needs for health, and dental care, child care, behavior and mental 
health, adult education, and other services. The sibling survey 
identifies children, birth through age four in the Judy Center 
catchment area not yet attending school.
    Marketing of Materials--The Charles County Judy Center distributes 
marketing materials to our partners, local Obstetricians and Gynecology 
offices, Pediatric Dental offices, and child care centers to promote 
the Judy Center. Distribution of these materials helps us to identify 
children that are not yet school age that may be able to benefit from 
our services.
    Donation from the Community--We have received several donations 
from community partners as well as from families thru their place of 
employment. The Lions Club has donated eye exams and glasses for 
children in our programs. We have received donations of toys, clothing, 
and food from the community that we pass on to our families in need. In 
addition we have received monetary donations from B.K. Miller. During 
the holiday, the Charles County Judy Center with the help of our 
partners collects toys and clothing to distribute to our neediest 
families.
    Family Field Trips--The Charles County Judy Center through the 
grant provides funds for family field trip transportation and admission 
throughout the school year.
    In-school Assemblies--The Charles County Judy Center provides in-
school assemblies for all Judy Center families. A few examples of in-
school assemblies that we have provided are Reptile Wonders, Blue Sky 
Puppet Theater, Interact Story Theater, Carol's Critters, Sheriffs 
Department, and the Humane Society.
    Student Involvement--The Charles County Judy Center arranges for 
North Point High School and College of Southern Maryland Early 
Childhood students to volunteer at our Judy Center family events. This 
enables the students to receive service hours needed for their 
programs. North Point High School Cosmetology students provide hair 
cuts, hair styling, and manicures to Head Start/Judy Center children 
each year.
    Community Readers--We arrange for community readers such as 
Kiwanis, PNC bank, and local businesses to read in our classrooms.
    Professional Development--We work closely with the Charles County 
Public School Specialist in Early Childhood Education to maintain and 
support the highest quality of instruction for the Judy Center 
children. This includes Maryland Model for School Readiness training, 
new teacher orientation, teacher conference days, workshops, and other 
professional development. The Judy Center Staff participates in the 
Judy Center Annual Conference, general conferences, as well as partner 
and community professional development.
    Materials of Instruction--We purchase supplemental Materials of 
Instruction for our 19 classrooms and child care partners that further 
aide in the validation process. This year the focus of the supplemental 
Materials of Instruction is in Mathematical Thinking and Scientific 
Thinking.
    Summer Program--The summer program served approximately 95 Judy 
Center children which is 20 percent of our total enrollment in Head 
Start, Pre-K and Kindergarten. Children were selected for the summer 
program based on Working Samples Systems, Individual Language 
Assessment scores and Dynamic Indicators of Basic Early Literacy 
Skills, as well as children being tutored by the Judy Center and family 
situations. Children received free breakfast, lunch, snacks, and free 
transportation. Once the summer program ends home visits by our Early 
Childhood/Family Liaison and Judy Center Family Service Coordinators 
continued to provide enrichment activities.
    Coordinated Calendars--We coordinate calendars with our partners 
and community agencies to help prevent any scheduling conflicts. 
Calendar coordination alerts our families of events and programs 
throughout the local southern Maryland area.
    Charles County Early Care and Education Team (CCECET)--The Charles 
County Judy Center facilitates CCECET. The CCECET plans a countywide 
Early Childhood Day each year. This years Early Childhood Day was May 
21, 2011 and was attended by 780 children and their families.
    For further information contact: Leigh Stalter <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e8f7f0e5e8f0e1f6c4e7e7e6ebe1aae7ebe9">[email&#160;protected]</a> 
301-934-7493.
                steering committee meetings and partners
    The Charles County Judy Center Steering Committee meetings are held 
once a month with our 36 community partners to guide the direction of 
our Judy Centers. Our Judy Center has many partners here in Charles 
County who are working together to make sure our children are safe, 
healthy and ready to learn. Our community partners include:

    Charles County Public Schools; Center for Children; Healthy 
Families Charles County; College of Southern Maryland; American 
Community Properties Trust; Borders Books, Music & Cafe'; Dr. Felix J. 
Aguto, DDS; Charles County Sheriff 's Office; Maternal Child Health; 
Charles County Local Management Board; Charles County Infants and 
Toddlers; Maryland Cooperative Extension; The College of Southern 
Maryland; Charles County Department of Social Services; Charles County 
Public Library; Department of Health Charles County; Department of 
Community Services; KinderCare Learning Centers, Inc.; Lifelong 
Learning Center; Promise Center; So. MD Tri-County Community Action 
Committee-Head Start; The Arc of Southern Maryland; Greater Baden 
Medical Services; PNC Bank; Health Partners, Inc.; Parent Resource 
Center; Southern Maryland Dirt Riders; Alphabest; Priority Partners; 
Gwynn Center; Parent Center; Tri-County Youth Services Bureau; My Gym; 
Kiwanis; St. Charles Early Learning Center; Good Shepherd Education 
Center.
                              program data
      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    

    Senator Mikulski. Miss Smith.

       STATEMENT OF LINDA K. SMITH, EXECUTIVE DIRECTOR, 
        NATIONAL ASSOCIATION OF CHILD CARE RESOURCES & 
                REFERRAL AGENCIES, ARLINGTON, VA

    Ms. Smith. Good morning and thank you for inviting me here 
today to testify. My name is Linda Smith and I am the executive 
director of NACCRRA. Prior to joining NACCRRA I did work for 
the Department of Defense and helped to develop the military's 
childcare system.
    You asked me here today to speak about three things, the 
importance of early care and education programs, 
recommendations to improve the quality of them and lessons 
learned from the military experience.
    Every week in this country over 11 million children under 
the age of 5 are in some form of childcare. They spend an 
average of 35 hours a week in this care and those caring for 
them are mostly untrained, poorly paid, by the way, they 
average $10 an hour and they turn over at roughly 30 percent 
annually. Given the number of children in care and the amount 
of time they spend there, to say that childcare isn't the 
primary early learning program in this country is simply 
denying the facts.
    My first recommendation is easy, stop treating care and 
education as separate issues. Children learn 24/7. The more 
important question is, what are the 11 million children in 
childcare learning.
    Recommendation two, define childcare for which public funds 
can be used. In my view anyone caring for children not related 
to themselves, on a regular basis, for a fee, are in the 
childcare business. They should be licensed, trained, inspected 
and background checked. Forty years of research has 
consistently shown that quality childcare makes a difference, 
especially for low-income children. It also shows that better 
trained staff leads to higher quality care and more positive 
outcomes for children.
    Recommendation two, require basic training of all adults 
working in childcare. The Military Childcare Act of 1989 
required a uniform training program for the workforce. As a 
result DOD requires 40 hours of initial training and 24 hours 
of annual training leading to a child development associate 
credential. In contrast, under the CCDBG, only 13 States 
require caregivers and childcare centers to have any training 
in child development before starting work. Just like the 
military, we have to start with basic training for all.
    Recommendation three, require background checks for all 
childcare workers. Congress required this of DOD in 1990. In 
contrast, as Senator Burr stated, only 10 States require a 
comprehensive check for childcare center workers and fewer for 
family childcare homes. Consider the following. In Illinois an 
audit found that 90 family childcare addresses matched those of 
registered sex offenders and in Kentucky there were 30 matches.
    Senator Burr has introduced Senate bill 581, the Childcare 
Protection Act. It requires background checks for licensed 
childcare providers and those receiving CCDBG subsidies. I urge 
Congress to pass this legislation this year.
    Recommendation four, require health and safety protections 
for children and require accountability for them. Congress 
required quarterly unannounced inspections for all military 
programs. In contrast, State inspections vary greatly. 
California inspects centers once every 5 years and Michigan 
inspects family childcare homes once every 10 year. Congress 
requires DOD to ensure compliance with quality standards, in 
contrast, under CCDBG, there is little emphasis on quality. 
State oversight is weak and HHS has little authority to hold 
States accountable.
    Here is my final recommendation. Public funds should 
support parent choice, but only when choice meets a basic 
threshold for quality. For many parents choices are limited to 
what is affordable, which is often unlicensed and low quality 
care. In Michigan over 60 percent of the children receiving 
CCDBG subsidies are in unlicensed care. And in nine other 
States over one-third of all subsidized children are in 
unlicensed settings.
    DOD has a system of care that is widely viewed as a model, 
with 100 percent of their centers having achieved national 
accreditation. Parents have choices that are both high quality 
and affordable. In short, as the title for this hearing 
suggests, DOD is getting their bang for the buck. In contrast, 
CCDBG has led to a patchwork of childcare programs that vary 
widely in cost and quality. There are no core protections for 
children and little accountability, not much bang for the buck.
    Can the military lessons translate into the civilian 
sector? NACCRRA is working with the Army to improve care in 16 
civilian communities. We use the same training and inspections, 
participation is voluntary and still 87 percent of providers 
have achieved their CBA credential and 93 percent of centers 
have achieved national accreditation. This shows that with 
basic supports all childcare providers can achieve quality.
    In closing, let me say that there are many outstanding 
programs in this country and many people that are working hard 
to do the best they can for children. It is time to support 
them and to strengthen CCDBG. We believe that by enacting the 
low-cost recommendations described here, that we can improve 
the quality of childcare for all children.
    I ask that NACCRRA's ``We Can Do Better Report'' \1\ and 
``Leaving Children to Chance Report'' \2\ be included in the 
record. In addition I ask the table comparing the Military 
Childcare Act and the Childcare and Development Block Grant \3\ 
also be included in the record. I look forward to any 
questions. Thank you for having me.
---------------------------------------------------------------------------
    \1\ The report referred to may be found at www.naccrra.org/node/
2153.
    \2\ The report referred to may be found at www.naccrra.org/node/
1745.
    \3\ The report referred to may be found at www.naccrra.org/node/
1234.
---------------------------------------------------------------------------
    [The prepared statement of Ms. Smith follows:]
                  Prepared Statement of Linda K. Smith
                                summary
    Personal Background: Linda K. Smith is the executive director of 
the National Association of Child Care Resource & Referral Agencies 
(NACCRRA). She also spent 25 years at the Department of Defense (DOD) 
helping to develop the military child care system.
    Testimony Summary: Every week, more than 11 million children under 
age 5 with working mothers are in some type of child care arrangement--
on average for 35 hours per week. Over half (55 percent), return to the 
workforce within 6 months of giving birth. The child care workforce is 
largely untrained. They are poorly paid--the average pay is $10.07/
hour--and the turnover rate is about 30 percent a year.
    Given the number of children in care and the amount of time they 
spend there, to say that child care isn't the primary early learning 
experience for them, is simply denying the facts.
    The Military Child Care Act (MCCA) was enacted in 1989 and the 
Child Care and Development Block Grant (CCDBG) was enacted in 1990. 
Both had as a centerpiece of the law parental choice. Both were enacted 
to respond to an increase in working women and a greater need to make 
child care more affordable for working families. But, the approach to 
assisting families and the objective with regard to child development 
were quite different. The testimony compares and contrasts MCCA with 
CCDBG.
    DOD through the MCCA has developed a system of quality child care. 
In contrast, CCDBG has led to a patchwork array of child care settings 
under different laws in every State.
    First, DOD requires comprehensive background checks, including a 
fingerprint check against State and Federal records, for child care 
providers. In contrast, CCDBG has no background check requirement. As a 
result, State laws vary greatly.
    Second, the MCCA requires minimum training for child care 
providers. While quality child care is important for all families, 
higher quality care has an even greater impact on children from low-
income families. In contrast, CCDBG has no minimum training 
requirement. State requirements vary greatly.
    Third, the MCCA requires at least quarterly inspections for child 
care programs. In contrast, CCDBG has no inspection requirement. State 
laws vary greatly.
    At it's core, DOD sets a minimum quality bar for child care--
background checks, training in the basics like CPR, first aid, basic 
health and safety, child abuse prevention and detection, and child 
development. There's attention to quality, not just access. There is 
accountability through regular unannounced inspections. And, DOD has 
the authority to enforce compliance. In contrast, there is no core 
minimum quality piece to CCDBG. State standards are weak. State 
oversight is weaker. And, HHS has no authority to improve it.
    Nearly $10 billion in government money is spent on child care 
today. A few simple steps at no or little cost could be taken to 
improve the quality of care for millions of children and help set a 
quality framework.

    1. Require a minimum core set of protections for children that 
apply to all programs receiving Federal funds of any kind and require 
inspections similar to DOD. Inspection reports should be posted on the 
Internet so that parents can make informed choices.
    2. Require comprehensive background screening of workers in order 
to ensure children are safe.
    3. Require comprehensive training programs for the workforce that 
are linked to higher levels of competency and incentives.
    4. Give HHS more authority to enforce the provisions of CCDBG and 
hold them accountable for Federal funds invested. Link funding to 
quality not just quantity.
                                 ______
                                 
    Good morning Madam Chairwoman and Ranking Member Senator Burr. I am 
pleased to be here today to testify before the Subcommittee on Children 
and Families. My name is Linda K. Smith and I am the executive director 
of the National Association of Child Care Resource & Referral Agencies 
(NACCRRA). We work with 600 State and local Child Care Resource and 
Referral agencies throughout the country training 650,000 child care 
providers and serving 7 million parents every year. About 40 percent of 
our agencies administer State child care subsidies to low-income 
families. I have been at NACCRRA for nearly 10 years but prior to that 
time, I worked at the Department of Defense for 25 years helping to 
develop the military child care system.
    While at the Pentagon, I held a number of positions as a career 
employee. I was director of Family Policy for the Secretary of Defense, 
the director of Child Care and Youth Policy, and I played a leading 
role in implementing the Military Child Care Act of 1989. I welcome an 
opportunity today to compare and contrast the Military Child Care Act 
(MCCA) and the Child Care and Development Block Grant (CCDBG). And, to 
talk about the importance of quality child care for all children.
    Every week, more than 11 million children under age 5 with working 
mothers are in some type of child care arrangement. On average, these 
children are in care for 35 hours per week. Over half (55 percent), 
return to the workforce within 6 months of giving birth. These children 
are cared for in settings that range from the more formal child 
development centers and preschools to informal family child care homes.
    The majority of adults working in these programs are untrained and 
lack the resources to do the job expected. They are poorly paid--the 
average pay is $10.07/hour--and they turnover at approximately 30 
percent a year. Few States require comprehensive background checks of 
the workforce, have solid health and safety standards, and fewer do 
comprehensive routine inspections.
    Given the number of children in care and the amount of time they 
spend there, to say that child care isn't the primary early learning 
experience for them, is simply denying the facts.
    What is most interesting is that the Military Child Care Act and 
the Child Care and Development Block Grant were enacted around the same 
time. The MCCA was enacted in 1989 and CCDBG was enacted in 1990. Both 
had as a centerpiece of the law parental choice. Both were enacted to 
respond to an increase in working women and a greater need to make 
child care more affordable for working families. But, that is about all 
the two laws had in common. The approach to assisting families and the 
objective with regard to child development were quite different.
    The structure of the military is often a mystery to those who have 
not served in it. But, actually, there are many similarities in that 
structure that correspond to civilian government.
    The Department of Defense (DOD), like the Department of Health and 
Human Services (HHS), is charged with implementing the laws passed by 
Congress. The military services (the Army, Navy, Air Force, and 
Marines) function like States. The major commands are akin to county 
governments. And, installations act like city and local governments.
    Child care policy is written at DOD, just as Federal policy on 
civilian child care is written by HHS. Policies from both agencies stem 
from requirements put in place through laws.
    When DOD writes policies, regulations are put into place by the 
four military services. The military services have latitude to exceed 
the minimum policies, but not relax them. These regulations are passed 
onto the major commands, who in turn, issue guidance to military 
installations. Again, the major commands can exceed minimum policies, 
but not relax them. The installations implement the regulations and in 
some cases, they may add further requirements, but they are not allowed 
to relax the basic requirements. In this way, there are minimum 
protections for the children of military families.
    The Department of Defense through the Military Child Care Act has 
developed a system of quality child care. The proof of this can be seen 
in national accreditation rates: 100 percent are accredited within the 
military child care system compared to 8 percent of child care programs 
in the civilian world. The system has minimum protections for children, 
parents can choose among an array of settings that all meet these 
minimum protections, and there is accountability for how DOD child care 
funds are spent.
    In contrast, the Child Care and Development Block Grant has led to 
a patchwork array of child care settings under different laws in every 
State. There is no system. There are no minimum protections for 
children. Parents can choose either licensed or unlicensed care. 
Accountability for spending public dollars is weak at best. NACCRRA's 
parent polling shows that parents neither understand nor demand quality 
because they simply don't know what questions to ask. Most make logical 
assumptions about licensed care (such as assuming programs that are 
licensed include providers who have had a background check, minimum 
training, CPR, and other basic health and safety training). 
Unfortunately, there is a large gap between logical assumptions made by 
parents and State child care policies.
    At the core of the Military Child Care Act are some key provisions 
that help set a framework for a system of quality care.
    First, there are comprehensive background checks, including a 
fingerprint check against State and Federal records. Child abuse 
records are checked for substantiated claims. The intent is that 
children should be safe in child care. Convicted felons, sex offenders, 
and those with a history of child abuse should not receive DOD money to 
care for children. This was a congressional mandate in 1990.
    In contrast, CCDBG has no background check requirement. As a 
result, State laws vary greatly. Only 10 States require a comprehensive 
background check for those working in child care centers. Only eight 
States require a comprehensive background check for family child care 
home providers. Between the two, only five States require a 
comprehensive check for both centers and family child care homes.
    A comprehensive background check means a fingerprint check against 
State and Federal records, and a check of the sex offender and child 
abuse registries. Just over half the States require fingerprint checks 
for child care center employees (30 States for Federal records; 28 
States for State records) and fewer than half (22 States for Federal 
records; 24 States for State records) require fingerprint checks for 
family child care home providers.
    A fingerprint check makes a difference. Providers can evade the 
system by using an alias that a name check simply won't pick up. That's 
why a fingerprint check is more effective. For family child care homes, 
all adults in the household need to have a background check, not just 
the individual applying for a license. Consider the following:

    <bullet> In Illinois, an audit found that 90 providers' addresses 
matched those listed for sex offenders.
    <bullet> In California, an audit found 49 matches for sex 
offenders.
    <bullet> In Kentucky, an audit found 30 sex offender matches.

    NACCRRA's polling of parents shows that overwhelmingly they support 
comprehensive background checks for child care providers. In fact, most 
parents logically assume that licensed care means that providers have 
had a background check. But, the reality is far different.
    Senator Burr has introduced legislation, S. 581, the Child Care 
Protection Act, to require a comprehensive background check for 
licensed care and those receiving CCDBG subsidies. Madam Chairwoman, I 
am hopeful you and the other members of the HELP Committee will 
cosponsor the bill and that it will pass either by itself or as part of 
CCDBG reauthorization.
    Second, the Military Child Care Act requires the Secretary of 
Defense to establish a uniform training program for child care 
providers. The act requires, at a minimum, that training shall cover:

    <bullet> Early childhood development;
    <bullet> Activities and disciplinary techniques appropriate to 
children of different ages;
    <bullet> Child abuse prevention and detection; and
    <bullet> CPR and other emergency medical procedures.

    As a result, the Department of Defense policy establishes a minimum 
requirement of 40 hours of initial training either before a provider 
cares for children or early on in their caregiving responsibilities. 
Also, DOD requires 24 hours of annual training as follow-up and to 
reinforce initial learning.
    Research shows that better trained providers lead to higher quality 
care and more positive outcomes for children. Higher quality care is 
linked to increased school readiness, reduced use of special education, 
reduced use of public assistance, and reduced juvenile crime. While 
quality child care is important for all families, higher quality care 
has an even greater impact on children from low-income families.
    Just last year the National Institute of Child Health and Human 
Development (NICHD) found that high quality child care for those under 
age 5 had a long-lasting impact on children's future development.
    Specifically, NICHD found that those children who had received high 
quality child care scored higher at age 15 on measures of academic and 
cognitive achievement and were less likely to misbehave than those who 
were enrolled in lower quality child care.
    After 40 years of research, the results are consistent: quality 
child care makes a difference. Unfortunately, studies show that less 
than 10 percent of child care is of high quality.
    But, in contrast, the CCDBG has no minimum training requirement. 
State requirements vary greatly. Only 13 States require child care 
providers in centers to have initial training in child development. 
While State requirements are improving on health and safety 
requirements, only 34 States require all 10 basic health and safety 
practices that experts recommend (such as requiring babies to be placed 
on their backs to sleep as recommended by the American Academy of 
Pediatrics).
    Safe sleeping practices can save lives. It's related to training 
because health and safety requirements often lead to training to 
promote better daily practices for children. It's not theoretical. It's 
practical. We can't teach common sense, but what we can do is ensure 
that child care providers have been exposed to practices that can make 
a difference in the health and safety of the children for which they 
provide care.
    Third, the Military Child Care Act requires at least quarterly 
inspections for child care programs. Regular inspections are a means of 
ensuring that children are cared for in settings that meet minimum 
health and safety requirements. Onsite guidance during inspections can 
help providers to improve the level of care they offer.

    <bullet> Unannounced inspections help prevent providers from 
covering up violations, particularly when there is a history of 
violations or sanctions.
    <bullet> Unannounced inspections can help reduce fraud by ensuring 
that providers are actually caring for the children they claim 
subsidies for and to promote safety by ensuring that providers are not 
caring for more children than a license allows.

    In contrast, the Child Care and Development Block Grant has no 
inspection requirement. State laws vary greatly. Only eight States 
conduct inspections at least quarterly for centers (Florida, New 
Mexico, North Carolina, Oklahoma, Oregon, Tennessee, Virginia, and 
Wyoming). The reality is:

    <bullet> 20 States (including DC) conduct inspections of centers 
once a year or less frequently.
    <bullet> California inspects child care centers once every 5 years.
    <bullet> Iowa and Montana inspect family child care homes once 
every 5 years.
    <bullet> Michigan inspects family child care homes once every 10 
years.
    <bullet> 8 States issue a license to family child care home 
providers without conducting an inspection first (Georgia, Kansas, 
Michigan, Montana, Pennsylvania, South Carolina, Texas and West 
Virginia).

    Inspections are about promoting child safety. They are about 
promoting accountability for the expenditure of Federal money. The 
standards a State has are important. But, they won't matter if 
inspection policies are weak. The two go hand-in-hand: quality 
standards to ensure children are safe in child care and oversight to 
ensure that programs comply with State standards.
    At it's core, DOD sets a minimum quality bar for child care. 
Background checks, training in the basics like CPR, first aid, basic 
health and safety, child abuse prevention and detection, and child 
development. Added to that are inspections. There's attention to 
quality, not just access. There is accountability. DOD has the 
authority to enforce compliance.
    In contrast, there is no core minimum quality piece to CCDBG. State 
standards are weak. State oversight is weaker. HHS has no authority to 
improve it.
    NACCRRA has conducted several national polls of parents with 
children over the last several years. While affordability is a top 
concern, quality is the top concern. Our most recent polling (June 
2010) found:

    <bullet> 94 percent of parents support requiring child care 
providers to have some basic training in health and safety practices, 
and child development, before working with children;
    <bullet> 94 percent of parents support quality standards for all 
child care programs to ensure the health and safety of children;
    <bullet> 92 percent of parents support a background check using 
fingerprints of every child care provider caring for unrelated children 
on a regular basis; and,
    <bullet> 89 percent of parents support requiring child care program 
inspections at least once a year.

    So, what are the lessons from the Military experience that can help 
establish a framework for quality care nationwide? NACCRRA has been 
working with the branches of the military, especially the Army, to use 
the requirements of the military to improve care in civilian programs 
where there are large concentrations of soldiers.
    Called Army Child Care in Your Neighborhood, we have used the same 
training and inspection process used on the installation. To show that 
this can be done, we have worked with providers to achieve the national 
CDA credential and centers to achieve national accreditation. These 
projects demonstrate that civilian child care providers can, given 
support, achieve the same levels of quality.
    Child care is a complex program that supports many--parents, 
businesses, government and providers all have a role to play.
    While I have mentioned several of the shortcomings of CCDBG, it is 
not all doom and gloom on the CCDBG front. There are many outstanding 
programs in this country and many people working hard to do the best 
they can for children. CCDBG has played an important role in helping 
low-income families better afford access to child care.
    But, since 1990 when CCDBG was enacted, we have learned a lot:

    <bullet> Research has found that 80 percent of brain development 
occurs between birth and age 3, and 90 percent before age 5.
    <bullet> Research has found that more than half of kindergarten 
children are considered not ready when they arrive at school.
    <bullet> NACCRRA's own studies have documented the child care laws 
and policies that States have pursued with Federal money.

    While 20 years ago, the focus through CCDBG was to expand access to 
child care, it is time to focus on the quality of care to which 
families have access. The pendulum is swinging in many States. Nearly 
half have created Quality Rating Improvement Systems (or QRIS), which 
are designed to give parents greater awareness about the quality of 
child care in their community and provide an incentive to child care 
providers to offer higher quality care by offering greater subsidy 
payments to higher quality programs.
    Quality rating systems are a good start, but not the total answer. 
The most recent CCDBG subsidy data (fiscal year 2009) shows that in 22 
States, at least one-fifth (20 percent) of the children whose care is 
paid for by Federal subsidies are in license-exempt care.

    <bullet> In two States (Hawaii and Michigan), over 60 percent of 
the children whose care is paid for through CCDBG are in license-exempt 
care.
    <bullet> In 9 States (Connecticut, Hawaii, Illinois, Michigan, 
Missouri, New York, North Dakota, Oregon and Utah), 35 percent or more 
of children whose care is paid for with a subsidy are in license-exempt 
care.

    Therefore, there are really two issues related to the quality of 
care:

    <bullet> First, what licensing means and the protections for 
children in licensed care; and
    <bullet> Second, the quality of care in which Federal subsidies can 
be used.

    While DOD funds are restricted to settings meeting minimum 
requirements, there is no similar requirement under CCDBG. Quality 
rating systems are part of the answer, but some apply to centers only, 
some apply only to licensed care, and few States restrict subsidy 
receipt to licensed care (which is the only threshold that brings with 
it some minimum protections for children and oversight).
    Nearly $10 billion in government money is spent on child care 
today. We can't fix child care in America overnight. But, we can take a 
few simple steps at no or little cost that would improve the quality of 
care for millions of children and help set a quality framework through 
which a child care system could be built.

    1. Require a minimum core set of protections for children that 
apply to all programs receiving Federal funds of any kind and require 
inspections similar to DOD. Inspection reports should be posted on the 
Internet so that parents can make informed choices.
    2. Require comprehensive background screening of workers in order 
to ensure children are safe.
    3. Require comprehensive training programs for the workforce that 
are linked to higher levels of competency and incentives.
    4. Give HHS more authority to enforce the provisions of CCDBG and 
hold them accountable for Federal funds invested. Link funding to 
quality not just quantity.

    These are simple steps. Most would have little cost. It is 
NACCRRA's position that background checks and training can and should 
be personal responsibilities of those self-selecting to care for 
unrelated children or could be paid for through CCDBG or by providers. 
Quite frankly, if a provider wants to take thousands (or more) from the 
government to care for children, it is not unreasonable to ask that 
they take some personal responsibility to show that children will be 
safe in their care.
    CCDBG reauthorization represents an opportunity to strengthen the 
quality of care for all children. The last time the law was 
reauthorized was in 1996. It is far past time that Congress takes a 
close look at CCDBG and the State laws that have emanated from it. We 
can do better for children. Quality care matters to their safety and 
development and it is time for more accountability in the way in which 
government dollars are spent. I look forward to working with the 
committee and to respond to any questions that you may have.
    I ask that NACCRRA's We Can Do Better Report with regard to State 
child care center policies and Leaving Children to Chance Report with 
regard to State family child care home policies be included in the 
record. In addition, I ask that the table comparing the Military Child 
Care Act and the Child Care and Development Block Grant be included in 
the record.
    Thank you.
                                 ______
                                 
                PNC Grow Up Great Initiative Fact Sheet
What: PNC Grow Up Great, a 10-year, $100 million early childhood 
education initiative

    <bullet> Founded by The PNC Financial Services Group, PNC Grow Up 
Great and PNC Crezca con Exito form a comprehensive, bilingual program 
designed to help prepare children--particularly underserved children--
from birth to age 5 for success in school and life. Through Grow Up 
Great, PNC provides the leadership, advocacy, funding, resources and 
volunteers to help parents, caregivers and communities in their efforts 
to increase the potential for young children to succeed.

Why: An Investment in the Future

    <bullet> Extensive research indicates that the returns on 
investments in high-quality early education and school readiness 
initiatives are significant and long lasting--impacting our children, 
our society and the health of our economy for generations to come.
    <bullet> Research shows that children who participate in high-
quality preschool programs are far more likely to experience greater 
educational achievements, strive toward higher vocational aspirations 
and contribute to society later in life.

Who: Expert Partners Help Guide the Initiative

    PNC Grow Up Great has partnered with some of the Nation's most 
highly respected early childhood experts and nonprofit organizations to 
help guide this initiative.

Sesame Workshop

    Sesame Workshop is the nonprofit educational organization behind 
Sesame StreetTM and so much more.

The Fred Rogers Company

    The Fred Rogers Company, producer of Mister Rogers' Neighborhood, 
creates a wide range of multi-media materials dedicated to young 
children, their families and those who support them.

National Head Start Association (NHSA)

    NHSA is a private, national association that supports Head Start 
programs. It offers a wide variety of services and provides a number of 
programs designed to directly enhance the operations of Head Start and 
Childhood Education communities and enrich the lives of Head Start 
students, parents, and staff.

How: A Comprehensive Approach--Grants

    <bullet> More than $30 million in grants have been distributed to 
Head Start and other organizations that support early childhood 
education. Funding through PNC Grow Up Great has established innovative 
school readiness programs for preschoolers in math, science and the 
arts.

Volunteerism

    <bullet> PNC encourages employee involvement in Grow Up Great 
through a progressive policy that permits 40 hours a year of paid time 
off for volunteerism. Employees have volunteered more than 210,000 
hours.

Advocacy

    <bullet> PNC is leveraging its influence with the corporate 
community, policymakers and other key influencers to elevate public/
private discussions about the importance of access to quality early 
childhood education.

Awareness

    <bullet> PNC Grow Up Great has an ongoing campaign to communicate 
the importance of school readiness. These efforts have garnered more 
than 2.5 billion media impressions since the program's inception.

For More Information: Visit www.pncgrowupgreat.com or contact Eva Blum, 
program director, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f2978493dc909e879fb2829c91dc919d9fdc">[email&#160;protected]</a>

    Senator Mikulski. Thank you very much. That was an 
excellent testimony. We want to note Miss Smith was recommended 
by Senator Burr, not only because of her advocacy of his 
legislation, but also to offer a comparison on what one hand of 
the government is doing on child care and what the other is 
doing.
    Mr. Rolnick, let's hear now from you. That was excellent. 
Mr. Hillian, the human interest.

 ARTHUR J. ROLNICK, SENIOR FELLOW AND CO-DIRECTOR OF THE HUMAN 
   CAPITAL RESEARCH COLLABORATIVE, HUMPHREY SCHOOL OF PUBLIC 
     AFFAIRS, THE UNIVERSITY OF MINNESOTA, MINNEAPOLIS, MN

    Mr. Rolnick. Madam Chair, Senator Burr, committee members, 
it is an honor to be here. I have been all over the country, 
indeed all over the world on the economics of early childhood 
education and I have never run into a committee that has been 
this well informed on this issue. I congratulate the committee 
and the staff.
    In comments to business leaders in Omaha, NE, February 6, 
2007 regarding income inequality in the U.S. Federal Reserve 
Chairman Ben Bernanke said,

          ``Although education and the acquisition of skills is 
        a lifelong process, starting early in life is crucial. 
        Recent research, some sponsored by the Federal Reserve 
        Bank of Minneapolis, in collaboration with the 
        University of Minnesota has documented the high returns 
        that early childhood programs can pay in terms of 
        subsequent educational attainment and lower rates of 
        social problems such as teenage pregnancy and welfare 
        dependency.''

    What I would like to do this morning is talk about some of 
that research, and some of it has already been discussed here, 
that the chairman has cited. In trying to leave you with the 
impression, although I think you are already on board here, is 
that early childhood development is economic development and it 
is economic development with a very high public return. In 
fact, we have asserted now, for over 10 years, that you won't 
find a better public investment and it hasn't been challenged.
    But I am not going to leave you there with just the 
research. I am going to talk about implementation. How do you 
take the research ideas and make it happen in the real world, 
if you will. I am going to talk about an organization called 
The Minnesota Early Learning Foundation (MELF), that has taken 
our ideas and implemented a pilot that I think you will find 
very interesting that will help yield the kind of results that 
we saw in the research.
    So let me begin with the research itself. A lot of people 
have asked me, I spent 40 years--I started very young at the 
Federal Reserve system--at the Federal Reserve system and 
studying inflation and unemployment. In fact, my expertise is 
pre-Civil War banking and I have never been asked to testify on 
that yet.
    [Laughter.]
    Mr. Rolnick. How I got started on the economics of early 
childhood education, it goes back to a former governor of 
Minnesota, Republican Al Quie and former mayor of Minneapolis, 
Democrat Don Fraser, who had an organization on advocating for 
early childhood education. They were making a moral argument 
and I said to them, at a lunch, when they were presenting their 
results, that I don't think a moral argument is going to work. 
I think you can make moral arguments for lots of investments, I 
think you should look behind the moral argument and look at the 
economics. That is how I got started. I didn't realize that 
what we said was going to be that revolutionary.
    As I said, I have been doing this for 10 years and since we 
presented that report, my colleague and I, Robb Grunewald, we 
have been to virtually every State and numerous countries on 
this issue.
    So what is the research and what did we say? There are 
actually four longitudinal studies, Abecedarian study that 
Senator Burr mentioned, there is the Perry Preschool, there is 
the Chicago Child-Parent Project and then there is a study in 
Syracuse on home visiting nurses all basically, I am going to 
argue, come to the same conclusion.
    I want to focus, quickly, on the Perry Preschool because 
that is a study that Robb and I looked at very carefully. There 
was 123 families, randomly divided up into two groups. So the 
methodology doesn't get much better than this. The benefits for 
the kids that were in a very high quality program, you have 
already noted: Less likely to be retained in the first grade, 
less likely to need special ed., more likely to be literate by 
the sixth grade, graduate high school, get a job, pay taxes, 
stay off welfare. And the crime rate, compared to the control 
group, goes down 50 percent.
    We had dollar values on all this. Economists can put dollar 
values on anything, OK? So we have the benefits. We know the 
cost in today's dollars were about $10,000, $11,000, it was a 
2-year-program for 3- and 4-year-olds. We asked a simple 
question that most economists would ask, ``What was the return 
on that investment? '' In that 40-year study we got up an 18 
percent, inflation adjusted, return. Stock market, post-World 
War II annual return is 5.8 percent, so we can beat the stock 
market by a lot, we can beat most economic development dollars 
by a lot that are spent on trying to lure each other's 
companies across State lines. We have dubbed that the economic 
bidding war, that is a zero public return. So I can take 
economic development dollars that are currently being used and 
I can get you an 18 percent return.
    Now there is some debate about these rates of return. They 
range--not an exact science, but in all of the studies the 
ranges are extraordinary returns compared to the stock market 
and compared to most economic development.
    So I promised you I would talk about--OK, now you've got 
the research, the results that show it, how do you make it 
happen in practice. I am going to argue there is a number of 
hurdles. First, it should start early. Why do I say that? The 
amazing amount of research that has been done on brain 
development says that it begins at the very beginning, 
literally prenatal. If you don't get the kids that early, by 
age 3 that brain isn't developing properly. We have research to 
show that home visiting nurses work quite well in intervention. 
So it has got to start early.
    It's got to be quality. You have talked about that. Parent 
engagement. If you are going to do this you better be able to 
bring it to scale. Whatever policy presents you being able to 
bring it to scale, because if you are only doing it for 20 
percent of the kids, on an economic grounds, forget moral 
grounds, you are failing.
    So what is our idea? It is a very simple one. Two 
economists, not surprising. We are going to use the market, we 
call it a market-based approach. We empower our parents with 
scholarships. We call it Scholarship Plus. Home visiting nurse 
starts prenatal. When the child turns 3 they get a 2-year 
scholarship to go to a high quality program. It has got to be 
high quality. A pilot has been funded by the Minnesota Early 
Learning Foundation, it consists of the top CEOs in our State, 
CEO from General Mills, Best Buy, EcoLab, the president of the 
University of Minnesota, a man by the name of Charlie Weaver 
who heads the Business Partnership which represents 110 of our 
top corporations. We raised $20 million privately. We actually 
have a pilot going in St. Paul, 650 families.
    The parents get to choose the high quality program. We have 
a rating system. They have got to go to a three- or four-star 
rated program and the parents choose. Again a third choose Head 
Start, but some choose Montessori, some choose faith-based, 
some choose the public schools. I am going to argue that is how 
you get quality. Get that competition, have the parents 
empowered and you can take that to scale very easily.
    This program, we are already getting--outside consultant 
already shows our kids are doing great, much better than kids 
that aren't in the program. Shouldn't surprise you. We think we 
can close the achievement gap by the third grade. We have a 
variety of other pilots going on in Minnesota and a variety of 
other States that are looking at this program.
    Thank you for this opportunity.
    [The prepared statement of Mr. Rolnick follows:]
                Prepared Statement of Arthur J. Rolnick
    Investments in human capital prior to kindergarten provide a high 
public return. Such investments--especially for at-risk children--can 
have a substantial impact on the success of children's futures as 
students, workers, and citizens in democratic society. The high returns 
to investments in early childhood education (ECE) accrue not only by 
boosting labor productivity, but also by reducing costs to society, 
such as remedial education and crime. Cost-benefit analyses of four 
long-term evaluations of ECE programs showed annual rates of return, 
adjusted for inflation, ranging between 7 percent and as high as 20 
percent.
    These findings, promising though they are, pose a challenge: Small-
scale ECE programs for at-risk children have been shown to work, but 
can their success be reproduced on a much larger scale? Based on a 
careful review of past and current programs, we believe that large-
scale efforts can succeed if they are market-based and incorporate four 
key features: focus on at-risk children, start as early as prenatal, 
provide access to high-quality resources, and effectively engage the 
parents.
    Achieving these characteristics at scale requires the flexibility, 
innovation, and incentives that are inherent in markets. For some, this 
is a radical idea, but for many families the ECE market works just 
fine. Many middle- and upper-class families have long benefited from 
the power of ECE markets by choosing programs and expecting a high-
quality experience for children.
    In January 2008, the Minnesota Early Learning Foundation began a 
pilot project based on this model, which has now served about 650 
children and their families with parent mentoring and/or scholarships. 
The scholarships, which can only be used at high-quality programs, 
reached especially poor children: 71 percent of the families had 
household income below the poverty level. The number of high-quality 
programs in and near the pilot area increased more than 55 percent over 
a 2-year period. Parents consider the scholarship program to be user-
friendly and are engaged in their children's education and development. 
Finally, children showed significant increases in language and early 
math skills across the first year of enrollment.
    As Congress considers how best to invest in ECE, lessons learned 
from the St. Paul pilot are applicable. More openings in high-quality 
programs have become available in part because the programs are paid at 
a higher rate than if they provided more typical child care. In 
addition, programs and families noted that the scholarship program 
required less paperwork, was easier to navigate, and made payments to 
ECE programs more timely than the child care subsidy system. In a 
scholarship system, the focus is on the child's education, not on the 
employment status of parents. Nevertheless, a number of parents noted 
that the scholarship program made it possible for them to obtain work 
and education opportunities.
    Findings from the St. Paul pilot suggest that the Federal 
Government would benefit from providing incentives to States to 
implement scholarship programs. For example, a portion of the State-
level grant competition, Race to the Top--Early Learning Challenge, 
could be used to fund scholarship pilots. As also demonstrated in the 
St. Paul pilot, scholarship pilots could operate with private sector 
contributions and involvement. Lessons learned from such pilots could 
guide policy to achieve the largest bang for the buck from ECE 
investments.
                                 ______
                                 
    In comments to business leaders in Omaha, NE, regarding income 
inequality in the United States, Federal Reserve Chairman Ben Bernanke 
said,

          ``Although education and the acquisition of skills is a 
        lifelong process, starting early in life is crucial. Recent 
        research--some sponsored by the Federal Reserve Bank of 
        Minneapolis in collaboration with the University of Minnesota--
        has documented the high returns that early childhood programs 
        can pay in terms of subsequent educational attainment and in 
        lower rates of social problems, such as teenage pregnancy and 
        welfare dependency.'' \1\
---------------------------------------------------------------------------
    \1\ Chairman Ben S. Bernanke, ``The Level and Distribution of 
Economic Well-Being,'' Remarks before the Greater Omaha Chamber of 
Commerce, Omaha, NE, February 6, 2007.

    The research cited by the chairman is contained in several papers 
we have written over the past 8 years on the economic benefits of 
investments in early childhood education (ECE). We have argued that 
investments in human capital prior to kindergarten provide a high 
public return. Such investments--especially for at-risk children--can 
have a substantial impact on the success of children's futures as 
students, workers, and citizens in democratic society. That is, the 
most efficient means to boost the productivity of the workforce 15 to 
20 years down the road is to invest in today's youngest children. 
According to James Heckman, Nobel laureate economist at the University 
of Chicago, ``Enriching the early years will promote the productivity 
of schools by giving teachers better-quality students. Improving the 
schools will in turn improve the quality of the workforce.'' \2\
---------------------------------------------------------------------------
    \2\ See Heckman and Masterov.
---------------------------------------------------------------------------
    The high returns to investments in ECE accrue not only by boosting 
labor productivity, but also by reducing costs to society, such as 
remedial education and crime. The cost of crime in the United States is 
estimated at about $1.3 trillion per year, or almost $5,000 per person. 
Research shows that investments in high-quality ECE appear to reduce 
future crime and are more cost-effective than additional spending on 
police or incarceration.\3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    The promise of ECE programs is based on fundamental facts about 
early human development. A child's quality of life and the 
contributions that child makes to society as an adult can be traced to 
his or her first years of life. From birth until about the age of 5, a 
child undergoes tremendous development. If this period of life includes 
support for growth in language, motor skills, adaptive abilities, and 
social-emotional functioning, the child is more likely to succeed in 
school and to later contribute to society.\4\ Conversely, without 
support during these early years, a child is more likely to drop out of 
school, depend on welfare benefits, and commit crime--thereby imposing 
significant costs on society.\5\ ECE programs recognize this 
potential--and this risk--and seek to nurture healthy development from 
the earliest years.
---------------------------------------------------------------------------
    \4\ See Erickson and Kurz-Riemer.
    \5\ See National Scientific Council on the Developing Child.
---------------------------------------------------------------------------
    Aside from comparing returns on investment with other types of 
crime prevention and education spending, we contend that investing in 
ECE yields a much higher return than most government-funded economic 
development initiatives.
    For well over 20 years, government leaders at the State and local 
levels have invested in economic development schemes with public 
dollars that are at best a zero-sum game. In the name of economic 
development and creating new jobs, virtually every State in the union 
has tried to lure companies with public subsidies. Previous studies 
have shown that the case for these so-called bidding wars is 
shortsighted and fundamentally flawed.\6\ From a national perspective, 
jobs are not created--they are only relocated. The public return is at 
most zero. And the economic gains that seem apparent at State and local 
levels are also suspect because they would likely have been realized 
without the subsidies. In other words, what often passes for economic 
development and sound public investment is neither.
---------------------------------------------------------------------------
    \6\ See Burstein and Rolnick.
---------------------------------------------------------------------------
    We don't pretend to have all the answers to economic development, 
but we're quite certain that investing in ECE is more likely to create 
a vibrant economy than using public funds to lure a sports team by 
building a new stadium or attracting an automaker by providing tax 
breaks.
    Several longitudinal evaluations all reach essentially the same 
conclusion: The return on ECE programs that focus on at-risk families 
far exceeds the return on other projects that are funded as economic 
development. Cost-benefit analyses of the Perry Preschool Program, the 
Abecedarian Project, the Chicago Child-Parent Centers, and the Elmira 
Prenatal/Early Infancy Project showed annual rates of return, adjusted 
for inflation, ranging between 7 percent and as high as 20 percent.\7\ 
The Perry Preschool Program and Chicago Child-Parent Centers provided 
preschool at ages 3 and 4, Abecedarian provided full-day care and 
education for children a few months old through age 4, and the Elmira 
Prenatal/Early Infancy Project provided home visits by a nurse to high-
risk mothers during pregnancy until the child turned age 2.
---------------------------------------------------------------------------
    \7\ See Heckman, Grunewald, and Reynolds.
---------------------------------------------------------------------------
    The benefits attributed to these ECE programs include reductions in 
special education and crime, and increases in tax revenue. Reductions 
in the cost of crime played a large role in boosting overall rates of 
return, particularly for the Perry Preschool Program. Only the 
Abecedarian Project did not include cost reductions due to decreases in 
crime because differences in crime rates between the treatment and 
control groups were not statistically significant.\8\
---------------------------------------------------------------------------
    \8\ The lack of a crime effect is likely due to relatively low 
crime rates in the study area compared with other parts of the country. 
See Burr and Grunewald.
---------------------------------------------------------------------------
    The study of the Perry Preschool Program showed a decrease in the 
percentage of adults at age 40 who were arrested five or more times 
from 55 percent for the control group to 36 percent for the treatment 
group, a drop of 35 percent.\9\ In the Chicago Child-Parent Center 
study, the percentage of juveniles arrested decreased from 25 percent 
for the comparison group to 17 percent for the treatment group, a 
reduction of 33 percent.\10\ The Elmira Prenatal/Early Infancy Project 
study showed the mean number of child arrests by age 15 dropped by 50 
percent; meanwhile, the mean number of mother arrests decreased by 69 
percent.\11\
---------------------------------------------------------------------------
    \9\ See Schweinhart, et al.
    \10\ See Reynolds, Temple, Robertson, and Mann.
    \11\ See Karoly, et al.
---------------------------------------------------------------------------
    In each study, the drop in crime led to reduced costs for 
incarceration, police protection, and courts. Furthermore, the costs to 
the victims of crime decreased, including loss of property and 
suffering. Added together across all four longitudinal studies, the 
savings to crime alone could justify increased investment in high-
quality ECE.
    In addition to the longitudinal studies, a meta-analysis by 
Washington State Institute for Public Policy creates an average 
composite of 53 ECE programs to compare the return on investment with 
other intervention programs for youth. The results for ECE for 3- and 
4-year-old children, the Nurse Family Partnership, and home visiting 
programs for at-risk mothers and children compared favorably with other 
intervention program types reviewed by the authors, including several 
parole supervision programs for juvenile offenders.\12\
---------------------------------------------------------------------------
    \12\ See Washington State Public Policy Institute.
---------------------------------------------------------------------------
                        market-oriented approach
    These findings, promising though they are, pose a challenge: Small-
scale ECE programs for at-risk children have been shown to work, but 
can their success be reproduced on a much larger scale? There are 
reasons to be skeptical; some recent attempts at scaling up ECE 
programs have been disappointing. However, it's our view that those 
programs failed in large part because they were based on old models 
that were ill-suited to get results. It's time to seriously reconsider 
how to effectively help at-risk children and their families. Based on a 
careful review of past and current programs, we believe that large-
scale efforts can succeed if they are market-based and incorporate four 
key features: focus on at-risk children, start as early as prenatal, 
provide access to high-quality resources, and effectively engage the 
parents.
    Achieving these characteristics at scale requires the flexibility, 
innovation, and incentives that are inherent in markets. For some, this 
is a radical idea, but for many families the ECE market works just 
fine. Many middle- and upper-class families have long benefited from 
the power of ECE markets by choosing programs and expecting a high-
quality experience for children.
    Our idea is to use the strength of the market by empowering at-risk 
parents with resources to access high-quality ECE. Qualified programs 
would compete for the scholarship children; parents would make the 
decision about where to enroll their children. In order to enroll 
children with scholarships, programs would have to achieve a set level 
of quality, such as a particular rating on a State quality rating 
scale. The scholarships would cover child tuition to qualified programs 
plus the cost of parent mentoring to ensure parental involvement. 
Scholarships would be outcome-based, meaning that they would include 
incentives for achieving measurable progress toward the life and 
learning skills needed to succeed in school.
    Parent mentoring would include parent education; information about 
available financial, health, and human-services resources; and guidance 
on selecting an ECE program. Research shows that reaching children with 
multiple risk factors as early as possible is essential; even age 3 may 
be too late. So we suggest that while scholarships would pay tuition 
for a child to attend an ECE program beginning at age 3, the parent-
mentoring program could start as early as prenatal.\13\
---------------------------------------------------------------------------
    \13\ See Rolnick and Grunewald for additional details of the 
market-based proposal.
---------------------------------------------------------------------------
    This market-based approach is in contrast to the more conventional 
approach of either increasing funding for existing programs or adding 
early childhood programs to the public school curriculum.
                           a minnesota pilot
    In January 2008, a pilot project based on this model was begun in 
St. Paul with about $6 million raised by the Minnesota Early Learning 
Foundation (MELF). The foundation was established with the help of 
business leaders in 2005; its mission is to sponsor demonstration 
projects that explore how Minnesota can cost-effectively invest in ECE 
with an emphasis on market-oriented solutions.\14\
---------------------------------------------------------------------------
    \14\ More information about MELF, including a list of board 
members, is available at www.melf.us.
---------------------------------------------------------------------------
    The St. Paul Early Childhood Scholarship Program has served about 
650 children and their families with parent mentoring and/or 
scholarships in two neighborhoods in St. Paul. In December 2010, the 3-
year point of the pilot, the program evaluator noted that the 
scholarships were reaching especially poor children: 71 percent of the 
families had household income below the poverty level, which is about 
$22,000 for a family of four. Prior to the availability of 
scholarships, only about one-third of children in the pilot program 
attended a licensed early childhood program. After the availability of 
the scholarships, children were attending a variety of high-quality ECE 
programs, including nonprofit and for-profit child care and preschools, 
Head Start, family-based child care, and public school-based preschool 
programs. About three-quarters attended full-day programs; the rest 
attended half-day programs.\15\
---------------------------------------------------------------------------
    \15\ See Gaylor, et al.
---------------------------------------------------------------------------
    The report also shows the number of high-quality programs in and 
near the pilot area increased more than 55 percent, from 22 programs to 
34 over a 2-year period, as existing programs improved their quality 
and a couple of new programs opened in the area. In order to enroll 
children with scholarships, programs needed to achieve at least a 3-
star rating on a 4-star rating scale called Parent Aware, Minnesota's 
pilot quality rating and improvement system.
    Not only did the number of high-quality programs increase, but 
parents considered the scholarship program to be user-friendly and had 
strong positive opinions about the parent mentors and scholarships.\16\ 
Over 80 percent of parents interviewed over the phone indicated they 
talk with their child's teacher about behavior and accomplishments, 
classroom rules and expectations, and activities to practice at home. 
Parents also commented they noticed how the ECE program was preparing 
their children for kindergarten, such as learning English and 
developing stronger social skills.
---------------------------------------------------------------------------
    \16\ Ibid.
---------------------------------------------------------------------------
    Child outcome data also provided promising initial signals. 
Children participating in the pilot showed significant increases in 
language and early math skills across the first year of enrollment. The 
evaluators noted that children's developmental trajectories were 
improved from what they would have been without participating in the 
scholarship program and attending a high-quality ECE program. Children 
also showed significant improvements in social skills between baseline 
and 1 year later, but there weren't significant changes on average 
after 1 year for scores on behavior problems (i.e., anger-aggression) 
or attention and task persistence.
                          lessons in progress
    The Federal Government funds child care subsidies and Head Start, 
while 40 States fund pre-kindergarten programs.\17\ As Congress 
considers how best to invest in ECE, lessons learned so far from the 
St. Paul pilot are applicable, particularly in reaching low-income 
children, engaging parents, and providing incentives to increase 
openings at high-quality programs.
---------------------------------------------------------------------------
    \17\ See Barnett, et al.
---------------------------------------------------------------------------
    As discovered in the St. Paul pilot, recruiting low-income families 
can be challenging, particularly since these families tend to be highly 
mobile. On the ground, person-to-person recruitment and word of mouth 
were more effective than passive outreach efforts. However, once 
parents enrolled in the program, they noted it was relatively easy to 
use and were enthusiastic about the scholarships, particularly when 
compared with child care subsidized and administered by the 
government.\18\ Combining parent mentors with the resources to choose a 
high-quality program for their child seems to have helped engage 
parents in the education of their children.
---------------------------------------------------------------------------
    \18\ Ibid.
---------------------------------------------------------------------------
    On the program side, more openings in high-quality programs have 
become available in part because the programs are paid at a higher rate 
than if they provided more typical child care. In addition, programs 
and families noted that the scholarship program required less 
paperwork, was easier to navigate, and made payments to ECE programs 
more timely than the child care subsidy system. In a scholarship 
system, the focus is on the child's education, not on the employment 
status of parents. Nevertheless, a number of parents noted that the 
scholarship program made it possible for them to obtain work and 
education opportunities.
    Findings from the St. Paul pilot suggest that the Federal 
Government would benefit from providing incentives to States to 
implement scholarship programs. For example, a portion of the State-
level grant competition, Race to the Top--Early Learning Challenge, 
could be used to fund scholarship pilots. As also demonstrated in the 
St. Paul pilot, scholarship pilots could operate with private sector 
contributions and involvement. Lessons learned from such pilots could 
guide the policy to achieve the largest bang for the buck from ECE 
investments.
    Compared with the billions of dollars spent each year on high-risk, 
low-return economic development schemes, this type of an investment in 
ECE programs is a far better and more secure economic development 
venture. We are confident that ECE investments driven by a market-based 
approach that focuses on at-risk children, starts as early as prenatal, 
provides access to high-quality resources, and empowered parents will 
lower crime, create a stronger workforce, and yield a high public 
return.
                               References
Barnett, W. Steven; Epstein, Dale J.; Carolan, Megan E.; Fitzgerald, 
    Jen; Ackerman, Debra J.; and Friedman, Allison H. 2010 State 
    Preschool Yearbook. National Institute for Early Education 
    Research, 2011.
Bernanke, Ben S. ``The Level and Distribution of Economic Well-Being,'' 
    Remarks before the Greater Omaha Chamber of Commerce, Omaha, NE, 
    February 6, 2007. http://federalreserve.gov/BoardDocs/Speeches/
    2007/20070206/default.htm.
Burr, Jean; and Grunewald, Rob. ``Lessons Learned: A Review of Early 
    Childhood Development Studies.'' Federal Reserve Bank of 
    Minneapolis, Working paper, April 2006.
Burstein, Melvin; and Rolnick, Arthur J. ``Congress Should End the 
    Economic War Among the States: Federal Reserve Bank of Minneapolis 
    Annual Report Essay,'' The Region, March 1995, Vol. 9, No., pp. 3-
    4.
Erickson, Martha F.; and Kurz-Riemer, Karen. Infants Toddlers, and 
    Families: A Framework for Support and Intervention. New York: 
    Guilford Press, 1999.
Gaylor, Erika; Spiker, Donna; Williamson, Cyndi; and Ferguson, Kate. 
    Saint Paul Early Childhood Scholarship Program Evaluation. Annual 
    Report: Year 3. SRI International, April 2011.
Heckman, James J.; Grunewald, Rob; and Reynolds, Arthur J. ``The 
    Dollars and Cents of Investing Early: Cost-Benefit Analysis in 
    Early Care and Education.'' Zero to Three, July 2006, Vol. 26, No. 
    6., pp. 10-17.
Heckman, James J.: and Masterov, Dimitriy V. ``The Productivity 
    Argument for Investing in Young Children,'' Early Childhood 
    Research Collaborative, Discussion Paper 104, August 2006.
Karoly, Lynn A.; Greenwood, Peter W.; Everingham, Susan S.; Hoube, 
    Jill; Kilburn, M. Rebecca; Rydell, C. Peter; Sanders, Matthew; 
    Chiesa, James. Investing in Our Children: What We Know and Don't 
    Know About the Costs and Benefits of Early Childhood Interventions. 
    Santa Monica, CA: RAND Corp., 1998.
National Scientific Council on the Developing Child. ``Excessive Stress 
    Disrupts the Architecture of the Developing Brain.'' Working Paper 
    No. 3, Summer 2005.
Reynolds, Arthur J.; Temple, Judy A.; Robertson, Dylan L.; and Mann, 
    Emily A. ``Age 21 Cost-Benefit Analysis of the Title I Chicago 
    Child-Parent Centers.'' Educational Evaluation and Policy Analysis, 
    Vol. 4, No. 24, 2002, pp. 267-303.
Rolnick, Arthur J.; and Grunewald, Rob. ``A Proposal for Achieving High 
    Returns on Early Childhood Development.'' Working paper, Federal 
    Reserve Bank of Minneapolis, March 2006.
Schweinhart, Lawrence J.; Montie, Jeanne; Xiang, Zongping; Barnett, W. 
    Steven; Belfield, Clive R.; and Nores, Milagros. Lifetime Effects: 
    The High/Scope Perry Preschool Study through Age 40. Ypsilanti, MI: 
    High-Scope Press, 2005.
Washington State Public Policy Institute. ``Meta-Analysis Benefits and 
    Costs of Prevention and Early Intervention Programs for Youth.'' 
    September 2004.

    Senator Mikulski. Excellent. Excellent.
    Miss Blum.

    EVA TANSKY BLUM, SENIOR VICE PRESIDENT AND DIRECTOR OF 
        COMMUNICATION AFFAIRS, PNC BANK, PITTSBURGH, PA

    Ms. Blum. Thank you. Madam Chairwoman, Ranking Member Burr 
and the other members of the subcommittee, thank you for 
inviting me to participate in this panel discussion. As 
president of the PNC Foundation I have the honor to direct PNC 
Grow Up Great. We at PNC are passionate about our youngest 
citizens. We believe that an investment in the workforce of 
tomorrow makes economic sense today.
    The PNC Financial Group is one of the Nation's largest 
diversified financial services organizations with assets of 
$259 billion. We operate primarily in 15 States and the 
District of Columbia.
    Approximately 8 years ago we introduced a program called 
PNC Grow Up Great that has become our signature philanthropic 
endeavor. It is a 10-year, $100 million bilingual program 
designed to help prepare children, from birth to age 5, for 
success in school and in life.
    Why this cause? First, our employees wanted us to 
concentrate on children and education. As we studied the 
emerging issues in education we became convinced that the 
availability of quality early childhood education, particularly 
for at-risk children, is critical to the future of our 
communities. These young children are our future workforce. 
Research shows, as you've heard, that many at-risk 5-year-olds 
enter kindergarten with a large vocabulary gap and that gap 
continues to grow, which affects their reading and math 
progress. We cannot continue to lose these children at such a 
young age. They are not only our future workforce, but they are 
also our future clients.
    Our program is comprehensive involving our entire company 
and great partners, including a blue ribbon advisory council, 
Sesame Workshop, The Fred Rogers Company and Head Start.
    PNC has just entered the 8th year of the Grow Up Great 
program. We focus on four key areas: volunteerism, advocacy, 
awareness and grants. In the interest of time I will only speak 
about two of these, but the others are detailed in our written 
submission.
    Volunteerism. Research shows that in children's early years 
opportunities to interact with caring, responsible adults are 
so important. Our employees are eligible for 40 hours of paid 
time off each year and more than 20,000 employees have 
volunteered and have logged more than 210,000 hour. Our 
employees are in the classrooms, providing hugs, wiping noses 
and tying shoes. They also teach the staff and parents how to 
budget, repair bad credit and buy their first home.
    Grants. We are distributing $40 million to support early 
education initiatives that reach low- and moderate-income 
children, their teachers and families. We fund programs with 
some of the country's most well-known institutions that bring 
science, math, opera, ballet, symphonies and art to preschool 
classrooms in at-risk communities. I wish you could see these 
3-, 4- and 5-year-olds, practicing their plies, signing opera, 
talking about impressionist paintings, experiences that these 
children would generally not have. They are mesmerized and they 
are learning.
    Independent evaluations tell us that we are making 
progress. Teachers are more comfortable teaching these 
subjects. Parents report that they are spending more time with 
their children engaged in science, math and art activities. The 
classrooms are coming alive.
    The Grow Up Great journey has been extraordinary for PNC. 
Our employees and partners are engaged and 64,000 trained 
teachers are putting their new tools to work in the classroom. 
But most of all, over 1 million at-risk children are better 
prepared for school, their parents and siblings are learning 
with them and they are having fun.
    We are trying hard to close that vocabulary gap and we are 
confident that these children have the potential to be 
productive citizens who will be able to work for us and bank 
with us.
    Senators, we ask you to support all of our efforts to 
provide these children, our children, with a great chance to 
reach their full potential so that they will not only grow up 
but they will grow up great. Thank you.
    [The prepared statement of Ms. Blum follows:]
                 Prepared Statement of Eva Tansky Blum
    Chairwoman Mikulski, Ranking Member Burr and the other Senators on 
the subcommittee, thank you for inviting me to participate in this 
hearing. I am Eva Blum, senior vice president and director of Community 
Affairs for PNC Bank, and President of the PNC Foundation. I have the 
honor to direct PNC Grow Up Great. We at PNC are passionate about our 
youngest citizens and believe that it is imperative that all children 
have the opportunity to enter kindergarten ready to learn. We believe 
that an investment in the workforce of tomorrow makes economic sense 
today. For these reasons, we commend you for holding this hearing, and 
appreciate the opportunity to offer our perspectives as a corporate 
citizen.
    The PNC Financial Services Group, Inc. is one of the Nation's 
largest diversified financial services organizations with assets of 
$259 billion. The company has nearly doubled in size during the past 
decade and operates primarily in 15 States and the District of Columbia 
with other national and international business operations. PNC measures 
its success against the yardstick of each of our four key stakeholders: 
employees, customers, shareholders and communities. We care about 
helping our customers achieve, and we contribute to our communities in 
ways that make PNC an important part of the regions where we live and 
work.
    Approximately 8 years ago, PNC introduced a program in the company 
called PNC Grow Up Great. We announced it as a 10-year, $100 million 
program to raise awareness of the importance of the first 5 years of 
life and to support access to quality early childhood education. PNC 
Grow Up Great and PNC Crezca con Exito form a comprehensive, bilingual 
program designed to help prepare children for success in school and 
life. Through PNC Grow Up Great, PNC provides the leadership, advocacy, 
funding, resources and volunteers to help parents, caregivers and 
communities in their efforts to increase the potential for young 
children to succeed. This is the first time that PNC adopted a 
corporate-wide philanthropic program since our giving is generally 
locally driven within the corporation's mission.
    Why this cause? First, our employees wanted us to concentrate on 
children and education. As we studied the emerging issues in education, 
we became convinced that the availability of quality early childhood 
education, particularly for at-risk children, is critical to the future 
of the communities where we live and work. Extensive research indicates 
that the return on investments in high quality early education and 
school readiness initiatives are significant and long lasting, 
impacting our children, our society and the health of our economy for 
generations to come. Research also shows that children who participate 
in high quality early education programs are far more likely to 
experience greater educational achievements, strive toward higher 
vocational aspirations and contribute to society later in life.
    These young children are our future workforce. The gap in academic 
success between children in low and high socio-economic households 
begins as early as 18 months old.\1\ Furthermore, research shows that 
many at-risk 5-year-olds enter kindergarten with the vocabulary of an 
average 3\1/2\-year-old. They start school 18 months behind, and this 
gap gets bigger as they progress through elementary school. By the time 
these children reach third and fourth grade, many cannot read or do 
math at grade level. If they do not have education and jobs, they 
cannot contribute to the economic prosperity of their communities. We 
are convinced that if our communities and neighborhoods do not prosper, 
we cannot prosper as a company. Our executive leaders have always said 
that a bank is only as strong as the communities in which it does 
business.
---------------------------------------------------------------------------
    \1\ Heckman, J.J. (2008). Schools, Skills and Synapses, National 
Bureau of Economic Research.
---------------------------------------------------------------------------
    As we studied the work of Art Rolnick and Jim Heckman, a Nobel 
laureate economist, and talked to other experts in the field, we knew 
that this was an important investment for our company--one that had the 
potential to pay off in many ways. Research indicates that for every 
dollar spent on quality early education programs for at-risk children, 
there is as much as a $16 return on investment to society in the form 
of less remedial education, less repeat grades, and savings in the 
criminal justice and welfare systems.\2\ These children have better 
jobs, more savings, and are more likely to own a home and car.
---------------------------------------------------------------------------
    \2\ Schweinhart, L.J., Montie, J., Xiang, Z., Barnett, W.S., 
Belfield, C.R., & Nores, M. (2005). Lifetime effects: The High Scope/
Perry Preschool Study through age 40, Ypsilanti, MI: High/Scope Press.
---------------------------------------------------------------------------
    Our program is unique for a corporate philanthropy program because 
it is comprehensive, involving our entire company. PNC has partnered 
with some of the Nation's most highly respected early childhood experts 
and nonprofit organizations to help guide this initiative. We have an 
Advisory Council made up of experts in this field who advise us on 
policy direction for the program. We have also partnered with Sesame 
Workshop, the parent company of the world renowned television program, 
Sesame Street. They have developed materials for us to distribute to 
raise awareness of the importance of the first 5 years of life and to 
help parents, teachers and caregivers understand how to use everyday 
moments as learning opportunities for their children. Another important 
partner in the program is The Fred Rogers Company, producer of Mister 
Rogers Neighborhood, who has helped us with training our employee 
volunteers. They have also developed tips for parents and caregivers 
that are on our Web site and in printed materials. Our final program 
partner is Head Start, a key conduit to at-risk children and families, 
which has facilities in all of our locations, and an excellent program 
for volunteers.
    PNC has just entered the 8th year of the Grow Up Great program, 
which is a multi-faceted initiative focused on four key areas--
volunteerism, advocacy, awareness, and grants. The following outlines 
these four components, the comprehensive approach we have taken to 
highlight the issue, some examples of successful programs, and results 
we have obtained through independent evaluations of these PNC-funded 
efforts.
                              volunteerism
    Research shows that in children's early years, opportunities to 
interact with caring, responsive adults are of utmost importance.\3\ It 
has also been shown that young children acquire knowledge about 
literacy, math and science through conversations with adults and by 
being read to from information-rich books.\4\ We believe that the Grow 
Up Great volunteerism program provides at-risk children with additional 
opportunities for the type of individual attention that has been shown 
to be so important to their development.
---------------------------------------------------------------------------
    \3\ Freiberg, J. (2009) Environmental Factors Affecting Language 
from Birth to Five, Commissioned by National Academies of Science.
    \4\ Beatty, Alix (2005). Mathematical and Scientific Development in 
Early Childhood: A Workshop Summary, National Academies of Science.
---------------------------------------------------------------------------
    Through the Grow Up Great program, over 51,000 employees are 
eligible for 40 hours of paid time off each year. The volunteerism 
program is focused so that we reach the children that will benefit most 
from PNC's support. PNC employees volunteer at early education centers 
that serve low- and moderate-income children.
    We have worked very closely with our partners at Head Start and 
other non-profit early education centers to create a broad range of 
volunteer opportunities, from traditional in-class volunteering to 
manual labor such as painting classrooms and planting gardens. We also 
offer skills-based volunteerism, so that employees are able to put 
their special skills to use to help provide the services that early 
education program administrators need. For example, through a request 
from a Head Start partner we have had human resource employees provide 
customer service training to Head Start office staff so that they could 
better serve the parents of the children in the program. Our employees 
are experts in providing financial education and these services have 
been very well received by Head Start programs. Centers have often 
asked that we first deliver the classes to the staff and then offer the 
classes to the parents.
    Because clearances are required to be able to work with young 
children, PNC has worked with our Employee Assistance Program provider 
to develop an internal Web site that houses all of the information 
employees need to go through the process. The clearance process varies 
by State, so as the company has grown, we have continually updated and 
enhanced our internal system to better assist employees. We reimburse 
employees for the costs associated with the clearance process including 
criminal background checks and tuberculosis testing. PNC also provides 
on-site tuberculosis testing to make the process easier for employees.
    Since the program's inception, the internal volunteerism system has 
provided more than 8,000 volunteer opportunities for PNC employees at 
nearly 3,000 early education centers and community education partners 
across PNC's service area. Our partners at The Fred Rogers Company 
created an on-line training program for volunteers that provides 
information about best practices for volunteering with young children. 
To date, more than 20,000 employees have volunteered for the Grow Up 
Great program and have logged more than 210,000 hours. Through the 
volunteerism program, we have also organized collection drives based on 
the various needs of our early education partners. Over 270,000 items, 
such as science and arts supplies, hats and mittens, and children's 
books have been collected for early childhood centers through donation 
drives.
                                advocacy
    Grow Up Great is a $100 million program, and a significant 
initiative for PNC. However, we understand that given the importance of 
increasing access to quality early education for all children and the 
need in PNC's service area, our corporate voice is important to 
encourage others to support this cause.
    Before the program was announced, we convened an Advisory Council 
of 12 nationally renowned experts on various aspects of early childhood 
education. This interdisciplinary body has been made up of researchers, 
not-for-profit leaders, medical professionals and government officials 
who continue to help us shape the program's strategy, including our 
advocacy efforts. In addition to this group, through our work in Grow 
Up Great, we have created a broad coalition of organizations that are 
now as passionate as we are about preparing our youngest citizens for 
school and life.
    PNC's chairman and chief executive officer, James E. Rohr, has been 
actively involved in early childhood advocacy efforts even before the 
program's inception. Mr. Rohr serves as the honorary chair of the 
Pennsylvania Early Learning Investment Commission. Comprised of 
business leaders from across the State, the commission seeks support 
for public investment in early learning. A key success of this 
organization's work was Pennsylvania's provision of $75 million to 
``Pre-K Counts,'' which resulted in an additional 12,000 children 
receiving access to preschool education. Following Mr. Rohr's example, 
executives across PNC's service area have become active advocates and 
supporters of increased investment in early childhood education. In 
Greater Maryland, for instance, PNC's Regional President, Lou Cestello, 
serves as the chairman of Ready at Five, a statewide, public/private 
partnership that is committed to ensuring that all of Maryland's 
children enter school ready to succeed.
                               awareness
    From the beginning of the program, our Advisory Council told us 
that they believe one of the biggest differences PNC can make is to 
raise awareness of the importance of early childhood education and to 
shine a spotlight on the issue. As a corporation, they felt we had the 
power to open doors that traditional early education advocates have 
been unable to open. We have taken this advice very seriously and have 
created a multi-media campaign that has generated over 2.5 billion 
impressions over the last 8 years.
    During the first stage of the program, the awareness campaign 
highlighted what it means to be ready for school and connected PNC to 
the issue of school readiness. As the program has evolved, our 
messaging has as well. Today's awareness campaign focuses on providing 
tips and resources to parents and caregivers on how to turn everyday 
moments into learning opportunities.
    Our partners at Sesame Workshop and The Fred Rogers Company have 
developed high quality materials for parents and caregivers to help 
prepare their children for school. We highlight the availability of 
these materials through various media outlets and distribute the 
resources through our network of 2,600 PNC Bank branches. Sesame 
Workshop has created a series of four bilingual (English/Spanish) 
school readiness kits that include an original Sesame Street DVD, a 
children's activity book and a parent and caregiver guide. To date we 
have distributed more than 2 million school readiness kits at no cost. 
The most recent addition to the series is the, ``For Me, for You, for 
Later: First Steps to Spending, Sharing, and Saving'' TM The materials 
follow Elmo, Cookie Monster and their Sesame Street Friends as Elmo 
learns the financial basics of spending, sharing, and saving. One 
million copies of the kit will be distributed for free. In addition, 
the materials are available online at pncgrowupgreat.com and 
sesamestreet.org/save. An Educator's Guide has also been created so 
that teachers can easily use these materials in the classroom.
    As with all of the large initiatives that are part of Grow Up 
Great, independent evaluations have been completed to judge the 
effectiveness of the school readiness kits. A recent evaluation of the 
third kit created by Sesame Workshop, ``Happy, Healthy, Ready for 
School: Math Is Everywhere,'' which focuses on how to use everyday 
moments to introduce basic math concepts, showed the following results:

    <bullet> 97 percent of parents indicated that the program increased 
the amount of time their child spent in math-related activities;
    <bullet> Over 90 percent of parents indicated some or a lot of 
change in children's interest in counting, sorting and matching;
    <bullet> Over half of the teachers indicated that they will be 
teaching math differently; and
    <bullet> Teachers and their students became more comfortable with 
math and reported increases in the use of math in everyday moments.
                                 grants
    Since 2005, $40 million has been distributed through the grants 
component of Grow Up Great to support early education initiatives that 
reach low- and moderate-income children (from birth to age 5), their 
teachers and families. Programming through these grants provides 
quality outcomes that are considered ``best practices'' and 
transferrable to other early childhood education programs. During the 
first 3 years of Grow Up Great, PNC supported 17 demonstration projects 
at Head Start centers. We asked that centers develop a program that 
would focus on any one of the eight Head Start domains to enhance the 
curriculum they were already using to bring that subject area alive in 
the classroom. Through the original projects, we funded a broad range 
of programs, and our hope was that we would seed some best practices 
that could then be taken to scale across PNC's service areas.
    We were pleased that after the initial 3 years, exciting progress 
was seen through a number of projects, mainly in the subject areas of 
science, math and the arts. One project that was particularly 
successful was through the Council of Three Rivers American Indian 
Center Head Start program in Pittsburgh, PA. The Head Start program 
focused on science and partnered with the Carnegie Science Center to 
provide professional development to teachers, direct services for the 
children through in-classroom activities and field trips, as well as 
family engagement opportunities, so that parents could continue their 
children's science learning at home, through simple, everyday 
activities. Over the 3 years of the program, we saw the Head Start 
classrooms explode with science. Planets and stars hung from the 
ceiling, and tadpoles were growing while children and teachers charted 
their growth and development. Through self-evaluations, the Head Start 
program reported an increase in teachers' confidence teaching science 
as well as an increase in children's and parents' interest in the 
subject. We felt that this was an important model for a program that 
could be further refined and brought to a larger audience.
    After meeting with science education centers across PNC's footprint 
and through an RFP process, we launched Grow Up Great with Science in 
April 2009. Through this $6 million, 3-year initiative, PNC continues 
to fund 14 regional science centers in seven States and the District of 
Columbia. The science centers have partnered with early education 
programs to help foster a foundation in science for pre-K children. The 
projects focus on enhancing inquiry-based science learning, the basis 
for all critical thinking, in an intentional way, through activities 
which encourage gathering data, forming a hypothesis, testing a 
hypothesis and evaluating results. When you think about it, these are 
all things that children do naturally through their innate sense of 
curiosity; through Grow Up Great with Science, we help that natural 
sense of curiosity flourish.
    Through researching the accepted principles of what constitutes 
quality early childhood education and through our own experience with 
the initial grant projects, we have found that the most effective grant 
programs are comprehensive in nature and serve not only the children, 
but their teachers and families. The Grow Up Great with Science program 
and other major grant initiatives include the following components:

    <bullet> Professional development for teachers;
    <bullet> Direct services for children;
    <bullet> Family engagement opportunities;
    <bullet> Volunteer opportunities for PNC employees; and a
    <bullet> Continuous independent evaluation of the program.

    The Grow Up Great with Science projects are now completing the 
second year and second-year evaluation results will soon be available. 
At the beginning of the program, teachers in the project classrooms 
reported feeling uncomfortable teaching basic science concepts and were 
not satisfied with the science tools and resources that were available 
to them. First-year evaluation results showed that the quality of 
science materials and resources in the classrooms improved. Teachers 
reported feeling more comfortable teaching science and also felt 
comfortable accessing free and low-cost science materials in their 
community. A review of lesson plans and in-class observations showed 
that overall, the quality of science teaching significantly improved. 
Finally, parents reported that they were engaging in more science 
activities at home with their children.
    I have spoken in detail about the science initiative to give you a 
sense of the breadth of our large grant initiatives. We have a similar 
program in Cleveland, OH which focuses on enhancing arts education for 
pre-K children. Through that project, we have partnered with four 
iconic arts organizations: Playhouse Square, the Cleveland Orchestra, 
The Rock and Roll Hall of Fame, and the Cleveland Museum of Art. The 
grant includes components similar to the science initiative. Watching 
these four organizations collaborate to enhance arts education for at-
risk pre-K children has truly been amazing. One of the aspects of the 
Grow Up Great program that we are most proud is the broad network of 
cultural organizations and other non-profits we are able to support to 
bring a broad range of experiences to at-risk children. Through our 
grant projects, we have reached over 1 million children and provided 
professional development to more than 64,000 teachers. We know that 
without the hard work of our partner organizations these children would 
not have the opportunity to have these experiences that will better 
prepare them for success in school and life.
                               conclusion
    The Grow Up Great journey has been extraordinary for PNC. It has 
helped to shape our corporate culture and provided a platform to engage 
PNC leadership and employees locally. Our partners in science, math and 
the arts have responded enthusiastically, our education partners are 
eager to put their new tools to work in the classroom. Most of all, 
over 1 million disadvantaged children are learning more, being exposed 
to exciting, new things like ballet, opera, art, performing arts, 
science. Their parents and siblings are more passionate about education 
and creative interaction. We are trying hard to close the vocabulary 
gap so that all children have the opportunity to reach their full 
potential. The investment that we are making today will come back to 
our company and to our communities in many significant ways. We are 
confident that these children have the potential to be productive 
citizens who will be able to work for us and bank with us. They will 
not only grow up, but grow up great.

CHARLIE MILLS, III, FOUNDER AND CHIEF EXECUTIVE OFFICER, SALERA 
             CAPITAL MANAGEMENT, POTOMAC FALLS, VA

    Mr. Mills. Chairman Mikulski, Ranking Member Burr, members 
of the committee, I am honored and humbled to testify before 
you today. I am honored because who would have believed a kid 
from my neighborhood, located in a lower income area of Joliet, 
IL, affectionately known as The Hill, and from my childhood 
experiences, would ever have the opportunity to come before our 
country's most senior legislators, in these hallowed halls and 
describe the impact that the Head Start program has had in my 
life.
    In order to describe to you my Head Start story and the 
benefits I have gained, I will start by first providing you a 
glimpse into my personal and professional achievements, then 
share with you how Head Start helped me achieve those 
successes.
    I am a graduate of the U.S. Naval Academy with a degree in 
mathematics and I joined the Marine Corp after graduation. The 
highlights of my career included becoming a Cobra gun ship 
helicopter pilot, being one of the first Americans on the 
ground during the First Gulf War conflict and being selected to 
fly Marine One Helicopter Squadron for Presidents George H.W. 
Bush and William Clinton.
    After nearly 10 years of active duty I made a decision to 
broaden my professional horizon and became a bond trader for 
Bear Stearns in New York City. My family and I subsequently 
moved to northern Virginia which is why I became an 
entrepreneur. I have since started two successful small 
businesses, both working with government contractors within the 
financial services sector. I also sit on a number of boards 
including the governing board of George Mason University and a 
community bank. In addition, I am a subject matter expert on 
small businesses and an international speaker on this topic for 
the U.S. State Department.
    While I consider these significant milestones, my most 
important accomplishment is being dad to my three children and 
my marriage to my wife of 22 years. Having never had a father 
nor what is considered a traditional family experience, I 
consider my role as a dad and husband as paramount and the 
ultimate way to give back to society.
    To put these accomplishments in context and how Head Start 
fits, I want to briefly tell you about my mother. She was 
instrumental in providing my love, support and encouragement. 
Her foresight resulted in my Head Start experience. This may 
sound obvious, but it was not always easy for her and my family 
because by the time my mother was 22 years old she had six 
children, all under the age of eight, she was a high school 
dropout and she was a single mom. These circumstances were not 
something my mother sought, she was raised by a single, 
alcoholic mother who had a boyfriend that molested my mother 
when she was a child. Since her mother looked the other way, my 
mother saw the only way out of this dreadful situation was to 
marry my father at the ripe age of 15.
    My father, however, did not provide her the protection she 
was looking for, as he physically abused her and us, the 
children. In an effort to protect us, when I was 3 months old, 
she made the courageous decision to leave my father. Determined 
not to be another welfare mother and to ensure that her 
children had the opportunity to breakout of the cycle of 
poverty, my mother worked two full-time, menial jobs all the 
while attempting to maintain a stable home for her children.
    Despite not having a high school diploma, my mother 
recognized that education is a great equalizer, and that is why 
as soon as Head Start came into existence in 1965, she 
immediately put her two youngest children, that were eligible, 
into the program. My mother was extremely grateful for Head 
Start as it provided me and my sister with our first 
introduction to reading, writing and arithmetic.
    I attended my first year in Head Start in St. Louis, MO and 
my second year in Shreveport, LA. It is difficult to remember 
much about my Head Start experience, however my most vivid 
memory of Head Start includes the lunches and singing time.
    [Laughter.]
    I always looked forward to delicious brown bag lunches that 
Head Start provided. Little did I know that those yummy lunches 
were critical to providing me with the sustenance I needed to 
learn as well as a foundation to eat healthy, something I have 
tried to maintain throughout my life.
    I also recall the educational songs that we learned during 
singing time. According to my mother, it was during my time in 
Head Start that I became an avid reader and gained a penchant 
for numbers and arithmetic, traits that are still with me 
today.
    I am certain that my academic foundation I received from 
Head Start is a key component to my success as a student. My 
sister, having benefited from Head Start's Early Childhood 
Education Program also excelled in school.
    So, what really is the impact of Head Start? I have told 
you about my mother, her six children and the fact that only 
the two youngest had exposure to Head Start. The four oldest, 
who did not get to experience Head Start, unfortunately 
traveled tough and sometimes tragic paths. Both my oldest 
brother and oldest sister led lives of drug addiction and 
crime. Both of them passed away prior to their 35th birthdays 
and within 4 months of each other. Of my two middle siblings, 
one leads a life of drug abuse and has depended on government 
support for the last 25 years. The other has had some success 
but struggles to maintain a consistent job.
    However, my sister that attended Head Start has been a 
court reporter for the past 25 years and is one of the most 
successful and foremost court reporters in Houston, TX.
    So, if you were to use my family as a control group, so to 
speak, you can see how these six children who were raised by 
the same mother and with the same family values did not end up 
in the same place. What was the only discriminating factor? I 
would contend that Head Start was a positive variable. No doubt 
Head Start is important to the country to be able to support 
underprivileged families by providing much-needed early 
childhood development education, but the value of Head Start 
goes beyond the obvious and immediate social and educational 
impact.
    Head Start also has a long-term economic impact. As a 
successful entrepreneur who has hired employees, as well as 
sustained other small businesses, as board member on public and 
private organizations and as a parent, volunteers for my 
children's schools and sports activities, I have been able to 
contribute to the social and economic strength of my country 
and community. There is no doubt that the amount that was 
invested in my Head Start experience has been returned by a 
significant multiplier, to use an economic development term.
    I am certain that return is similar for my sister, through 
her contribution to our country's judicial system and her 
private investments.
    So in our class of approximately 20 children, at least two 
graduates who are contributing members of society are not 
dependent on the system and are a good measure of Head Start's 
impact. In addition, over the last 8 years I have met great 
people, to include authors, mayors, entrepreneurs, college 
professors and more, all former Head Start students, all 
contributing to keep our country competitive and innovative. 
This return on investment continues to provide dividends as 
each Head Start alumni molds the next generation.
    In conclusion, I for one know that I will instill in my 
children, and God willing my grandchildren and my great 
grandchildren, the same values I gained through Head Start, to 
give back as they have been given. I attribute much of who I am 
today to the Head Start program.
    Thank you for allowing me to be here today to tell you my 
personal Head Start story.
    [The prepared statement of Mr. Mills follows:]
                Prepared Statement of Charlie Mills, III
                                summary
    Having had the opportunity to serve my country as a military 
officer, a State agency head, and now speaker for the U.S. State 
Department, I believe my return on the Head Start investment of 44 
years ago is clear. Having spent the last 17 years working within the 
finance and economic development arena, I personally value the economic 
impact Head Start has provided, which has included more than the clear 
social and early educational impact the program provides. My 
experiences as a military member, a successful entrepreneur, who has 
hired employees, a board member on public and private organizations, 
and as a parent volunteer show that I've been able to contribute to the 
social and economic strength of my country and community. There is no 
doubt that the amount that was invested in my Head Start experience has 
been returned by a significant multiplier. I'd bet that return on 
investment is similar for my sister, a former head start student, 
through her work as a court reporter in our country's judicial system 
and through her private investments.
    So what really is the impact of Head Start? Allow us to take a 
closer look. Within my family, which includes a single mom and my five 
siblings, only the two youngest children, me and my sister, attended 
Head Start. The four oldest, who did not have the Head Start 
experience, unfortunately traveled tough and sometimes tragic paths. My 
brother, the oldest, led a life of crime and spent much of his adult 
life incarcerated. My oldest sister led a very difficult life, 
struggling with drug addiction and passed away to a massive stroke 
prior to her 35th birthday.
    Four months after my oldest sister passed away, my oldest brother 
also passed away prior to his 35th birthday and while in jail. His 
official cause of death has never been uncovered. Of the two middle 
siblings, one had led a life of drugs and a dependence on government 
support for the last 25 years. The other one has had some success 
however struggles to maintain a consistent job. However, my one sister 
that attended Head Start is one of the most successful and foremost 
court reporters in Houston, TX. She has been a court reporter for over 
25 years, owns numerous properties, and without a doubt has made the 
most of her Head Start experience. I have provided you with my 
experiences above to include how Head Start has opened doors for me 
even at an early age. If one were to use my family as a ``control 
group'' so to speak, it is clear that of the six children that were 
ultimately raised by the same mother, and with the same family values, 
ended up in different places. What was the discriminating factor? I 
would contend that it was Head Start. Arguably there are other 
conditions that contributed to my sister's and my accomplishments, but 
there is no denying that we were the only ones that attended Head 
Start. Of course not every Head Start student will have the 
opportunities that me and my sister have had, however in my class of 
approximately 20 children, at least two graduates, who are contributing 
members of society and not dependent on the system, are arguably a 
measure of Head Start's success. Who knew I would one day fly for 
President's or the fact that my sister would become one of the foremost 
court reporters. Over the last 8 years, I've met authors, mayors, 
entrepreneurs, Harvard professors, etc., all of whom are former Head 
Start students and making contribution to our society. The return on 
investment is clear as my contribution will only be greater as, God 
willing, my children, grand children, and great grand children will 
also make contributions to our society. In fact my oldest child, who is 
in the 8th grade, has his sights on attending Annapolis and becoming a 
U.S. Marine Corp pilot. I attribute much of who I am to the Head Start 
program and my life mission to be the father to my children that I 
never had in part is a result of the life-lessons I learned while in 
Head Start.
                                 ______
                                 
    Chairwoman Mikulski, Ranking Member Burr, I am honored and humbled 
to testify before you today. I'm honored because who would have 
believed a kid from my neighborhood, located in the lower income area 
of Joliet, IL, affectionately known as ``The Hill'', and from my 
childhood experiences would ever have the opportunity to come before 
our country's most senior legislators, in these hallowed halls and 
describe the impact that the Head Start program has had on my life.
    I would like to detail my personal Head Start story by first 
providing you a quick glimpse into where I am today personally and 
professionally, then give you how my childhood experiences and Head 
Start helped me achieve these successes. While my detailed bio has 
already been included for the record, please allow me to share a few 
highlights. I am a graduate of the U.S. Naval Academy with a degree in 
mathematics. I joined the U.S. Marine Corps after graduation and became 
a helicopter pilot. I flew Cobra Helicopters and participated in the 
build-up to the first Gulf Conflict of 1990. I was subsequently 
selected to fly for Marine Helicopter Squadron One for Presidents 
George H.W. Bush and William J. Clinton. After nearly 10 years of 
active military service, I made the decision to broaden my professional 
horizon and became a bond trader for Bear Stearns in New York City. 
After 4 hectic years working in New York City and having had my first 
child, my wife and I decided to return to northern Virginia in 1999. 
This is when I started my first company, which provided short-term 
lending to small government contractors. Early in my company's growth, 
I took a hiatus in 2001 and joined VA Governor, Mark Warner's 
administration as the director of The Virginia Department of Business 
Assistance (VDBA), which is Virginia's equivalent to the Federal Small 
Business Administration (SBA). After 3 years at the helm of VDBA, I 
returned to my entrepreneurial roots and have since started a second 
successful company which provides employee benefits services to 
government contractors. I am also a subject matter expert on matters 
involving economic development and small business growth and I am a 
regular speaker for the U.S. State Department's international speaker's 
program. In addition, I sit on a number of important boards including 
George Mason University, and a community bank. While these are 
significant milestones, I consider my most important accomplishment is 
being Dad to my three children and my marriage to my wife of 22 years. 
Having never had a father or father figure and not having the 
conventional nuclear family experience, I consider my role as Dad and 
husband as paramount and my ultimate contribution to my family and 
community.
    Having shared with you my adult successes, please allow me to now 
share with you my childhood experiences and the impact of Head Start on 
my life. First and foremost, it is important to know that my success 
could not have been possible without the one person that continues 
today to provide me the love, support and encouragement to be 
successful; that person is my wonderful mother. Having a mother that is 
always there for you sounds simple, but it was not always easy for her 
because by the time my mother was 22 years old, she had six children, 
all under the age of 8; she did not have a high school diploma; and she 
was a single mother. One could certainly argue that my mother made bad 
decisions and was ultimately responsible for her situation, however 
when taking into context her specific experiences, it is easy to 
understand how she found herself in this dilemma. But this is not a 
story of a poor, black, single mother who made bad choices; it is about 
how this typical woman with help from Head Start was able to raise two 
children who are now contributing members of our society.
    My mother was an only child, raised by a single alcoholic mother 
who was never in a stable relationship. In fact, still today my mother 
does not know who her father was. When she was a child, her mother 
frequently had different boyfriends visiting their home. When my mother 
was just a child one of those boyfriends in particular started sexually 
molesting her. My grandmother did not believe my mother when she was 
told of the abuse. Having no other recourse, she took matters in her 
own hands and decided to marry early in order to remove herself from 
that awful situation. She was just 15 years old when she married my 
father, a Navy man.
    My mother had six children, with me as the youngest, in 7 years, 
which coincided with my father's return from long Navy deployments. 
After a few years of marriage, my father left the Navy. When he began 
living with us on a permanent basis, he began to physically abuse my 
mother and us, his children. Despite leaving high school to marry and 
having six children, my mother made another courageous decision to 
leave my father and begin life as a single mother.
    My mother divorced my father when I was but 3 months old and I 
recall seeing him only twice in my life. I saw him once when I was 
about 9 years old for approximately 15 minutes and the next time when I 
was 18 when he had passed away. Other than those two occurrences, he 
and I never had any contact, nor did he provide any support of any kind 
to our family. My mother did remarry once, however the marriage lasted 
for less than 2 year. There were no other male figures in my life, 
resulting in me having no notion of the concept of having a father. 
However for me that was OK because I had my mother, and I had my 
siblings and as far as I was concerned, that was all that I needed.
    As you can probably imagine, my mother, a single black woman in the 
60s, in the midst of the civil rights movement, with six kids and no 
support system had a very difficult road to travel. She found herself 
working two full-time labor intensive jobs all the while attempting to 
maintain a stable home to raise her children. Because of her jobs, my 
mother was not always at home; however she taught the six of us to work 
as a team. She also understood the importance of a good education and 
instilled in each of us that education is the key to success. Despite 
her lack of having a high school diploma, she recognized the fact that 
education is the great equalizer and that is why as soon as Head Start 
came into existence in 1965, she immediately put her two youngest 
children that were age appropriate into the program.
    My mother was extremely grateful for Head Start as it provided me 
and my sister with our first introduction to reading, writing, and 
arithmetic. We moved around when I was a child and my sister and I 
attended Head Start in St. Louis, MO, my city of birth. The following 
year we moved to Shreveport, LA, my mother's place of birth, which is 
where I attended my second year of Head Start. I was extremely young so 
it is difficult to remember much about my Head Start experiences; 
however, my most vivid memory of my Head Start experiences includes the 
lunches and singing time. Even as my mother worked hard to ensure that 
our family always had food and clothing, despite our low-income status, 
I always looked forward to the delicious brown bag lunches that Head 
Start provided. Little did I know then that those ``yummy'' lunches 
were critical in providing me with the nutritional foundation to learn 
and live a healthy life as an adult. In addition, I strongly recollect 
the ``circle times'' and the many educational songs that we sang. 
According to my mother, I also became an avid reader, and gained a 
penchant for numbers and arithmetic during my Head Start experience, 
both traits which stick with me today.
    I'm certain that the academic foundation that I received from Head 
Start is a key component to my success as a student. With the 
foundation I received at Head Start, academics came fairly easy to me 
throughout my K-12 years. It is interesting to note my sister, who also 
attended Head Start, also excelled in her studies. While academics for 
me was not terribly difficult, living in ``The Hill'' was a little bit 
tougher. I'll never forget when I was in 5th grade on a gloomy Saturday 
morning when my mother came into my and my brother's room to tell me 
that my very best friend and fellow 5th grader, Anthony Townsend, had 
been shot and killed in his home the night before. For a typical 5th 
grader, such an experience would be difficult to understand; however in 
my neighborhood, and typical of many inner city neighborhoods, this was 
a normal occurrence within which children become immune to such 
tragedies. In fact and not uncommon with many families within the inner 
city, with my single mother working two jobs and being gone often, her 
two oldest children found ways to fill the void by making bad choices 
with regard to their friends and activities.
    Growing up in ``The Hill'' also meant that I was bounded by the 
bigotry of low expectations. I recall as a child, my greatest enjoyment 
was to go to Chicago O'Hare Airport to watch aircrafts take off and 
land. I was simply amazed by the sheer notion of watching tons of steel 
and metal and all of those people actually fly through the air like a 
bird. By the time I was 9-years old, my dream was to become a pilot and 
learn how to fly. When I was in middle school, I shared my dream to 
become a pilot with one of my favorite teachers, who had taught 
virtually every sibling of my family. This particular teacher loved our 
family and we equally loved her. She loved the fact that all of us took 
our studies seriously--a trait that my mother instilled and demanded of 
us. Like so many of our wonderful teachers, she found it her mission to 
both teach as well as protect the kids that parents had entrusted her 
with. So when I told her I wanted to be a pilot, she must have thought 
she was protecting me by telling me that aspiring to become a pilot 
while admirable, was probably not realistic. This teacher was taking 
into account where I lived and the fact that at that time in Joliet, IL 
there was literally a set of train tracks that ran through the city 
that separated the ``haves'' from the ``have nots''. Assuming that she 
was protecting me, this teacher that I simply loved, recommended that I 
set my sights on becoming a manager at the GE plant across the tracks 
because very few people from my neighborhood worked at the plant, let 
alone became a manager.
    This was a significant blow to my young impressionable mind. 
However true to form, my mother made sure I did not lose my dreams. She 
reminded me of my Head Start experience and of the maturity, hard-work, 
never give up attitude, and leadership examples that my two different 
Head Start teachers provided me. My mother reminded me that becoming a 
pilot was not going to be easy but with hard work, a little bit of 
luck, and having others around you that share in your dream, all things 
are possible. It was clear at that moment in time, that Head Start had 
provided me with the foundation to not only succeed in life, but to 
also give back to my community and country as I was given in Head 
Start.
    So what really is the impact of Head Start? I have told you about 
my mother and my five siblings and the fact that only the two youngest 
children had exposure to Head Start. The four oldest who did not get to 
experience Head Start unfortunately traveled tough and sometimes tragic 
paths. My brother, the oldest, led a life of crime and spent much of 
his adult life incarcerated. My oldest sister led a very difficult 
life, which included struggling with drug addiction. Despite being in 
the midst of turning her life around, she passed away to a massive 
stroke prior to her 35th birthday. Four months after my oldest sister 
passed away, my oldest brother also passed away prior to his 35th 
birthday and while in jail. His official cause of death has never been 
uncovered. Of the two middle siblings, one has led a life of drugs and 
a dependence on government support for last 25 years. The other one has 
had some success, however struggles to maintain a consistent job. 
However, my one sister that attended Head Start is one of the most 
successful and foremost court reporters in Houston, TX. She has been a 
court reporter for over 25 years, owns numerous properties, and without 
a doubt has made the most of her Head Start experience.
    I have provided you with my experiences to include how Head Start 
has opened doors for me even at an early age. If one were to use my 
family as a ``control group'' so to speak, it is clear that of the six 
children that were ultimately raised by the same mother, and with the 
same family values, they ended up in different places. What was the 
discriminating factor? I would contend that it is Head Start. Arguably 
there are other conditions that contributed to my sister's and my 
accomplishments, but there is no denying that we were the only ones 
that attended Head Start and have progressed to our current station in 
life.
    As a person that has served my country as a military officer, a 
State agency head, and now as a speaker for the U.S. State Department, 
I believe my return on the Head Start investment of 44 years ago is 
clear. Having spent the last 17 years working within the finance and 
economic development arena, I personally value the economic impact Head 
Start has provided, which has included more than the clear social and 
early educational impact. My experiences as a military member; a 
successful entrepreneur who has hired employees; a board member on 
public and private organizations; and as a parent volunteer for my 
children's schools and sports activities show that I've been able to 
contribute to the social and economic strength of my country and 
community. There is no doubt that the amount that was invested in my 
Head Start experience has been returned by a significant multiplier. 
I'd bet that return is similar for my sister through her contribution 
to our country's judicial system and her private investments. Of course 
not every Head Start student will have the opportunities that me and my 
sister have had, however in my class of approximately 20 children, at 
least two graduates, who are contributing members of society and not 
dependent on the system, are arguably a measure of Head Start's 
success. Over the last 8 years I've met authors, mayors, entrepreneurs, 
Harvard professors, etc., all of whom are former Head Start students--
again making great contributions to our society. The return on 
investment is clear, as my contribution will only be greater as, God 
willing, my children, grand children, and great grand children will 
also make contributions to our society. In fact my oldest child, who is 
in 8th grade, has his sights on attending Annapolis and becoming a U.S. 
Marine Corp pilot. I attribute much of who I am to the Head Start 
program and my life mission to be the father to my children that I 
never had in part is a result of the life-lessons I learned while in 
Head Start.
    Thank you for allowing me to be here today and allowing me to tell 
you my personal Head Start story.

    Senator Mikulski. That was excellent, Mr. Mills.
    We are going to practice a little Senate courtesy here, 
which is kind of new and refreshing.
    Senator Burr has made a major contribution to selecting the 
witnesses for today. He has a meeting, so I am going to turn to 
Senator Burr, then I am going to go to Senator Franken and 
Senator Casey. I will be the wrap up.
    And I have worked with these guys, I really do believe in 
ladies first, so, but----
    [Laughter.]
    Senator Mikulski [continuing]. With this panel, I am going 
to turn to Senator Burr for his questions.
    I am going to step out for a minute, I will be right back 
in. But after he is done, Senator Franken you go and Senator 
Casey. I will be right back.
    Senator Burr. Thank you, Chairman Mikulski. I must say 
before she leaves the room, in 17 years of service in the U.S. 
Congress I am not sure that I have had a panel that brought 
more value to a topic than the panel that we have before us. I 
think the chairman deserves a tremendous amount of credit for 
that.
    I am going to only ask one question and be brief. Linda, 
you and I have talked a lot of times about childhood 
challenges. One complaint that I know some will raise as it 
relates to my criminal background check legislation is, well it 
is going to cost a lot of money. You have, not just opinions, 
you have experience in this. Can you share with me and my 
colleagues whether that is a legitimate concern and if not, 
why?
    Ms. Smith. Let me start by saying that one of the things 
that we think is essential, when it comes to background checks, 
is the fingerprint. I always give myself as the best example. 
With a name like Linda Smith, try and find me in a name check. 
Especially living in northern Virginia, Maryland and DC.
    So the cost is going to be in the FBI check, which is 
generally somewhere between $16 and $24. That being said, 
States do add on other fees to this, and those are 
discretionary at the State level.
    I would tell you that my opinion and the opinion of the 
people that work with me is that if at the end of the day the 
choice is between making sure a child is safe, and that means a 
background check, go back to those 90 places where there are 
sex offenders living in homes in Illinois, I will always opt on 
the side of the child. If that means that the adults need to 
pay $24 to get a background check, and take personal 
responsibility for that, then I am fine with that.
    I do think it is a State decision and the States can use 
some of their funding to pay those, if they want to. But I 
think the critical piece is that they get done and that we just 
take this on and get it over with.
    Senator Burr. I appreciate, you have now brought a value 
to, I think myself and my colleagues. And as one individual I 
think it is a minimal amount of cost to--or a maximum amount of 
assurance of security.
    I want to reiterate what I said earlier to each and every 
one of you. I apologize that I can't stay here to engage you on 
some areas that you have stimulated with me, but you have all 
brought important facts and witness to this topic and we are 
grateful for that. Thank you very much.
    Who was next? Senator Franken?
    Senator Franken. Yes, thank you.
    Senator Burr. You're just visiting, but I will yield the 
floor to you.
    [Laughter.]
    Senator Franken. Yes. I still am resenting that remark from 
earlier.
    Mr. Rolnick, thank you for your years studying this. I want 
to go back to this because you talked about economic 
development and we talk about return on investment, and we are 
talking about right now making budget decisions. Isn't this 
something we need to be investing in? Can you just speak to the 
10 years or however many years you have been doing research on 
this.
    Mr. Rolnick. Sure. Actually I have been doing research for 
about 25 years on economic development, State and local in 
particular. I have been arguing, for a number of years, that 
the way we conventionally do economic development in this 
country is seriously flawed. We allow cities and States to try 
to lure each other's jobs, companies from one State to another, 
with all kinds of subsidies. And the professional sports teams 
are the best at doing this, they play the game very well. We 
have argued that it is a zero sum game, that these--all you are 
doing with these subsidies, and we are talking billions of 
dollars over the years, you are moving jobs around, you are not 
creating one new job.
    Nevertheless, it is very difficult for a State or a county 
or a city to opt out of that bidding war. For example, let me 
make it very concrete. What is going on in Minnesota, it is 
regularly acknowledged by the political system, by the 
populous, by educators that the best investment we could have 
is making sure all of our at-risk kids start school healthy and 
ready to learn. There is no debate on that. If you were to 
survey the public you would get over 70 percent agreement we 
should be funding this.
    And yet, at the same time we have a $5 billion deficit in 
our State, they are going to find a way to fund a $1 billion 
stadium for the Minnesota Vikings, $1 billion. And why is that? 
Because the Vikings are threatening that if they don't get 
their stadium, they are going to go to another State.
    So when we allow, when Congress allows this bidding war, 
and we have argued it is zero sum, it violates the commerce 
clause, it interferes with interstate commerce, but Congress is 
allowing this, you are putting State and local politicians in a 
very tough position.
    And as a result, you ask our priorities, for $1 billion we 
could provide an endowed fund so in Hennepin and Ramsey, and 
this is the Twin Cities, every poverty child could have a 
scholarship and a mentor starting prenatal, in perpetuity 
because we could set that up as an endowed fund. And yet, if I 
was a betting man, the Vikings will get their $1 billion and we 
will not get a dime.
    So it isn't that the information isn't there, but we have 
some problems, I think serious flaws, in the way we, as a 
country invest money to create jobs. This is the best way to 
create jobs, by far the best stimulus money.
    I am from Detroit, my hometown. I don't care how much money 
the government gives to General Motors, 75 percent--it is 
estimated that 75 percent of the children in the Detroit Public 
School System do not graduate high school. That economy will 
remain a third world economy now and for the next 20, 30 years 
if that continues, no matter how much money you give to General 
Motors. You have to educate your kids. That is the proven way 
to create sustainable economic growth.
    I think that is fairly well known and yet our policies are 
very skewed.
    Detroit has two brand new stadiums, they have three 
casinos, that is not going to change that economy.
    Senator Franken. Not even the casinos?
    Mr. Rolnick. Not even the casinos.
    [Laughter.]
    I would bet on that.
    Senator Franken. We are in a global competition, right? And 
OECD countries now are moving ahead of us in all of these 
measures, percentage of students graduating from college, they 
are ahead of us in reading, I mean we are falling and falling 
and falling. If we are going to compete in a global economy, it 
just seems to me that this is where we need to invest our 
money.
    A lot of you are talking about the State to State, I mean 
Vikings are--that talks about this identity of the State and 
there it is competing against Los Angeles or wherever it is 
competing, but a lot of this is just moving a business--one 
State competing against another by giving a tax break, right--
--
    Mr. Rolnick. Correct.
    Senator Franken [continuing]. To a business. And it doesn't 
help the United States, it helps a State and to the detriment 
of another State. So that is a zero sum game, right?
    Mr. Rolnick. Correct.
    Senator Franken. By definition. I am not an economist, but 
you are and that is the zero sum game.
    Mr. Rolnick. That is the zero sum.
    Senator Franken. But, early childhood is win/win. Right?
    Mr. Rolnick. Absolutely.
    Senator Franken. OK, well I prefer win/win to zero sum. 
There.
    Thank you, Madam Chair.
    Senator Sanders. Thank you, Madam Chair. I want to thank 
all of the panelists. I apologize to Mr. Mills, I had to run 
out for a second. But every one of the testimony has been 
really great and I appreciate that.
    I want to get to Miss Smith and talk a little bit about the 
DOD early childhood program. We had a hearing on this in 
Vermont. We invited somebody from the DOD and I was very 
impressed. My recollection, Miss Smith, is that Department of 
Defense instituted their program because previous to that they 
had some real problems in terms of wanting to have a strong 
military but, a lot of people in the military were worried 
about what was happening to their kids.
    Could you talk a little bit about the history of why the 
DOD did what it did? And give us some specifics. If I am an 
average member of the military, or low-ranking officer, what 
benefits do I get? What does it do for me, really?
    Ms. Smith. Absolutely. In fact I lived through many of 
those years. I will tell you that I started my career out 
running a childcare center for the military out in Phoenix, AZ. 
I would say one of the things that started early on--and this 
was in the late 1970s, early 1980s--was a lot of women going 
into the military as soon as the draft went away and the 
military really had to get serious about recruitment.
    What I saw happen in the years that I ran that program was 
going from about 10 children out of 150 being full-time to all 
of them being full-time within 3 years, during the time that 
the military transitioned to the all volunteer force. So that 
was one of the things.
    So the advent of women in the workforce. And you heard Dr. 
Lombardi say earlier that we have not, in other areas of this 
country, taken that seriously but the military had to. I would 
say that we actually had people showing up on the flight line 
for recalls, with their kids in the car. So the commander came 
to me and he said, ``You are going to be the second person 
called in a recall from now on, because we don't want little 
kids, at 4 a.m. in the back seat of a car here.'' So that is 
how important they--or the value they placed on childcare.
    That being said, we sort of bumped along and did make some 
significant changes to the military. I always try to give 
credit to Federal programs, where they are due. One of the big 
Federal programs that mattered to the military was The Child 
and Adult Care Food program, because we used it as a vehicle to 
require inspections of the military centers.
    Then the next thing that happened is we had widespread 
child sexual abuse go on in the 1980s. Several big, highly 
visible cases at the Presidio in California, West Point and 
Scott Air Force Base in Illinois. So that got Congress involved 
and Congress said, ``We need to clean this up.'' And that was 
essentially the next piece.
    Senator Sanders. Yes, I wish I could hear from you for a 
longer period of time, but tell me now, I am an average member 
and I have one person here who is in the military, one person 
who is not in the military, what do I get? What does it mean if 
I have just had a baby, maybe 6 months old, a year old, what 
happens to me? What are you offering me in the military?
    Ms. Smith. Actually the military takes children into the 
childcare program as young as 6 weeks, because mothers go back 
to work then.
    Senator Sanders. And how much is it going to cost me?
    Ms. Smith. It depends on your rank. All military families 
pay for childcare, they pay it based on total family income. I 
believe the lowest fee right now is $44 a week and it goes up 
to over $100, depending on the rank and the total family----
    Senator Sanders. Which is pretty good?
    Ms. Smith. Which is very good. Very.
    Senator Sanders. Compared to the----
    Ms. Smith. Compared----
    Senator Sanders [continuing]. And now, is it available to 
me 5 days a week, 7 days a week?
    Ms. Smith. The centers generally operate during the normal 
business day, 6 a.m. to 6 p.m., 6 a.m. to 7 p.m. maybe. The 
military tends to, at least--and I think this is still the case 
over there--rely on in-home family childcare for the irregular 
duty care and for support of those families.
    Senator Sanders. Madam Chair, I would just point out, here 
is an example where our military, a sore, serious problem, they 
responded intelligently and by and large what they did has 
worked. There is something that we can learn from their 
example. The Federal Government has done the right thing.
    I want somebody, Mr. Rolnick or anybody else, to answer 
this question. I worry about, and Miss Smith made a point a 
little bit in her earlier testimony, about the training and 
wages that we are paying childcare workers. We heard testimony 
that the first 3 years are perhaps the most important years of 
a child's life and in many instances the people who are dealing 
with those kids don't have the training, don't have the 
background. And turnover is very high because the wages and 
benefits they get are very low.
    Who wants to talk about it? Mr. Rolnick, do you want to say 
a word about that?
    Mr. Rolnick. I will give you some of the data from our 
pilot in St. Paul, because we are demanding high quality from 
these programs and they could be Montessori, they can be faith-
based, they can be St. Paul Public Schools. We pay anywhere 
from $10,000 to $13,000 a year for our scholarships and so we 
are demanding quality, we are demanding that our kids actually 
start school healthy and ready to learn.
    What has happened is the wages have gone up because they 
have gone out and started to recruit high quality teachers. 
They realize, in order to get the results--which is all these 
kids start healthy and ready to learn--they have got to improve 
their staff. So one way to get the quality up--not the only 
way--but one way, and it is happening--is to incent the system 
by empowering the parents.
    Senator Sanders. Is there any reason, in anybody on the 
panel's judgment--why a childcare worker should be paid 
substantially less than a first grade teacher or a high school 
teacher? Can somebody comment on that? Ms. Blum?
    Ms. Blum. No. We really have been appalled at some of that 
and what we have found is when we surveyed the teachers, the 
preschool teachers and ask them questions like, do you think it 
is important to teach science and math to preschoolers and have 
arts in your curriculum, they all say yes. When we ask them if 
they actually do teach it they say they don't have the training 
to teach it.
    In every one of our large grants there is a teacher 
training component. When we survey the teachers a year later or 
2 years later, what we find is they say nobody has ever given 
us this support before. Now we know, we feel so much more 
comfortable about taking the curriculum that we have and really 
making it come alive.
    Senator Sanders. Miss Smith threw a figure out a little 
while earlier where she thought that the average, as I 
understand it, childcare worker was making about $10 an hour?
    Ms. Smith. That's correct.
    Senator Sanders. I mean it is a little bit over $20,000 a 
year. And given the enormous responsibility we are entrusting 
with these people, that seems to me to be totally absurd.
    Miss Smith, did you want to maybe wrap up?
    Ms. Smith. Yes, I do think there is one problem and that is 
that, as I kept saying in my testimony, I don't think we have 
really defined the field very well and what is a teacher is yet 
to be defined. So I think, when you say a teacher compared to a 
high school teacher, an elementary teacher, many of the people 
coming into the field come in, as I said, with no training, no 
background and some without a high school education.
    Senator Sanders. Babysitters, I suspect.
    Ms. Smith. That is right. So I think what we have to do is 
figure out how to define the field and then what are the 
requirements for the various levels. I would point out that one 
of the features of the military program that has been 
successful is that they use a combination of training and 
education to make it work. It is not an either/or. And as I 
said, we have to stop looking at things as either/or, black and 
white, but looking at what is the combination we need.
    Senator Sanders. Thank you very much, Madam Chair.
    Senator Mikulski. Senator Sanders, before you go, one of 
the points that I would want to make, is that there is limited 
career path for these workers as compared to say coming to work 
in the healthcare field. If you come as a certified nursing 
assistant in either a nursing home or a hospital, you can see 
the career path. You might decide, gee I would love to be an x 
ray tech and begin a community college program. You see a 
career path.
    If you are a shining star on the floor, your employer is 
going to invest in you and show you where else you could go for 
your next certification up, either a nursing degree, a tech 
degree, the person who takes your blood, medical records. And 
they also see a--it is an institutional one.
    When they come in, that is it. Am I correct?
    Ms. Smith. That is correct. And I think there are some 
lessons to be learned here from other programs, including 
military and Head Start, in just what you say. Because in Head 
Start, if you think back over the history of it, we started 
with bringing people into Head Start with little or no training 
and we started moving them toward a CDA and then an AA and then 
a BA. The military has done much the same, started with basic 
training, moving toward a CDA credential and higher levels of 
education.
    What we have to do is learn the lessons from those two 
programs, and that is part of why I say define the field, 
because in childcare there is no reason why we can't start 
moving people from basic training to higher levels of training 
and education in a sequential way, just as we have in Head 
Start. If we do it right and we get some support from Congress, 
to do it right.
    Senator Mikulski. Workforce and workforce development would 
be a total issue here. But thank you.
    I am going to go to my questions. And Senator Franken, I 
want to thank you also for being one of the spear headers in 
recommending Mr. Rolnick. The participants have been excellent.
    I am going to go right to Mr. Mills and Mr. Hillian. One of 
the things often that education is being accused of is 
feminizing education, all school programs are made for girls, 
boys are inhibited. There is a lot being written and talked 
about it. One of the things we know, there is a big gap, 
particularly with African-American males. Now, I am wondering 
in both of your programs, Mr. Hillian, because you are the 
family coordinator, and Mr. Mills, you were the family, what do 
you think was the most important thing that got you engaged and 
kept you engaged and helped your mother? Do you believe it was 
the education? Do you think it was the family coordinator?
    I am going to turn to Mr. Hillian. Mr. Hillian, why is the 
family coordinator job important and what impact does that have 
on boys?
    Mr. Hillian. It is interesting. At my school--I am the only 
male in the Judy Center, I mean and I am a black male, I am the 
only one in the Judy Center. And at my school it is important 
because we have a lot of young boys who need a role model, so I 
try to be their friend, I try to make them happy. So it is not 
enough for me. It is frustrating because I have four 
kindergarten classes, two pre-K classes, two to three classes 
and an umbrella. So I have 175 kids.
    In the morning I am watching the kids when they come there, 
getting out of their cars and vehicles, being let out of 
school, try and get a feel for how they are feeling, try to 
pump them up, making them feel good about school and things 
like that. But it is hard for me to get in all the classes, 
because that is what I try to do. My day starts outside.
    Senator Mikulski. Now I understand how your day starts, 
tell me what you think needs to be done with the family 
coordinator. How important do you think that is in terms of 
reaching boys, reaching the mothers? I mean I appreciate the 
description of your day, and the fact that in most of the Judy 
Centers, which are outstanding, outstanding programs--and 
really, we want to compliment our colleague, Congressman Hoyer 
in really getting it started and our governors, Republican and 
Democrat funding it. But you are the gateway, aren't you?
    Mr. Hillian. Yes.
    Senator Mikulski. So how do you think that plays out? You 
said you are going to be friendly and I understand that. Is 
that what the family coordinator does?
    Mr. Hillian. No. The most important thing I do is build 
relationships with the families, to the kids, to the school, to 
the principal, to everybody. Most of my referrals come from 
other referrals.
    Senator Mikulski. What does that mean?
    Mr. Hillian. I have been there so long, I have been at my 
school 8 years. I may go to work and a teacher will tell me 
that this kid needs a coat or something like that, so I will 
make sure he gets his coat, or this kid doesn't have his ADHD 
medicine, so I talk to his mom. I just do whatever it takes to 
make it happen.
    But I think the families coordinator is the link from the 
school to the community to the families. It is about building 
relationships and making it all happen together. I am dealing 
with the guidance counselors, the principal, the families, the 
kids, the teachers. It is like one big snowball.
    Senator Mikulski. I think that is very interesting. For the 
boys it must be impactful to have a male family coordinator--
because let's be candid about the workforce. Isn't it primarily 
female?
    Mr. Hillian. Yes.
    Senator Mikulski. I mean nothing wrong with that.
    But, Mr. Mills?
    Mr. Mills. Yes, I would agree with you. In my mother's case 
Head Start had just started. I don't know if it was such a 
thing as a family coordinator at that time. However, my mother 
was a fantastic student and she--and while she didn't graduate 
from high school she knew the importance of education and she 
sought that. But in my experience today, as I look at, in fact 
the middle school that my children go to is a school that has 
kids that come from all different communities and the school 
struggles to meet their SOLs primarily because of the English 
As, A Second Language population. Those kids and those families 
who are really struggling to make ends meet absolutely need 
someone to frankly go and help train those parents on not only 
the importance of education, but on some of the programs that 
exist, such as Head Start, to have allowed those kids to get a 
better start at life.
    Senator Mikulski. When Head Start began every Head Start 
Program had to have a family coordinator and that would have 
been the first person your mother talked to. It might have been 
the first person in her life she had been able to talk to, 
because having been a social worker in the Welfare Department, 
as it was called, carrying the little black book checking up on 
people, that wasn't a warm and fuzzy relationship, it was often 
a school marmish relationship to move people off of welfare and 
it was an eligibility audit.
    But the Head Start coordinator was a different kind of 
audit. It wasn't eligibility for a government subsidy program, 
it was an audit about where you are in your life and how we 
could help you get on with your life. That was the first person 
your mom spoke to. I don't know if you're aware of this. Is 
your mom still with you?
    Mr. Mills. Yes, she is and she is looking forward to my 
call after this.
    [Laughter.]
    I will make sure that----
    Senator Mikulski. We should have had her come too.
    Mr. Mills. I would have loved--she doesn't fly anymore, she 
is in Houston, TX. I would have loved to have had her here. 
But, I am sure you are correct and I will go back and ask her 
who that person was that was probably instrumental allowing me 
and my sister to get into Head Start.
    Senator Mikulski. But when she came, she got you into this 
program, right?
    Mr. Mills. Yes. Yes, ma'am.
    Senator Mikulski. Then she insisted you stay in the 
program?
    Mr. Mills. Absolutely.
    Senator Mikulski. And through your program, you then found 
a home in Head Start.
    Mr. Mills. No question.
    Senator Mikulski. I don't want to overstate it.
    Mr. Mills. No, no it----
    Senator Mikulski. As a young boy with a mother who was 
under so much stress, was Head Start like your home with the 
music and the games and the other kids, but that it also had 
activities that engaged, obviously, that very able and agile 
mind of yours?
    Mr. Mills. My earliest memories are of Head Start. I mean 
my earliest memories as a human being are of Head Start and it 
was primarily just because my mom wasn't around and neither 
were my--I am the youngest--neither were my older siblings. And 
so the course of my day, from age 3, 4, 5, there was really 
nothing to do other than to perhaps just sit in front of the 
TV. So the fact that I had the opportunity to go to Head Start, 
and it wasn't just an 8- or 9-hour day, I mean she dropped me 
off early and picked me up very, very late. So my earliest 
memories of my entire life were of my participation in some 
Head Start activity, primarily the lunches and singing.
    [Laughter.]
    Senator Mikulski. I kind of like them myself.
    [Laughter.]
    But really, your story is quite compelling. All the way 
through the Naval Academy, your service to the Marine Corp, 
your work with Governor Warner, our colleague and so on and we 
want to thank you for your service at all levels.
    I want to shift gears now and go to Miss Smith. In terms of 
comparing the military program to the civilian program. Did the 
military program also serve civilian employees?
    Ms. Smith. Yes, it does, ma'am.
    Senator Mikulski. So for the Federal Government we have 
inconsistency, incredible inconsistency. So I know that a lot 
of people--the Senators, I think thought that the military 
program was for the military personnel solely, but it is for 
DOD people. Am I correct?
    Ms. Smith. Yes.
    Senator Mikulski. Which in many ways they work 24/7, it is 
a lot of stress, they themselves deploy, there is a variety of 
things.
    Would it be your recommendation that when we reauthorize or 
look at the reauthorization of the childcare development grant 
that we just simply replicate the military program?
    Ms. Smith. I think that there are a lot of things. In fact, 
I was going to say I would pass this out to you and the members 
here, that we have done the comparison between the two laws and 
what we continue to say is that very simple changes to this 
Childcare and Development Block Grant will produce significant 
results in our civilian care, basic, basic things. As I said in 
my testimony, like basic training, just requiring basic 
training. So yes, I do think there are a lot of things that 
would translate right across.
    Senator Mikulski. But would you do it wholesale or do you 
think we have to be more retail?
    Ms. Smith. I don't think that wholesale it would work. I 
find myself wanting to add one thing because I think there is 
always a misconception about DOD and I want to dispel one myth. 
Because if you recall when the Military Childcare Act was 
passed, and some of you might----
    Senator Mikulski. I do.
    Ms. Smith [continuing]. In 1989, 1990.
    Senator Mikulski. I do and it was because quite frankly the 
women of the House were now on the Armed Services Committee and 
hearing----
    [Laughter.]
    Senator Mikulski [continuing]. No, seriously. I mean it was 
people like Pat Schroeder and others.
    Ms. Smith. Yes, that's right.
    Senator Mikulski. They were on the Armed Services 
Committee, it was a big breakthrough, women on the Armed 
Services Committee. Then, here in the Senate, we of course had 
the support of Senator Kennedy, who was himself on the Armed 
Services Committee. Our able people like Bob Dole, Sam Nunn and 
you had Senator Nancy Kassebaum and I. I remember it well and I 
remember the scandals. As a former child abuse worker it was 
chilling.
    Ms. Smith. Yes. It was. The point I was going to make is 
that--and I think people think that what happened in the 
military was fairly simple because it is DOD and they have all 
that money. I want to just make the point that the Military 
Childcare Act passed in the biggest draw down in the history of 
the Department of Defense since World War II. It was an 
unfunded mandate to the military, there was not a line item and 
you can't see childcare as a line item, I don't know, to this 
day in DOD----
    Senator Mikulski. You can't see it for war either.
    Ms. Smith [continuing]. Because it is a bottom up build in 
the budget and the commanders have to budget for childcare 
based on the policies written by the Defense Department.
    So during that year of implementing the Military Childcare 
Act, commanders had to re-allocate money out of existing funds 
in order to do what was required in that law. I make that point 
because I think at some point, as everyone on this committee 
has said, it becomes a matter of priorities, and it is 
priorities with the help of Congress, because Congress said, 
``You need to clean this up, you need to do this right.'' With 
that support we were able to work with commanders and reprogram 
money.
    Senator Mikulski. OK. I am going to have to jump in. I have 
a mandatory phone call I have to do at 12:30 p.m..
    This panel has been so meaty and I think, as you have heard 
from my colleagues, so content-rich, as was Dr. Lombardi, we 
kind of went maybe about an hour over, but I think it was time 
well spent.
    And before we wrap up, Miss Blum, in terms of your four 
pillars that the PNC program stands on, where do you think you 
get more bang for the back in terms of the overall foundation 
goals?
    Ms. Blum. I would say there are two areas that I would 
prioritize.
    Senator Mikulski. Knowing that they all have value.
    Ms. Blum. They all have value. They all have a lot of 
value.
    Senator Mikulski. But lessons learned. Yes.
    Ms. Blum. Certainly the grant piece of it, where we get 
direct services to the children, that is really the most 
important thing we do. We have to get services to the children, 
the teachers and their families.
    Senator Mikulski. Do you have significant demand?
    Ms. Blum. Huge.
    Senator Mikulski. More than you can fund?
    Ms. Blum. More than we can fund. Yes. Absolutely.
    Senator Mikulski. We would like to know the bottom line. 
Here you are, you are a grant-making program, and we would love 
to know what is the demand that you get and then what is it 
that you can fund?
    Because, it just shows, I think this incredible pent-up 
demand. But one is the grant program. What is the other?
    Ms. Blum. The other part I would say is something that I 
actually did not talk about but it is in my written testimony 
and that is raising awareness. What the experts told us when we 
started this program was that as a corporation, as a 
nontraditional voice in this arena, it was very important for 
us to shine a spotlight on this issue and to really try to 
raise awareness in the country about the importance of the 
first 5 years of life.
    We buy so much media that we are able to really persuade 
some of our media partners to look more into this issue. We 
also purchase a lot of media around this. We have actually 
created 2\1/2\ billion impressions. And that is important 
because I think what we are helping to do is spark a dialogue 
among nontraditional thinkers in this arena.
    Senator Mikulski. I think that is excellent. I would say to 
my colleagues, because I know PNC is in Maryland, because it 
bought one of our older banks, Mercantile, but it came to us 
from Pittsburgh.
    Ms. Blum. Yes.
    Senator Mikulski. Isn't that your home base?
    Ms. Blum. That is our headquarters. Yes.
    Senator Mikulski. Is that where you are Miss Blum?
    Ms. Blum. It is. Yes.
    Senator Mikulski. Yes. And we know that there were some 
other business representatives, but I would encourage my 
colleagues that where they have the PNC, to help meet and raise 
awareness.
    I am going to recess the committee now. I think a lot of us 
would like to take one of those lunch breaks, go sing a song 
and come back.
    [Laughter.]
    But you have certainly been the high note of this kickoff 
of this first hearing. I hope this really sets the framework 
for the way this subcommittee will focus, very content-rich and 
I think you can see an atmosphere for civility and 
bipartisanship.
    So we really want to thank you for making a pretty big 
effort to be here today. You have made a major contribution on 
how we are going to think about this.
    We will be back to you for additional ideas. Each one of 
you could have been a solo act by themselves, we want to thank 
you.
    We are going to leave the record open for 10 businesses 
days, until June 23d, for Senators to put any additional 
written questions in or opening statements.
    This subcommittee is adjourned, subject to the chair, with 
the chair saying that before the summer ends we want to hold 
more hearings in this area because we think this could be the 
germination of where we could get some good bipartisan support 
and either pass some comprehensive legislation or even aspects 
of it, like Senator Burr's and Senator Casey's and so on.
    So really, thanks a lot. I am off to sing a song and thank 
you very much.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

 Prepared Statement of the American Public Human Services Association 
                                (APHSA)
    Chairman Mikulski, Ranking Member Burr and Honorable Members of the 
Senate Health, Education, Labor, and Pensions Subcommittee on Children 
and Families, on behalf of the American Public Human Services 
Association (APHSA) and the State child care administrators that it 
represents, we respectfully submit this statement for the record 
regarding the Senate hearing on ``getting the most bang for the buck: 
quality early education and care.''
    APHSA is a nonprofit, bipartisan organization representing State 
and local human service professionals for more than 80 years. APHSA 
serves State child care administrators and supports its members in 
developing, promoting and implementing child care and early learning 
policies that improve the well-being of children and the quality of 
child care. We bring the State child care administrators' perspective 
on issues facing the Nation's low-income children and families to the 
forefront of Congress and the Obama administration.
    As you know, child care is an essential resource for America's 
families to obtain and secure employment while simultaneously ensuring 
that today's children are prepared to be tomorrow's leaders. The Child 
Care and Development Block Grant (CCDBG) is the primary funding source 
that State child care administrators use to provide low-income families 
with subsidized child care so they can attain or maintain employment, 
and at the same time, support the investment of quality care and early 
education for children from birth to age 5.
    Quality child care supports children's learning and development to 
help them be school ready and prepared for pre-kindergarten and early 
elementary and secondary education programs and beyond. High-quality 
means enhancing professional development opportunities and providing 
specialized training and technical assistance for child care providers 
and improving the health and safety standards and of early learning 
settings. It also means expanding the supply of child care programs 
serving infants and toddlers, to name a few.
    According to Federal law, States are required to set aside 4 
percent of CCDBG funds to support quality child care initiatives. 
Currently, the CCDBG has afforded States with flexibility in their use 
of quality dollars, which has been essential in supporting initiatives 
that encourage innovation and strengthen early care and education 
programs. In addition to providing training and other resources for 
child care workers, States have been able to improve quality rating and 
improvement systems (QRIS) and establish compensation projects to 
create advancement in the workforce and improve health and safety 
standards in child care settings.
    The Administration for Children and Families (ACF) fiscal year 2012 
Budget reports that in fiscal year 2009, States spent approximately 
$988 million, or 11 percent, of CCDBG funds on quality improvement 
activities, which exceeds the statutory quality spending requirement. 
This clearly demonstrates the commitment States have to improving 
quality and investing in our Nation's children. Twenty-three States 
have developed statewide QRIS that set standards for excellence for 
child care providers and help create a pathway for them to continually 
meet and improve these standards. The fiscal year 2010-11 Child Care 
and Development Fund State Plans that States submit to ACF biannually 
indicate that 32 States and United States territories reported that 
they have implemented professional development plans to provide better 
training and preparation for early childhood providers and 17 States 
and territories mentioned being in the process of implementing such 
efforts. Thirty-eight States have implemented early learning guidelines 
for young children that are aligned with State K-12 standards and are 
matched with the education and training of caregivers, preschool 
teachers and administrators. States truly know the value of improving 
the quality of child care and have raised the bar despite the limited 
funds to continue this progress.
    High-quality care is beneficial for securing the Nation's workforce 
and developing human capital, yet it continues to be in great demand. 
We know through research that high-quality care can contribute not only 
to improving the developmental, social, emotional and educational needs 
of our children, but also to supporting the return on States' 
investments, hence giving States and the Federal Government a bigger 
bang for the buck.
    The CCDBG is due for reauthorization. Today, Federal child care 
funding levels have not aligned with program needs and the expenditures 
related to child care costs. This has become extremely problematic for 
States with the rise in inflation since the CCDBG was last reauthorized 
in 2002. This tough economy and decreases in State and Federal budgets 
have also exacerbated the situation. We urge Congress to reauthorize 
this vital program to improve the quality of child care and provide 
families with greater access to this type of care. As a result, we 
expect this will produce a greater return on States' investment by 
preparing the future leaders of America in their early years of life.
    We recommend the following:

    <bullet> Reauthorize the CCDBG and preserve its funding levels;
    <bullet> Maintain State flexibility to blend targeted funds to 
support employment for parents and promote quality care for children;
    <bullet> Relax Federal requirements for matching funds;
    <bullet> Support States' efforts to address the workforce 
development needs of child care workers that promote high-quality care 
and early education.

    We look forward to working with Congress on these recommendations. 
Thank you for the opportunity to submit our comments and your interest 
in examining the investment of quality early education and care. If you 
have any questions, please contact Rashida Brown at (202) 682-0100 x225 
or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e79586948f8e8386c98595889089a786978f9486c9889580c9">[email&#160;protected]</a>
              Questions of Senator Murray to Joan Lombardi
    Question 1. While we know it's important that early childhood 
educators understand language and literacy development, isn't it also 
true that supporting family literacy is also a critical element in 
preparing children for pre-K and kindergarten? Additionally, can you 
discuss the importance of providing literacy opportunities for parents 
of young children to ensure children are ready for early learning 
opportunities?

    Question 2. Have you noticed an impact as a result of losing $900 
million in child care funding? If so, please discuss your observations.

    Question 3. How can Federal investments in early care and education 
be best leveraged to ensure that more children enter kindergarten ready 
to learn?

    Question 4. The early education system extends through third grade. 
However, little has been said about improvements to kindergarten 
through third grade. How do we ensure that the gains children make in 
early childhood programs do not fade or disappear altogether in 
elementary school?

    [Responses to the above questions were not available at time of 
print.]
  Response to Questions of Senator Murray by Dennis Hillian, Linda K. 
   Smith, Arthur J. Rolnick, Eva Tansky Blum, and Charlie Mills, III
                             dennis hillian
    Question. The early education system extends through third grade. 
However, little has been said about improvements to kindergarten 
through third grade. How do we ensure that the gains children make in 
early childhood programs do not fade or disappear altogether in 
elementary school?
    Answer. Judy Centers provide evaluation reports to the MSDE's 
Division of Early Childhood Development, at the end of each fiscal 
year. The scope of the annual Judy Center evaluation is limited to the 
specific conditions of each Judy Center Partnership. The Results Based 
Accountability (RBA) process is used. The process is designed to 
provide information about the implementation of the 12 Components at 
each Judy Center, as well as account for specified outcomes as set out 
in each Judy Center's annual grant renewal application. Evaluation 
reports include the results of the Maryland Model for School Readiness 
(MMSR) Kindergarten Assessment data collected during the fall and 
spring of each year. Judy Centers may also use local school system 
benchmark data and other information (e.g., parent surveys, focus 
groups) as part of their evaluation reports. The annual evaluations 
also point out that children with Judy Center experiences sustain their 
gains through 3d grade as measured by the Maryland School Assessment 
(MSA). Below is an example of MSA data collected at the Wicomico County 
Judy Center. The data compares Reading and Math scores for 3d Grade 
students that had the Judy Center experience, at a minimum, during 
their kindergarten year with those students in 3d Grade who did not 
have the benefits of the Judy Center experience.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                             linda k. smith
    Question. The early education system extends through third grade. 
However, little has been said about improvements to kindergarten 
through third grade. How do we ensure that the gains children make in 
early childhood programs do not fade or disappear altogether in 
elementary school?
    Answer. I will answer this from an early childhood perspective.

    <bullet> First and foremost, we need to do a better job of 
transitioning children from any early childhood setting to schools. We 
need better cooperation and communication between the public schools 
and early childhood programs to prepare both children and parents for 
the changes and to share expectations. In many communities, early 
childhood programs can only guess at what is expected by the public 
schools. Although there have been attempts at this, much more needs to 
be done.
    <bullet> Second, early childhood settings focus on developmentally 
appropriate practices which are comprehensive in nature and generally 
allow children more choices and control over their own learning. When 
children get to public schools the focus tends to shift radically 
towards a more academic approach. Today, even kindergartens are more 
focused on cognitive skills than ever before. It would help to have a 
more gradual shift from child-centered learning to teacher-directed 
instruction, especially in the kindergarten and first grade. This would 
ensure that children are allowed to adjust not fail.
    <bullet> The third thing that schools need to pay attention to are 
parents. Early childhood programs have constant contact with parents, 
mostly because the ages of the children demand it, but also because 
parents are dropping off and picking children up from their actual 
classrooms. This provides for better communication. When children start 
to ride school busses, parents and teachers lose daily contact and the 
child's learning is not reinforced in the same way. All the research 
shows that parent involvement is an important predictor of school 
success. Schools need to make this a top priority, especially in the K-
3 grades.
                           arthur j. rolnick
    Question 1. Many States are cutting funding for child care and pre-
K programs while districts are moving from full-day to half-day 
kindergarten. Can you quantify the economic impact of such actions on 
future State and school budgets?
    Answer 1. Research shows that children who attend high-quality 
preschool and child care programs are more likely to arrive at 
kindergarten prepared to succeed in school and life. In the long run, 
government saves money due to reductions in remedial education and 
crime costs, and society benefits due to higher participant earnings 
and avoided crime costs to individuals. In Enriching Children, 
Enriching the Nation,\1\ Robert Lynch calculates that spending an 
additional $8.2 billion annually to provide all low-income 3- and 4-
year-old children with a high-quality preschool program beginning in 
2007 would result in $315 billion in total benefits (government and 
society) by 2050, or 12 times the amount spent to provide preschool 
that year.
---------------------------------------------------------------------------
    \1\ Lynch, R. (2007) Enriching Children, Enriching the Nation: 
Public Investment in High-Quality Pre-kindergarten. Washington, DC: 
Economic Policy Institute.
---------------------------------------------------------------------------
    In 2050, government alone would save $83 billion, or $3.18 for 
every dollar invested in preschool. This means that for every dollar 
Federal and State government cuts today toward high-quality preschool, 
government will require about $3 in additional revenue in 2050 to pay 
for the same budget priorities. Furthermore, society would lose the 
benefits of higher earnings and avoided crime costs to individuals.
    A State-level analysis of Michigan's preschool program for at-risk 
4-year-old children shows that the investment the State made 25 years 
ago now produces twice the amount of cost savings to government than 
the cost of providing preschool.\2\ Conversely, for every dollar that 
Michigan cuts from preschool today, the State will likely need to pay 
twice as much annually in remedial education, crime and other costs 25 
years from now.
---------------------------------------------------------------------------
    \2\ Chase, R., Anton, P., Diaz, J., Martin Rogers, N., & Rausch, E. 
(2009) Cost Savings Analysis of School Readiness in Michigan. St. Paul, 
MN: Wilder Research.

    Question 2. The early education system extends through third grade. 
However, little has been said about improvements to kindergarten 
through third grade. How do we ensure that the gains children make in 
early childhood programs do not fade or disappear altogether in 
elementary school?
    Answer 2. Research suggests that differences in school quality (in 
particular, class size of no more than 20 children per teacher and 
individual child mentoring) can impact gains made in preschool. That 
is, without following up the gains made in early childhood education 
during the first few grades of school, benefits from preschool could 
erode.\3\ Indeed, a recent study of at-risk children schooled in 
Chicago and tracked to age 26 demonstrated that combining high-quality 
preschool with high-quality early elementary grade classrooms mitigates 
fade-out.\4\ In addition, supplementary literacy tutoring programs, 
such as AmeriCorp's Minnesota Reading Corps, demonstrates that tutoring 
children kindergarten to third grade can help enhance literacy skills 
honed during preschool.\5\
---------------------------------------------------------------------------
    \3\ Currie, J. & Duncan, T. (2000) ``School Quality and the Longer-
Term Effects of Head Start.'' Journal of Human Resources 4(35), 755-74.
    \4\ Reynolds, A.J., Temple, J.A., White, B.A.B., Ou, S.-R., & 
Robertson, D.L. (2011) ``Age 26 Cost-Benefit Analysis of the Child-
Parent Center Early Education Program.'' Child Development 1(82), 379-
404.
    \5\ Bollman, K. & Silberglitt, B. (2009) Minnesota Reading Corps 
Final Evaluation 9/1/2008--6/30/2009 Statewide Report. http://
www.minnesotareadingcorps.org/sites/default/files/2008-
2009%20MRC%20Final%20Evaluation.pdf (accessed July 2011).
---------------------------------------------------------------------------
    Moreover, research shows that early childhood programs that focus 
on engaging parents can foster more engaged parents once children reach 
school age.\6\ And there is considerable evidence indicating that 
children of engaged parents (that is, parents who are involved in their 
children's education) are much more likely to succeed in school.\7\
---------------------------------------------------------------------------
    \6\ Gaylor, E., Spiker, D., Williamson, C., and Ferguson, K. (2011) 
Saint Paul Early Childhood Scholarship Program Evaluation. Annual 
Report: Year 3. Menlo Park, CA: SRI International.
    \7\ Cotton, K., & Wikelund, K. R. (2001) ``Parent involvement in 
education.'' School Improvement Research Series. Portland, OR: 
Northwest Regional Educational Laboratory.
---------------------------------------------------------------------------
                            eva tansky blum
    Question. The early education system extends through third grade. 
However, little has been said about improvements to kindergarten 
through third grade. How do we ensure that the gains children make in 
early childhood programs do not fade or disappear altogether in 
elementary school?
    Answer. Although the PNC Grow Up Great program directs grant 
dollars to children from birth to age 5 so that we can focus our 
efforts and have a greater impact, we recognize the importance of 
providing quality education to children throughout their school years. 
Experts tell us that retaining the progress made in high-quality 
preschool is not a major problem, the greater challenge is to ensure 
that preschool is of high enough quality to ensure large gains from the 
start. Nevertheless, there are steps that can be taken to maximize 
continuing benefits as children proceed through elementary school.
    A smooth transition from the early learning setting to kindergarten 
is very important. This must involve parents and teachers. Parents must 
register their children early so that the school can prepare for these 
new students. Parents need to be involved in their child's education, 
something we emphasize in our grant programs.
    The teachers in pre-K and in kindergarten must work together as a 
team. They must support curriculum that continues learning in a 
seamless way. Curriculum must be done in sequence, and each phase of 
education should support the previous and future phases. Children learn 
best when there are no gaps in their curriculum.
    It is also critical that teachers are properly trained. Teachers in 
K-3 should also be certified, or at least have some professional 
development, in early learning or pre-K. This helps them understand how 
very young children learn.
    Finally, when expansion of high-quality preschool occurs on a large 
scale, teachers in kindergarten and the primary grades need to adjust 
their teaching to recognize the advances in children's knowledge, 
skills, and approaches to learning. Professional development and 
coaching focused on the needed changes can help teachers greatly in 
this process.
                           charlie mills, iii
    Question. The early education system extends through third grade. 
However, little has been said about improvements to kindergarten 
through third grade. How do we ensure that the gains children make in 
early childhood programs do not fade or disappear altogether in 
elementary school?
    Answer. I am not an educator so I don't have the practical nor 
academic background to qualify as an expert in this area. However, as a 
parent I have seen first-hand the decline in academic achievement and 
interest in my middle daughter--my experience informs my comments on 
this subject. My middle daughter is now 11 and is a rising 6th grader. 
We enrolled our daughter in a highly-respected private school (it is an 
``academy,'' not a day care) near our home when she was 2; this was a 
deliberate choice because we wanted to prepare her for school, not 
unlike many early childhood programs. For 3 years, she thrived at the 
school and consistently tested two grade levels above for reading and 
one grade level for math. When she was old enough to attend 
Kindergarten and since me and my wife are the product of a ``good'' 
public school system, we made the decision to put her in public school. 
Because of the excellent academics she received at the private school, 
our daughter was considered an ``advanced'' student. As the public 
school curriculum was designed for an ``average'' Kindergartener, her 
Kindergarten teacher had to create special lessons for her. This ad hoc 
arrangement was suitable at the time, but we could see that she was 
still not being challenged and in essence re-doing what she had done in 
the private preschool. We subsequently discussed with the public school 
administration the possibility of skipping our daughter a grade, and 
therefore ensuring she remained challenged. They strongly resisted this 
idea as they called it too unique, so we ended up leaving her in place, 
which in retrospect was a major mistake. While our daughter has 
progressed adequately through elementary school, by 2d grade, her test 
scores were just slightly above par with her grade level; more 
importantly, she no longer had the same zest and enthusiasm for 
learning as she did when she was in preschool and Kindergarten. Our 
daughter's diminished zeal for academics is what we feared most by 
leaving her in the public school system, and unfortunately our fears 
have become reality. That outlook has persisted over the last 3 years 
and as she enters middle school, the child who once loved every aspect 
of school and academics, now views school both boring and a necessary 
evil. In addition, her once desire to read on a daily basis, has 
diminished to an outright hatred to read and a continuous battle in our 
household--a scenario that probably plays itself out in many 
disadvantaged family's homes throughout America. In retrospect, we 
should have either pushed harder to get her moved up a grade or looked 
at moving her back to private school--ensuring that she would be taught 
on a level commensurate with her ability; using that as a lesson 
learned, we now have made the decision to keep our youngest daughter in 
private school to ensure she is continuously challenged. Just like her 
older sister, she has excelled in preschool and through 1st grade. She 
will be entering 2d grade in the fall, and while the future is not set, 
it appears that her appetite for learning has not diminished and her 
aptitude seems to correspond to her desire to learn. While our 
experience is nowhere near scientific, the difference in our daughters' 
performance and perspective certainly has been very instructive for us.
    Based on our experiences, it is clear that a good early education 
program provides children the foundation they need as they enter the 
school system regardless of socioeconomic background. However, to 
ensure that children maintain this edge beyond the early education 
years, it is my opinion that we need to expand our focus beyond early 
childhood and look at the entire system through 12th grade. A system, 
by definition, is an interdependent group of items that form a unified 
whole; therefore, if we focus on just one item and neglect the others, 
there is bound to be an adverse effect on the whole. We have all heard 
about how our public schools are overcrowded and underfunded. Because 
of large class sizes, teachers are limited on how much time they can 
spend with individual students to provide them focused instructions and 
the lesson plans are geared to the ``lowest common denominator.'' While 
generally speaking, we have been pleased with our local school system 
(Loudoun County, VA), we believe the requirement for local schools to 
meet certain gates (e.g., Standards of Learning) has stifled creativity 
at these schools, as well as, reduced the tolerance for risk. When you 
add ``English as a second language,'' and other disadvantaged students 
to the mix, teachers are forced to focus their time improving those 
students' skills, at the disadvantage to the ``advanced'' students. 
Lack of funding further compounds their ability to innovate to support 
the different needs of their students. These are the very same issues 
that affect early education programs; they do not go away since 
children do not cross a ``magic'' threshold from 3d grade to 4th and 
beyond. As such, we need to apply the same level of energy in 
addressing the problems that affect our primary and secondary schools 
as we apply to our early childhood programs.
    In addition, studies show that without consistent reinforcements of 
lessons learned during the academic year, students can lose as much as 
30 percent of their grade level capacity over the summer break/months. 
These studies go on to conclude that families with the means--like my 
family--provide enrichment and other intellectually stimulating 
activities for their children over the summer months, while families 
without the means are not able to provide similar activities. This 
continued 30 percent degradation over a number of years; let's say from 
age 4 through age 14 (totaling 10 summers), has an exponential 
debilitating affect on the child. There is no surprise when the 
academic ability of high school graduating seniors from families with 
means far exceed those without. By providing the less fortunate family 
with either summer enrichment programs to continue to build on their 
early childhood education, and/or changing our ``academic year'' to a 
system that resembles Japan, requiring public school children to attend 
throughout the entire year including the summer, but with 2-week breaks 
throughout the year, early childhood learning can be reinforced through 
kindergarten and beyond.
    My family is extremely fortunate in that we have the option to 
place our children in private school as a means of ensuring their 
future academic and personal success. Because it is private, class 
sizes are smaller and they have the flexibility to change the 
curriculum or instructional method to meet the needs of students. Many 
other families do not have that luxury and must rely on the public 
educational system. Strengthening our public education system, as a 
whole, and extending learning into the summer months will go a long way 
in keeping the gains derived from early education programs and keeping 
our future generations competitive on a global scale.

    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                                     <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
